No.

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
JONATHAN C. BOND
Assistant to the Solicitor
General
SHARON SWINGLE
LOWELL V. STURGILL JR.
KAREN SCHOEN
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

The Patient Protection and Affordable Care Act
(ACA), 42 U.S.C. 18001 et seq., requires many group
health plans and health-insurance issuers that offer group
or individual health coverage to provide coverage for preventive services, including women’s preventive care, without cost-sharing. See 42 U.S.C. 300gg-13(a). Guidelines
and regulations implementing that requirement promulgated in 2011 by the Departments of Health and Human
Services, Labor, and the Treasury mandated that such
entities cover contraceptives approved by the Food and
Drug Administration. The mandate exempted churches,
and subsequent rulemaking established an accommodation for certain other entities with religious objections to
providing contraceptive coverage. In October 2017, the
agencies promulgated interim final rules expanding the
exemption to a broad range of entities with sincere religious or moral objections to providing contraceptive coverage. In November 2018, after considering comments
solicited on the interim rules, the agencies promulgated
final rules expanding the exemption. The questions presented are as follows:
1. Whether the agencies had statutory authority
under the ACA and the Religious Freedom Restoration
Act of 1993, 42 U.S.C. 2000bb et seq., to expand the conscience exemption to the contraceptive-coverage mandate.
2. Whether the agencies’ decision to forgo notice and
opportunity for public comment before issuing the interim
final rules rendered the final rules—which were issued
after notice and comment—invalid under the Administrative Procedure Act, 5 U.S.C. 551 et seq., 701 et seq.
3. Whether the court of appeals erred in affirming a
nationwide preliminary injunction barring implementation of the final rules.
(I)

PARTIES TO THE PROCEEDING

Petitioners are the President of the United States of
America; the Secretary of Health and Human Services;
the U.S. Department of Health and Human Services;
the Secretary of the Treasury; the U.S. Department of
the Treasury; the Secretary of Labor; and the U.S.
Department of Labor.
Respondents are the Commonwealth of Pennsylvania; the State of New Jersey; and the Little Sisters of
the Poor Saints Peter and Paul Home.
RELATED PROCEEDINGS

United States District Court (E.D. Pa.):
Commonwealth of Pennsylvania v. Donald J.
Trump, No. 17-4540 (Jan. 14, 2019)
United States Court of Appeals (3d Cir.):
Commonwealth of Pennsylvania v. President,
United States of Am., No. 17-3679 (Apr. 24, 2018)
(reversing denial of motion to intervene)
Commonwealth of Pennsylvania v. President,
United States of Am., Nos. 17-3752, 18-1253,
19-1129, and 19-1189 (July 12, 2019) (affirming
preliminary injunction)
Supreme Court of the United States:
Little Sisters of the Poor Saints Peter & Paul
Home v. Commonwealth of Pennsylvania,
No. 19-431 (filed Oct. 1, 2019) (pending petition
for writ of certiorari to review Third Circuit’s
judgment in Nos. 17-3752, 18-1253, 19-1129, and
19-1189)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory and regulatory provisions involved ........................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 14
I. The court of appeals’ holding that the final
rules are likely unlawful is incorrect and
warrants this Court’s review ..................................... 16
A. The agencies had statutory authority to
adopt the expanded exemptions ............................ 16
1. The ACA authorized the expanded
exemptions......................................................... 16
2. RFRA authorized and, for certain
employers, required the expanded
religious exemption .......................................... 20
3. The court of appeals’ holding that
the exemptions are likely statutorily
unauthorized warrants review ........................ 26
B. The final rules do not violate the APA .................. 27
1. The final rules, adopted after notice
and comment, comply with the APA
regardless of whether the interim rules
were procedurally defective ............................ 28
2. The court of appeals’ holding that
the final rules are likely procedurally
invalid warrants review .................................... 30
II. The court of appeals’ holding affirming a
nationwide injunction is incorrect and
warrants this Court’s review ................................ 32
Conclusion ................................................................................... 35
Appendix A — Court of appeals opinion (July 12, 2019) ...... 1a
Appendix B — District court opinion (Dec. 15, 2017) ......... 47a
Appendix C — District court order (Dec. 15, 2017) .......... 101a

(III)

IV
Table of Contents—Continued:

Page

Appendix D — District court opinion (Jan. 14, 2019) ....... 104a
Appendix E — District court order (Jan. 14, 2019) .......... 185a
Appendix F — Statutory and regulatory provisions ........ 188a
TABLE OF AUTHORITIES

Cases:
Advocate Health Care Network v. Stapleton,
137 S. Ct. 1652 (2017) ........................................................... 4
Advocates for Highway & Auto Safety v. Federal
Highway Admin., 28 F.3d 1288 (D.C. Cir. 1994) ............ 30
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014).....................................5, 6, 20, 21, 25, 26
California v. Azar, 911 F.3d 558 (9th Cir. 2018),
cert. denied, 139 S. Ct. 2716 (2019) ............................. 34, 35
Corporation of the Presiding Bishop of the Church
of Jesus Christ of Latter-Day Saints v. Amos,
483 U.S. 327 (1987).............................................................. 26
Federal Express Corp. v. Mineta,
373 F.3d 112 (D.C. Cir. 2004) ............................................. 31
Gill v. Whitford, 138 S. Ct. 1916 (2018) ............................... 32
Grupo Mexicano de Desarrollo, S.A. v. Alliance
Bond Fund, Inc., 527 U.S. 308 (1999) ............................... 32
Levesque v. Block, 723 F.2d 175 (1st Cir. 1983) .................. 30
Lewis v. Casey, 518 U.S. 343 (1996) ..................................... 32
Long Island Care at Home, Ltd. v. Coke,
551 U.S. 158 (2007).............................................................. 29
Madsen v. Women’s Health Ctr., Inc.,
512 U.S. 753 (1994).............................................................. 32
Nazareth Hosp. v. Secretary, HHS,
747 F.3d 172 (3d Cir. 2014) ................................................ 30
Priests for Life v. HHS, 808 F.3d 1 (D.C. Cir. 2015) ... 24, 25
Ricci v. DeStefano, 557 U.S. 557 (2009) .............................. 22

V
Cases—Continued:

Page

Russello v. United States, 464 U.S. 16 (1983) ..................... 18
Sharpe Holdings, Inc. v. HHS,
801 F.3d 927 (8th Cir. 2015),
vacated and remanded sub nom.
HHS v. CNS Int’l Ministries,
136 S. Ct. 2006 (2016) ................................................... 24, 25
Summers v. Earth Island Inst., 555 U.S. 488 (2009) ......... 32
Thomas v. Review Bd. of the Ind. Emp’t Sec. Div.,
450 U.S. 707 (1981).............................................................. 25
Town of Chester v. Laroe Estates, Inc.,
137 S. Ct. 1645 (2017) ......................................................... 32
Trump v. Hawaii, 138 S. Ct. 2392 (2018) ............................ 33
United States v. Mendoza, 464 U.S. 154 (1984).................. 33
Walz v. Tax Comm’n, 397 U.S. 664 (1970) .......................... 22
Zubik v. Burwell, 136 S. Ct. 444 (2015) ................................. 6
Zubik v. Burwell, 136 S. Ct. 1557 (2016) ......................... 7, 14
Constitution, statutes, and regulations:
U.S. Const.:
Art. III .................................................................. 15, 32, 33
Amend. I (Free Exercise Clause) .................................. 19
Administrative Procedure Act, 5 U.S.C. 551 et seq.,
701 et seq. ............................................................................... 8
5 U.S.C. 553 ...................................................................... 29
5 U.S.C. 553(b) ..............................................8, 13, 28, 188a
5 U.S.C. 553(b)(B) ........................................8, 13, 28, 188a
5 U.S.C. 553(c) ..............................................8, 13, 28, 188a
5 U.S.C. 559 ...................................................................... 28
5 U.S.C. 706(2)(A) .............................................................. 9
Civil Rights Act of 1964, 42 U.S.C. 2000e et seq. ................ 22
Tit. VII.............................................................................. 22

VI
Statutes and regulations—Continued:

Page

Employee Retirement Income Security Act of
1974, Pub. L. No. 93-406, 88 Stat. 829
(29 U.S.C. 1001 et seq.) ......................................................... 2
29 U.S.C. 1002(33)(C)(i) .................................................... 4
29 U.S.C. 1003(b)(2) .......................................................... 4
29 U.S.C. 1185d.................................................................. 2
29 U.S.C. 1191c .............................................2, 8, 13, 17, 28
Internal Revenue Code (26 U.S.C.):
26 U.S.C. 4980H(c)(2) (2012 & Supp. V 2017)................. 5
26 U.S.C. 9815(a)(1) ........................................................... 2
26 U.S.C. 9833 ...............................................2, 8, 13, 17, 28
Patient Protection and Affordable Care Act,
42 U.S.C. 18001 et seq. .......................................................... 2
42 U.S.C. 18011 .................................................................. 5
Public Health Service Act, 42 U.S.C. 201 et seq. .................. 2
42 U.S.C. 300gg-13(a).............................2, 12, 16, 19, 189a
42 U.S.C. 300gg-13(a)(1) ..............................2, 16, 19, 189a
42 U.S.C. 300gg-13(a)(1)-(3) ................................. 18, 189a
42 U.S.C. 300gg-13(a)(2) ......................................... 2, 189a
42 U.S.C. 300gg-13(a)(3) ............................................. 3, 19
42 U.S.C. 300gg-13(a)(4) ............ 3, 10, 16, 17, 18, 19, 190a
42 U.S.C. 300gg-92 .......................................2, 8, 13, 17, 28
Religious Freedom Restoration Act of 1993,
42 U.S.C. 2000bb et seq. ....................................................... 5
42 U.S.C. 2000bb-1(b) ..................................... 20, 23, 191a
45 C.F.R. (2018):
Section 147.131(a) (2016) ...................................... 20, 191a
Section 147.131-147.133 .......................................... 8, 192a
Section 147.132(a) .................................................. 10, 199a
Section 147.132(b) .................................................. 10, 201a

VII
Regulations—Continued:

Page

Section 147.133(a) .................................................. 10, 205a
Section 147.133(b) .................................................. 10, 206a
Miscellaneous:
Administrative Conference of the U.S.,
Recommendation 95-4, Procedures for
Noncontroversial and Expedited Rulemaking,
60 Fed. Reg. 43,108 (Aug. 18, 1995) .................................. 31
Samuel L. Bray, Multiple Chancellors: Reforming
the National Injunction,
131 Harv. L. Rev. 417 (2017) ............................................. 33
47 Fed. Reg. 38,409 (Aug. 31, 1982) ....................................... 3
76 Fed. Reg. 46,621 (Aug. 3, 2011) ................................... 3, 17
77 Fed. Reg. 8725 (Feb. 15, 2012) .......................................... 3
78 Fed. Reg. 8456 (Feb. 6, 2013) ............................................ 3
78 Fed. Reg. 39,870 (July 2, 2013).......................................... 4
79 Fed. Reg. 51,092 (Aug. 27, 2014) ....................................... 5
80 Fed. Reg. 41,318 (July 14, 2015) ........................................ 6
81 Fed. Reg. 47,741 (July 22, 2016) ........................................ 7
82 Fed. Reg. 47,792 (Oct. 13, 2017) .................5, 6, 7, 8, 24, 28
82 Fed. Reg. 47,838 (Oct. 13, 2017) ........................................ 8
83 Fed. Reg. 57,536 (Nov. 15, 2018) ............................ passim
83 Fed. Reg. 57,592 (Nov. 15, 2018) ............................... 10, 30
U.S. GAO, GAO-13-21, Federal Rulemaking:
Agencies Could Take Additional Steps to Respond
to Public Comments (2012) ................................................ 31

In the Supreme Court of the United States
No.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ET AL., PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of President Donald
J. Trump, et al., respectfully petitions for a writ of certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit in this case.
OPINIONS BELOW

The amended opinion of the court of appeals (App.,
infra, 1a-46a) is reported at 930 F.3d 543. The opinion
of the district court granting a preliminary injunction
(App., infra, 104a-184a) is reported at 351 F. Supp. 3d
791. An earlier opinion of the district court granting
a preliminary injunction (App., infra, 47a-100a) is
reported at 281 F. Supp. 3d 553.
JURISDICTION

The judgment of the court of appeals was entered on
July 12, 2019. The jurisdiction of this court is invoked
under 28 U.S.C. 1254(1).
(1)

2
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are
reproduced in the appendix to this petition. App., infra,
188a-210a.
STATEMENT

1. a. The preventive-services provision of the Patient
Protection and Affordable Care Act (ACA or Act),
42 U.S.C. 18001 et seq., requires many group health
plans and health-insurance issuers that offer group or
individual health coverage to provide coverage for certain preventive services without “any cost sharing
requirements.” 42 U.S.C. 300gg-13(a). The preventiveservices provision is part of the Public Health Service
Act, 42 U.S.C. 201 et seq., and it is also incorporated into
the Employee Retirement Income Security Act of 1974
(ERISA), Pub. L. No. 93-406, 88 Stat. 829 (29 U.S.C. 1001
et seq.), see 29 U.S.C. 1185d, and the Internal Revenue
Code, see 26 U.S.C. 9815(a)(1). The Departments of
Health and Human Services (HHS), Labor, and the
Treasury, respectively, enforce and have authority to
promulgate regulations implementing the relevant portions of those statutes. E.g., 42 U.S.C. 300gg-92; 29 U.S.C.
1191c; 26 U.S.C. 9833.
The ACA’s preventive-services provision requires
covered plans to provide coverage for “evidence-based
items or services” that are recommended by the United
States Preventive Services Task Force, an independent
panel of experts, 42 U.S.C. 300gg-13(a)(1); immunizations recommended by an advisory committee of the
Centers for Disease Control and Prevention (CDC),
42 U.S.C. 300gg-13(a)(2); and, “with respect to infants,
children, and adolescents, evidence-informed preventive
care and screenings provided for” in already-existing

3
“comprehensive guidelines supported by the” Health
Resources and Services Administration (HRSA), a component of HHS. 42 U.S.C. 300gg-13(a)(3); see 47 Fed.
Reg. 38,409 (Aug. 31, 1982). In addition, as relevant here,
Section 300gg-13(a)(4) requires covered plans to provide,
“with respect to women, such additional preventive care
and screenings not described in paragraph (1) as provided for in comprehensive guidelines supported by
[HRSA] for purposes of this paragraph.” 42 U.S.C.
300gg-13(a)(4).
b. In August 2011, HRSA issued guidelines that
adopted the recommendation of the Institute of Medicine to require coverage for women of (among other
things) all contraceptive methods approved by the Food
and Drug Administration (FDA). See 77 Fed. Reg.
8725, 8725 (Feb. 15, 2012). Coverage for such contraceptive methods was required for plan years beginning
on or after August 1, 2012. See 76 Fed. Reg. 46,621,
46,623 (Aug. 3, 2011). At the same time, the agencies that
administer the ACA—HHS, the Department of Labor,
and the Department of the Treasury—invoked their
authority under 42 U.S.C. 300gg-13(a)(4) to promulgate
interim final rules authorizing HRSA to exempt
churches and their integrated auxiliaries from the
contraceptive-coverage mandate. See 76 Fed. Reg. at
46,623. Those interim rules were finalized in February
2012. 77 Fed. Reg. at 8725.
Various religious groups urged the agencies to
expand the church exemption to cover all organizations
that had religious or moral objections to providing contraceptive coverage. See 78 Fed. Reg. 8456, 8459-8460
(Feb. 6, 2013). Instead, in a subsequent rulemaking, the
agencies made available what they termed an “accommodation,” which was limited to religious not-for-profit

4
organizations that had religious objections to providing
contraceptive coverage. See 78 Fed. Reg. 39,870,
39,874-39,882 (July 2, 2013). The accommodation
allowed a group health plan established or maintained
by an eligible objecting employer to opt out of any
requirement that the plan “contract, arrange, pay, or
refer for contraceptive coverage” by notifying its
insurer—or, in the case of self-insured plans, the plan’s
third-party administrator—of its objection. Id. at
39,874. The insurer or administrator would then be
required to provide or arrange contraceptive coverage
for plan participants. See id. at 39,875-39,880.
For certain self-insured plans, however, coverage by
the plan’s third-party administrator under the accommodation was effectively voluntary. The authority to
enforce a third-party administrator’s obligation to provide separate contraceptive coverage derives solely from
ERISA. But ERISA does not apply to so-called “church
plan[s],” 29 U.S.C. 1003(b)(2), which it defines to
“include[ ] a plan maintained by an organization” that has
as its “principal purpose or function” the “administration
or funding of a plan or program for the provision of
retirement benefits or welfare benefits, or both, for the
employees of a church or a convention or association of
churches” and that “is controlled by or associated with a
church or a convention or association of churches.”
29 U.S.C. 1002(33)(C)(i); see Advocate Health Care Network v. Stapleton, 137 S. Ct. 1652, 1656 (2017). Thus, in
addition to exempting churches and their integrated
auxiliaries from the contraceptive-coverage mandate,
the agencies in effect also exempted self-insured plans
for church-affiliated not-for-profit organizations—such
as hospitals and universities—because the agencies
could not require the third-party administrators of

5
those plans to provide or arrange for contraceptive coverage, nor impose fines or penalties for failing to do so.
See 79 Fed. Reg. 51,092, 51,095 n.8 (Aug. 27, 2014).
The ACA itself also exempted certain other employers from the contraceptive-coverage mandate. The Act
exempts from many of its requirements, including the
preventive-services requirement, so-called grandfathered
health plans—generally, those plans that have not made
certain specified changes since the Act’s enactment.
See 42 U.S.C. 18011. Grandfathered plans cover tens
of millions of people. See 82 Fed. Reg. 47,792, 47,794
& n.5 (Oct. 13, 2017). Employers with fewer than
50 employees also are not subject to the tax imposed
on employers that fail to offer health coverage, see
26 U.S.C. 4980H(c)(2) (2012 & Supp. V 2017), although
small employers that do provide non-grandfathered
coverage must comply with the preventive-services
requirement.
2. a. Many employers objected to the contraceptivecoverage mandate on religious grounds and filed suits
challenging it. Those challenging the mandate principally contended that it violated the Religious Freedom
Restoration Act of 1993 (RFRA), 42 U.S.C. 2000bb
et seq. See 82 Fed. Reg. at 47,796-47,797. A circuit conflict developed, and this Court granted certiorari to
resolve it in Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014).
Hobby Lobby held that RFRA prohibited applying
the mandate to closely held for-profit corporations with
religious objections to providing contraceptive coverage. See 573 U.S. at 705-736. The Court determined
that the mandate “impose[d] a substantial burden on
the exercise of religion” for such employers. Id. at 726;
see id. at 719-726. The Court further concluded that,

6
even assuming a compelling governmental interest in
“guaranteeing cost-free access to the four challenged
contraceptive methods,” applying the mandate was not
the least restrictive means of furthering that interest
and therefore was prohibited by RFRA. Id. at 728; see
id. at 726-732. The Court observed that the agencies
had already established an accommodation available to
not-for-profit employers and that, at a minimum, this
less restrictive alternative could be extended to closely
held for-profit corporations that have religious objections to the mandate but not to the accommodation. See
id. at 730-731. The Court “d[id] not decide * * *
whether an approach of this type complies with RFRA
for purposes of all religious claims.” Id. at 731 (emphasis added).
b. Following Hobby Lobby, the agencies promulgated rules that extended the accommodation to closely
held for-profit entities that have religious objections to
providing contraceptive coverage. 80 Fed. Reg. 41,318,
41,323-42,328 (July 14, 2015); see 82 Fed. Reg. at
47,797-47,798. Numerous entities, however, continued
to challenge the mandate even with the extended accommodation. Such entities principally asserted that the
accommodation made them complicit in providing coverage for contraceptives “because it utilized the plans the
[entities] themselves sponsored to provide services to
which they objected on religious grounds.” 82 Fed. Reg.
at 47,798. Another circuit split developed, and this Court
granted certiorari in several of the cases, which it consolidated. Ibid.; see, e.g., Zubik v. Burwell, 136 S. Ct. 444
(2015).
After briefing and argument in Zubik and the consolidated cases, the Court vacated all of the judgments

7
and remanded the cases to the respective courts of appeals without resolving the underlying merits. Zubik v.
Burwell, 136 S. Ct. 1557 (2016) (per curiam). The Court
“d[id] not decide whether [the plaintiffs’] religious
exercise ha[d] been substantially burdened, whether
the Government ha[d] a compelling interest, or whether
the current regulations [we]re the least restrictive
means of serving that interest.” Id. at 1560. Instead,
the Court directed that, on remand, the parties be given
an opportunity to resolve the dispute. See ibid. In the
meantime, the Court precluded the government from
“impos[ing] taxes or penalties on [the plaintiffs] for failure to provide” the notice required under the accommodation. Id. at 1561.
c. In response to this Court’s decision in Zubik, the
agencies sought public comment on whether further
modifications to the accommodation could resolve the
religious objections asserted by various organizations
while providing a mechanism for contraceptive coverage
for their employees. See 81 Fed. Reg. 47,741 (July 22,
2016). The agencies received over 54,000 comments but
could not identify a way to amend the accommodation
that would both satisfy objecting organizations and
ensure that women covered by those organizations’ plans
receive seamless contraceptive coverage. 82 Fed. Reg.
at 47,798-47,799, 47,814.
As a result, as of January 2017, the pending litigation
concerning the mandate and extended accommodation—
consisting of more than three dozen cases, brought by
more than 100 separate plaintiffs—remained unresolved. In addition, some nonreligious organizations
with moral objections to providing contraceptive cover-

8
age had filed suits challenging the mandate. That litigation also led to conflicting decisions by the courts.
See 82 Fed. Reg. 47,838, 47,843 (Oct. 13, 2017).
3. a. In an effort “to resolve the pending litigation
and prevent future litigation,” the agencies subsequently “reexamine[d]” the contraceptive-coverage
mandate’s “exemption and accommodation scheme.”
82 Fed. Reg. at 47,799. In October 2017, the agencies
jointly issued two interim final rules that expanded the
exemption to a broad range of entities that have either
sincere religious objections or sincere moral objections
to providing contraceptive coverage, while continuing to
offer the existing accommodation as an optional alternative. See id. at 47,792 (religious exemption); id. at
47,838 (moral exemption); 45 C.F.R. 147.131-147.133.
The agencies explained that their statutory authority to issue “interim final rules,” 26 U.S.C. 9833;
29 U.S.C. 1191c; 42 U.S.C. 300gg-92, permitted the
issuance of immediately effective interim rules without
the prior notice and opportunity for public comment
that is ordinarily required by the Administrative Procedure Act (APA), 5 U.S.C. 551 et seq., 701 et seq.; see
5 U.S.C. 553(b) and (c); 82 Fed. Reg. at 47,813-47,815,
47,854-47,856. The agencies additionally concluded that
the “good cause” exception to the APA’s notice-andcomment requirement, 5 U.S.C. 553(b)(B), permitted
them to issue interim rules without notice and comment
in order to protect religious liberty and end the litigation that had beset the prior rules. 82 Fed. Reg. at
47,813-47,815, 47,854-47,856. The agencies did, however, solicit public comments for 60 days following
promulgation of the interim rules in anticipation of final
rulemaking. See id. at 47,792, 47,838.

9
Pennsylvania brought this suit challenging the
interim rules, alleging (as relevant here) that the rules
(1) failed to comply with the APA’s notice-and-comment
requirements; and (2) were arbitrary and capricious,
an abuse of discretion, or otherwise contrary to law,
5 U.S.C. 706(2)(A), because they violated the ACA
and were not justified by RFRA. C.A. App. 193-196.
Pennsylvania sought a preliminary injunction barring
enforcement of the interim rules, which the district court
granted. App., infra, 47a-103a. The court rejected the
government’s objection to Pennsylvania’s standing; held
that the agencies lacked statutory authority or good cause
to issue the rules without notice and comment; and further
held that neither the ACA nor RFRA authorized the
expanded exemption from the contraceptive-coverage
mandate. See id. at 66a-91a.
The government appealed the preliminary injunction. The Little Sisters of the Poor Saints Peter and
Paul Home (Little Sisters), which intervened in the district court to defend the interim rules, also appealed,
and the appeals were consolidated. 17-3752 C.A. Order
1-2 (June 20, 2018); see 888 F.3d 52, 57-62 (3d Cir. 2018)
(reversing denial of Little Sisters’ motion to intervene).
b. In November 2018, while the government’s appeal
of the preliminary injunction against implementation of
the interim rules was pending, and after considering the
public comments received on the interim rules, the
agencies promulgated final rules that superseded the
interim rules. See 83 Fed. Reg. 57,536 (Nov. 15, 2018)
(religious exemption); 83 Fed. Reg. 57,592 (Nov. 15,
2018) (moral exemption).
i. Like the interim rules, the final rules expanded
the existing religious exemption to cover nongovern-

10
mental plan sponsors and institutions of higher education that arrange student health plans, to the extent
that those entities have sincere religious objections to
providing contraceptive coverage. See 83 Fed. Reg. at
57,558-57,565, 57,590 (45 C.F.R. 147.132(a)). The agencies also finalized an exemption for entities (except for
publicly traded companies) that have sincere moral
objections to such coverage. See id. at 57,614-57,621,
57,630-57,631 (45 C.F.R. 147.133(a)). Both rules retained
the accommodation as a voluntary option. See, e.g., id.
at 57,537-57,538. And both rules finalized an individual
exemption that allowed—but did not require—willing
employers and insurers to offer plans that omit contraceptive coverage to individuals who have religious or
moral objections to such coverage. See id. at 57,590,
57,631 (45 C.F.R. 147.132(b), 147.133(b)).
The agencies concluded that Congress had granted
HRSA discretion to determine the content and scope
of any preventive-services guidelines adopted under
42 U.S.C. 300gg-13(a)(4). 83 Fed. Reg. at 57,540-57,542.
The agencies observed that, “[s]ince the[ir] first rulemaking on this subject in 2011,” they “ha[d] consistently
interpreted the broad discretion granted to HRSA in
section [300gg-13(a)(4)] as including the power to reconcile the ACA’s preventive-services requirement with
sincerely held views of conscience on the sensitive subject of contraceptive coverage—namely, by exempting
churches and their integrated auxiliaries from the contraceptive [m]andate.” Id. at 57,541. The agencies concluded that, “[b]ecause of the importance of the religious liberty values being accommodated” and “the limited impact of these rules,” the expanded exemptions
“are good policy.” Id. at 57,552. The agencies also took
into account “Congress’s long history of providing

11
exemptions for moral convictions, especially in certain
health care contexts,” id. at 57,598, state “conscience
protections,” id. at 57,601, and “the litigation surrounding the [m]andate,” id. at 57,602.
The agencies additionally determined that the religious exemption was independently authorized by
RFRA. See 83 Fed. Reg. at 57,544-57,548. They concluded that, “even if RFRA does not compel” the religious exemption, “an expanded exemption rather than
the existing accommodation is the most appropriate
administrative response to the substantial burden identified by the Supreme Court in Hobby Lobby.” Id. at
57,544-57,545. They further concluded that RFRA in
fact required the exemption. See id. at 57,546-57,548.
ii. Following the issuance of the two final rules, New
Jersey joined Pennsylvania’s suit. The two States filed
an amended complaint challenging the final rules,
and they sought a preliminary injunction against their
implementation. App., infra, 11a. The district court
granted a nationwide preliminary injunction barring
the implementation of both rules. Id. at 104a-187a.
The district court again held that the plaintiff States
have standing. App., infra, 120a-128a. On the merits, it
concluded that the final rules were procedurally invalid
under the APA. Id. at 133a-145a. The court determined
that, although the agencies had likely complied with the
APA’s notice-and-comment requirements with respect
to the final rules themselves, the States were likely to
succeed on their claim that the final rules were “fatally
tainted” by the interim rules, which the court had previously determined were likely adopted in violation of
the APA. Id. at 144a. The court further held that the
final rules, like the interim rules, are unlawful because

12
neither the ACA nor RFRA authorizes the expanded
exemption. See id. at 146a-168a.
Finding that the equities warranted a preliminary
injunction, see App., infra, 168a-173a, the district court
enjoined the agencies from “enforcing” the final rules
“across the Nation,” id. at 185a-186a. The court reasoned that an injunction limited to the plaintiff States
would not fully redress their alleged injuries because
such an injunction would not reach residents of those
States who work for out-of-state employers or students
covered under the insurance plans of parents who live
out of state. See id. at 174a-184a. 1
4. The government appealed, and its appeal was consolidated with the pending appeal concerning the
interim rules. See 17-3752 C.A. Order 2 (Jan. 9, 2019).
The court of appeals affirmed. App., infra, 1a-46a. 2
The court of appeals held that the plaintiff States have
standing to challenge the final rules. App., infra, 14a-22a.
On the merits, the court held that the States were likely
to prevail on their claim that the agencies lacked statutory
authority to promulgate the final rules. See id. at 32a-36a.
The court concluded that Section 300gg-13(a) does
not confer authority to establish any exemptions to the
contraceptive-coverage mandate. See ibid. The court
rejected the government’s contention that, if the ACA did
not authorize the final rules’ religious and moral exemptions, then it also did not authorize the earlier exemption
for churches. Id. at 33a n.26.
1
The district court correctly declined to impose injunctive relief
against the President. App., infra, 186a n.1.
2
Little Sisters also appealed, but the court of appeals concluded
that it lacked appellate standing because of an injunction issued in
another case applicable to plans in which it participates. App., infra,
9a n.6.

13
The court of appeals also held that RFRA did not
authorize the religious exemption. App., infra, 36a-42a.
The court concluded that the existing accommodation
satisfies RFRA, so RFRA did not require the agencies
to provide the religious exemption. See ibid. The court
did not address the agencies’ additional argument that,
even if RFRA does not require the religious exemption,
RFRA at a minimum permits the agencies to adopt that
exemption as a means of eliminating the substantial burden on religion imposed by the mandate. Cf. Gov’t C.A.
Br. 49-53.
The court of appeals additionally held that the States
were likely to succeed in showing that the final rules
were procedurally invalid under the APA. App., infra,
23a-32a. The court concluded that the agencies had
improperly promulgated the interim rules without first
providing the public notice and opportunity for comment
required by 5 U.S.C. 553(b) and (c). App., infra, 23a-28a.
The court rejected the government’s contentions that the
agencies were authorized to adopt interim rules without
notice and comment based on other statutory provisions,
see id. at 23a-25a (discussing 26 U.S.C. 9833, 29 U.S.C.
1191c, and 42 U.S.C. 300gg-92), or the APA’s own “good
cause” exception, 5 U.S.C. 553(b)(B), see App., infra,
26a-28a.
The court of appeals likewise rejected the government’s contention that the final rules, adopted after
notice and comment, were valid irrespective of any putative procedural defect in the interim rules. See App., infra, 29a-32a. It determined that “deficits in the promulgation of the [interim rules] compromised the procedural
integrity of the Final Rules.” Id. at 31a-32a. The court
concluded that “[t]he notice and comment exercise surrounding the Final Rules d[id] not reflect any real open-

14
mindedness toward the position set forth in the [interim
rules],” citing the similarity between the interim and final
rules.
The court of appeals concluded that the balance of
equities supported a preliminary injunction. See App.,
infra, 42a-43a. The court determined that the plaintiff
States will suffer irreparable harm if the final rules are
implemented, and the exemptions are not necessary to
protect any legally cognizable interest. See ibid. The
court also upheld the injunction’s “nationwide” scope.
Id. at 43a; see id. at 43a-46a. It stated that “[a]n injunction geographically limited to the [plaintiff] States alone
will not protect them from financial harm, as some share
of their residents” are covered by plans of out-of-state
employers and may lose coverage and turn to statefunded services if their plans invoke the exemption. Id.
at 44a.
REASONS FOR GRANTING THE PETITION

In Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per
curiam), and the consolidated cases, this Court granted
certiorari to address whether the contraceptive-coverage
mandate violated RFRA notwithstanding the accommodation that federal agencies had adopted for entities
that objected to the mandate. But the Court ultimately
did not answer that question, and instead remanded
each case to allow the agencies and other parties to
explore potential modifications to the accommodation
that might resolve the parties’ disagreements. See id.
at 1560-1561. The agencies, however, were unable to
find a way to modify the accommodation that adequately addressed the concerns of all sides.
Seeking to resolve the continuing uncertainty and
litigation, the agencies subsequently promulgated, after
soliciting public comment, the final rules at issue here,

15
which leave the mandate in place but exempt those with
sincere religious or moral objections to providing contraceptive coverage. That effort to resolve the controversy through rulemaking was thwarted by the decision
below, in which the court of appeals held that the final
rules are likely unlawful and upheld a nationwide
injunction against their implementation. Litigation
over the final rules is also ongoing elsewhere. This
Court’s review is once again warranted to bring clarity
and closure that neither lower courts nor now the agencies can provide.
Indeed, the need for this Court’s intervention is even
more acute than in Zubik because the court of appeals’
decision erroneously restricts the agencies’ ability to
redress religious burdens caused by the mandate. The
court’s conclusion that the ACA itself confers no authority on the agencies to recognize conscience exceptions
imperils not only the exemptions in these rules, but the
longstanding exemption for churches and (in practical
effect) self-insured church plans. The court’s unexplained holding that the agencies cannot go beyond
measures the court determined are compelled by
RFRA—in redressing a substantial burden on religion
identified by this Court—is also incorrect, and it threatens to impair agencies’ ability to address religious
objections in other contexts.
The court of appeals’ alternative holding—that the
final rules were tainted by putative procedural defects
it found in the interim rules—is contrary to law and
logic, creates a circuit conflict, and casts doubt over
many other rulemakings. And the court’s affirmance of
a nationwide injunction to redress the asserted injuries
to two States contravenes bedrock principles of Article
III and equity and sweeps far beyond what is necessary

16
and appropriate to redress any harm to them. The
result the court of appeals reached—effectively nullifying regulations jointly promulgated by three federal
agencies to bring years of litigation to a close—and the
multiple errors in its reasoning amply warrant this
Court’s review. The petition should be granted.
I. THE COURT OF APPEALS’ HOLDING THAT THE FINAL
RULES ARE LIKELY UNLAWFUL IS INCORRECT AND
WARRANTS THIS COURT’S REVIEW
A. The Agencies Had Statutory Authority To Adopt The
Expanded Exemptions

The court of appeals erred in concluding that the
religious and moral exemptions likely exceeded the
agencies’ statutory authority. Both exemptions are
authorized by the ACA itself, which empowers HRSA to
determine which preventive services for women plans
must cover. 42 U.S.C. 300gg-13(a)(4). The religious
exemption is also independently authorized—indeed,
required—by RFRA. The court of appeals’ contrary
holdings lack merit and warrant this Court’s review.
1. The ACA authorized the expanded exemptions

a. The ACA’s preventive-services provision states
that certain health plans “shall * * * provide coverage,”
without cost-sharing, for certain preventive services.
42 U.S.C. 300gg-13(a). For example, for all individuals,
such plans must cover preventive services recommended
by the Preventive Services Task Force. 42 U.S.C.
300gg(a)(1). In addition, “with respect to women,” the
provision requires plans to cover “such additional preventive care * * * as provided for in comprehensive
guidelines supported by [HRSA] for purposes of this
paragraph.” 42 U.S.C. 300gg-13(a)(4).

17
The statute does not specify any particular types of
“additional preventive care” for women that such guidelines must include. Instead, Congress reserved the
scope, substance, and enforcement of those guidelines
to HRSA—and in turn its parent, HHS. Congress has
also authorized HHS and the Departments of Labor and
the Treasury to adopt rules implementing (inter alia)
the preventive-services provision. 42 U.S.C. 300gg-92;
29 U.S.C. 1191c; 26 U.S.C. 9833.
Together, Section 300gg-13(a)(4) and those grants of
rulemaking authority empower the agencies to exempt
particular entities from providing services that HRSA’s
guidelines would otherwise require. Indeed, since August
2011—when HRSA first issued its guidelines generally
requiring coverage for FDA-approved contraceptives,
see p. 3, supra—the agencies have exercised their statutory authority under Section 300gg-13(a)(4) by exempting churches and their integrated auxiliaries from the
contraceptive-coverage mandate. See 76 Fed. Reg. at
46,623. The plaintiff States have never disputed the
agencies’ authority to create that exemption. The agencies properly invoked that same authority in adopting
the expanded religious and moral exemptions at issue
here.
b. The court of appeals erred in concluding that Section 300gg-13(a)(4) does not authorize the agencies to
exempt particular entities from the requirement to cover
particular preventive services for women. App., infra,
32a-35a. The court concluded that Section 300gg-13(a)(4)
“concerns the type of services that are to be provided and
does not provide authority to undermine Congress’s
directive concerning who must provide coverage for
these services.” Id. at 33a. That is incorrect.

18
Nothing in Section 300gg-13(a)(4)’s text compels
HRSA to require that every service enumerated in its
guidelines be covered on an all-or-nothing basis by all
plans, or precludes the agency from specifying conditions under which a plan need not cover particular services. On the contrary, the provision’s language requiring that services be covered “as provided for in comprehensive guidelines supported by [HRSA],” 42 U.S.C.
300gg-13(a)(4) (emphases added), indicates that the
agency may determine the manner and circumstances
in which services are covered. Moreover, Congress’s
use of the phrase “comprehensive guidelines supported
by [HRSA] for purposes of this paragraph,” ibid.
(emphasis added), suggests that the agency can and
should consider the context and purpose of the statutory mandate in shaping its guidelines.
Context reinforces the natural reading of the text.
Paragraph (a)(4) of Section 300gg-13 contrasts with the
preceding three paragraphs, which require covered
plans to cover “evidence-based items or services that
have in effect” a particular rating “in the current recommendations of ” the Preventive Services Task Force;
“immunizations that have in effect a recommendation
from the [CDC’s] Advisory Committee”; and, “with
respect to infants, children, and adolescents, evidenceinformed preventive care and screenings provided for in
the comprehensive guidelines supported by [HRSA].”
42 U.S.C. 300gg-13(a)(1)-(3). None of those paragraphs
employs the “as provided for” or “for purposes of this
paragraph” language that appears in paragraph (a)(4),
an omission that courts should presume is purposeful,
see Russello v. United States, 464 U.S. 16, 23 (1983).
In addition, each of those earlier paragraphs refers
to recommendations or guidelines that were already in

19
existence when the ACA was enacted. In contrast, the
“comprehensive guidelines” for women’s preventive
services mentioned in paragraph (a)(4) did not yet exist.
42 U.S.C. 300gg-13(a)(4). Congress thus necessarily
vested HRSA with discretion to determine the content
of those guidelines going forward. Moreover, two of the
preceding paragraphs describe the services addressed
in those already-existing recommendations or guidelines as “evidence-based” or “evidence-informed.”
42 U.S.C. 300gg-13(a)(1) and (3). Paragraph (a)(4) lacks
similar language, which suggests that Congress contemplated that HRSA could and would consider factors
beyond scientific evidence of a service’s medical risks
and benefits in deciding whether to support a coverage
mandate for that particular service.
The court of appeals emphasized that Section
300gg-13(a) uses the word “ ‘shall,’ ” which “denotes a
requirement.” App., infra, 33a (citation omitted). That
is true but beside the point. The word “shall” imposes a
mandatory obligation on covered plans to cover without
cost-sharing the services that Congress in paragraph
(a)(4) authorized HRSA to specify. But it does not speak
to HRSA’s authority to determine whether to support
coverage of a service by a particular plan or insurer in
the first place. The fact that a covered plan “shall * * *
provide coverage” for services that HRSA’s guidelines
direct the plan to provide, 42 U.S.C. 300gg-13(a), has no
bearing on whether HRSA may conclude that, for
example, churches need not cover particular methods of
contraceptives to which they object—as the agencies
have done since HRSA first adopted its guidelines in
2011.
As the court of appeals acknowledged, its reading of
Section 300gg-13(a)’s text is “facially at odds” with the

20
original church exemption itself. App., infra, 33a n.26.
The court suggested that the church exemption might
be required by the First Amendment’s Free Exercise
Clause, and it pointed to this Court’s precedents affirming “ministerial exception[s]” to other statutes. Ibid.
But the church exemption applies to all churches regardless of whether they have a religious objection to
providing contraceptive coverage, see 45 C.F.R.
147.131(a) (2016), and thus is not tailored to any cognizable free-exercise concern. If the agencies nevertheless had authority to adopt that exemption in its full
scope—which neither the court of appeals nor the
States have disputed—then they likewise had authority
to adopt the final rules’ exemptions for other, nonchurch entities that have religious or moral objections
to the mandate.
2. RFRA authorized and, for certain employers, required
the expanded religious exemption

a. The religious exemption is independently authorized by RFRA, which prohibits the government from
“substantially burden[ing] a person’s exercise of religion” unless the application of the burden to that person
is “the least restrictive means” of furthering a “compelling governmental interest.” 42 U.S.C. 2000bb-1(b). In
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682
(2014), this Court held that the contraceptive-coverage
mandate “imposes a substantial burden” on objecting
employers. Id. at 726. The Court further held that
applying the mandate to objecting employers was not
the least restrictive means of furthering any compelling
governmental interest. See id. at 728-732.
In light of Hobby Lobby, RFRA requires the government to eliminate the substantial burden that the
contraceptive-coverage mandate imposes on religion.

21
But the Court in Hobby Lobby did not determine how
the government may or must eliminate that burden.
Although the Court pointed to the existence of the
accommodation as one less-restrictive means of furthering any compelling governmental interest with respect
to the employers in that case, the Court had no occasion,
and expressly declined, to “decide * * * whether an
approach of th[at] type complies with RFRA for purposes of all religious claims.” 573 U.S. at 731 (emphasis
added). Nor did the Court suggest that, if the accommodation complied with RFRA in all cases, it would
then be the only permissible way for the government to
eliminate the burden on religion caused by the mandate.
The agencies reasonably determined that “the most
appropriate administrative response to the substantial
burden identified by [this Court] in Hobby Lobby” was
to adopt the expanded religious exemption rather than
merely retain the existing accommodation. 83 Fed.
Reg. at 57,545. As the agencies explained, “[a]lthough
RFRA prohibits the government from substantially
burdening a person’s religious exercise where doing so
is not the least restrictive means of furthering a compelling interest,” RFRA does not “prescribe[ ] the remedy by which the government must eliminate that burden.” Ibid. (emphasis omitted). “The prior administration chose” to attempt to comply with RFRA “through
the complex accommodation,” but RFRA did not “compel[ ] that novel choice or prohibit[ ] the current administration from employing the more straightforward
choice of an exemption—much like the existing and
unchallenged exemption for churches.” Ibid. After all,
had the agencies adopted the religious exemption from
the outset, “no one could reasonably have argued that
doing so was improper because they should have

22
invented the accommodation instead,” and nothing in
RFRA “compels a different result now based merely on
path dependence.” Ibid. The agencies thus correctly
concluded that, regardless of whether RFRA requires
the expanded religious exemption (or would be satisfied
by the accommodation), RFRA at least permits them to
adopt the exemption to satisfy their duty to eliminate
the substantial burden on religion caused by the mandate. Id. at 57,544-57,545.
The agencies’ decision to adopt the religious exemption in their discretion—even if it was not required by
RFRA—was especially reasonable in light of the “continued litigation” and “legal uncertainty” over whether
the existing accommodation violates RFRA. 83 Fed.
Reg. at 57,545; see Ricci v. DeStefano, 557 U.S. 557, 585
(2009). In Ricci, this Court recognized that an entity
faced with potentially conflicting statutory obligations
should be afforded some leeway in resolving that conflict. Ibid. “[T]o resolve any conflict between the
disparate-treatment and disparate-impact provisions
of ” Title VII of the Civil Rights Act of 1964, 42 U.S.C.
2000e et seq., the Court held that an employer need only
have a strong basis to believe that an employment practice violates the disparate-impact ban in order to take
certain types of remedial action that would otherwise
violate its disparate-treatment ban. 557 U.S. at 584; see
id. at 583-585. Here, likewise, the agencies reasonably
responded to the considerable doubt about the accommodation’s legality by adopting the religious exemption.
Cf. Walz v. Tax Comm’n, 397 U.S. 664, 669 (1970) (recognizing “room for play in the joints” when accommodating exercise of religion).
To be sure, RFRA would not prohibit applying the
contraceptive mandate to a particular employer if the

23
agencies carried their burden of “demonstrat[ing] that
application of the” mandate to that employer both “is in
furtherance of a compelling governmental interest” and
“is the least restrictive means of furthering that compelling governmental interest.” 42 U.S.C. 2000bb-1(b).
But, as the agencies found, application of the mandate
to objecting entities neither serves a compelling governmental interest nor is narrowly tailored to any such
interest. See 83 Fed. Reg. at 57,546-57,548. As they
explained, Congress itself did not mandate coverage of
contraceptives, and the mandate is already inapplicable to
various plans, including church and other plans that have
always been actually or effectively exempt and “grandfathered plans” (which are exempt from the preventiveservices mandate altogether). Id. at 57,546-57,547.
Moreover, some entities that object to providing coverage for certain methods of contraception may not object
to others, and various federal, state, and local programs
provide free or subsidized contraceptives to low-income
women. Id. at 57,548.
b. The court of appeals held that RFRA does not
authorize the religious exemption, reasoning that the
existing accommodation satisfies RFRA and therefore
“RFRA does not require” the agencies to go further by
adopting the religious exemption. App., infra, 39a
(emphasis added); see id. at 36a-41a. But the court never
confronted the agencies’ determination in the final rule
that, “even if RFRA does not compel” the exemption,
RFRA at least permits them to adopt it. 83 Fed. Reg. at
57,544. The court erred by focusing exclusively on
whether the accommodation itself imposes a substantial
burden on religion that must be remedied under RFRA.
See App., infra, 38a-41a. The court never explained why
the agencies lack discretion to eliminate the underlying

24
substantial burden on religion caused by the contraceptive mandate, which this Court recognized in Hobby
Lobby, by adopting the exemption.
In any event, the court of appeals’ conclusion that the
accommodation complies with RFRA in all cases is incorrect. As the agencies explained, the accommodation does
violate RFRA with respect to at least some employers.
See 83 Fed. Reg. at 57,545-57,548. Specifically, an
employer that objects on religious grounds to providing
coverage for certain contraceptives may sincerely
believe that using the plan sponsored by that employer
to provide such coverage makes the employer complicit
in providing contraceptive coverage. See id. at 57,546.
In light of that sincere religious belief, requiring the
employer “to choose between the Mandate, the accommodation, or incurring penalties for noncompliance
imposes a substantial burden on religious exercise under
RFRA.” Ibid.; see 82 Fed. Reg. at 47,798, 47,800; accord
Sharpe Holdings, Inc. v. HHS, 801 F.3d 927, 939-943
(8th Cir. 2015), vacated and remanded sub nom. HHS v.
CNS Int’l Ministries, 136 S. Ct. 2006 (2016); Priests for
Life v. HHS, 808 F.3d 1, 16-21 (D.C. Cir. 2015) (Kavanaugh, J., dissenting from the denial of rehearing en
banc). Indeed, after extensive study, the agencies were
unable to identify any means short of an exemption that
would resolve all religious objections. And after further
examination, the agencies found in the final rule that
denying an exemption would not be narrowly tailored to
achieving any compelling interest. See pp. 7-8, supra.
The court of appeals concluded that the accommodation does not impose a substantial burden on religion,
reasoning that an employer’s “submission of the selfcertification form” to its insurer to invoke the accommodation “does not make the employer[ ] ‘complicit’ in the

25
provision of contraceptive coverage.” App., infra, 39a
(brackets and citation omitted). But this Court made
clear in Hobby Lobby that a court may not reject a RFRA
claim on the ground that “the connection between what
the objecting parties must do” and “the end that they
find to be morally wrong” is “too attenuated.” 573 U.S.
at 723. As long as a claimant’s asserted belief “reflects
‘an honest conviction,’ ” “it is not for [courts] to say” that
those “religious beliefs are mistaken.” Id. at 725 (citations omitted); see Sharpe, 801 F.3d at 941 (“As Hobby
Lobby instructs, * * * we must accept [plaintiffs’]
assertion that self-certification under the accommodation process * * * would violate their sincerely held
religious beliefs.”); Priests for Life, 808 F.3d at 17
(Kavanaugh, J., dissenting from the denial of rehearing
en banc) (Hobby Lobby “emphasized that judges in
RFRA cases may question only the sincerity of a plaintiff ’s religious belief, not the correctness or reasonableness of that religious belief.”); cf. Thomas v. Review Bd.
of the Ind. Emp’t Sec. Div., 450 U.S. 707, 714 (1981).
The court of appeals thus had no warrant under
RFRA to reject as incorrect a religious objector’s sincere belief that invoking the accommodation would
make it complicit in providing contraceptive coverage.
The court instead should have credited such sincere
beliefs and focused on the amount of pressure the government places on such employers’ religious exercise.
Hobby Lobby answers that question as well. The Court
had “little trouble” concluding that the significant financial penalties imposed on employers that did not comply
with the mandate imposed a substantial burden.
573 U.S. at 719. Employers that do not comply with the
mandate or accommodation face the same penalties.

26
The court of appeals also stated that the religious
exemption would “impose an undue burden on
nonbeneficiaries—the female employees who will lose
coverage for contraceptive care.” App., infra, 41a. But
that likewise does not justify rejecting the religious
exemption: a RFRA remedy is not invalid merely
because it allows a religious objector to withhold a benefit
from third parties. See Hobby Lobby, 573 U.S. at 729
n.37 (“[I]t could not reasonably be maintained that any
burden on religious exercise * * * is permissible under
RFRA so long as the relevant legal obligation requires
the religious adherent to confer a benefit on third parties”). And any loss of contraceptive coverage to women
whose private employers invoke the religious exemption would result from decisions of those employers, not
the government. The ACA does not confer any right to
contraceptive coverage from a private employer. The
obligation to provide such coverage was imposed by the
agencies, and the agencies did not burden women
merely by declining to require every private employer
to provide contraceptive coverage, as they had already
done in the exemption for churches and the accommodation’s effective exemption for self-insured church plans.
See 83 Fed. Reg. at 57,549; cf. Corporation of the Presiding Bishop of the Church of Jesus Christ of Latter-Day
Saints v. Amos, 483 U.S. 327, 337 n.15 (1987).
3. The court of appeals’ holding that the exemptions are
likely statutorily unauthorized warrants review

The question whether the agencies acted within their
statutory authority in adopting the exemptions warrants this Court’s review. The Court granted certiorari
in Zubik and the consolidated cases to address challenges to the existing accommodation. Plenary review
is even more appropriate now. Zubik left unresolved

27
the disputes over the legality of the accommodation,
remanding for the agencies and challengers to try to
resolve their remaining differences. After soliciting
public input and concluding that no measure short of an
exemption would resolve all objections, the agencies
adopted the final rules seeking to end the long-running
uncertainty and litigation by establishing the religious
and moral exemptions.
The court of appeals’ decision thwarts those efforts
and appears to leave the agencies no viable path forward. Under Hobby Lobby, the accommodation marks
the floor: whether or not RFRA requires more, a question the Court expressly reserved, the agencies cannot
afford religious objectors any less protection than the
accommodation offers. But by concluding that the ACA
does not authorize any exemptions from the mandate
and that RFRA does not authorize going beyond the
existing accommodation, the decision below sets the
accommodation as the ceiling. It thereby freezes in
place a measure that the agencies had already concluded would not resolve all objections. The decision
below thus requires the agencies to maintain rules that
they have concluded, and some courts have held, substantially burden sincere religious beliefs—and that do
not address moral objections at all. That ruling implicates a compelling governmental interest in safeguarding rights of conscience. And the decision’s reasoning
casts doubt on the church exemption that has coexisted
with the contraceptive-coverage mandate from the
beginning and the accommodation’s effective exemption
for self-insured church plans.
B. The Final Rules Do Not Violate The APA

The court of appeals also erred in concluding that the
States are likely to succeed on their claim that the final

28
rules are procedurally invalid. App., infra, 23a-32a. Far
from counseling against review, that alternative ground
increases the need for this Court’s intervention.
1. The final rules, adopted after notice and comment,
comply with the APA regardless of whether the
interim rules were procedurally defective

The APA ordinarily requires agencies to publish a
“notice of proposed rule making” and to “give interested persons an opportunity to participate” before
promulgating regulations. 5 U.S.C. 553(b) and (c). An
agency may forgo those steps, however, if Congress has
expressly authorized it to do so, 5 U.S.C. 559, or if the
agency has “good cause,” 5 U.S.C. 553(b)(B). The agencies properly invoked both grounds for issuing the
interim rules in 2017 without notice and comment. Congress has authorized each agency to issue “any interim
final rules as the Secretary determines are appropriate
to carry out [specified provisions].” 42 U.S.C. 300gg-92;
see 26 U.S.C. 9833; 29 U.S.C. 1191c. And the agencies
reasonably determined that the uncertainty created by
conflicting lower-court decisions and ongoing litigation,
as well as the need to protect objecting employers from
potentially devastating penalties, made delaying the
interim rules’ effective dates pending notice and comment “impracticable” and “contrary to the public interest.” 82 Fed. Reg. at 47,813; see Gov’t C.A. Br. 65-75.
The court of appeals disagreed, concluding that neither exception to the notice-and-comment requirement
applies to the interim rules. App., infra, 23a-28a. But
whether the agencies validly issued the interim rules
without notice and comment is irrelevant here because
the agencies issued the final rules—which superseded
the interim rules—only after soliciting and considering
public comments. See 83 Fed. Reg. at 57,552. The

29
validity of the interim rules might matter at most with
respect to the period before the final rules’ effective
date (January 14, 2019). Id. at 57,536. But in this suit
seeking prospective relief, any putative deficiency in
the process of adopting the interim rules is now academic.
The court of appeals nevertheless concluded that the
final rules likely are procedurally invalid as well
because they too closely track the interim rules. App.,
infra, 29a-32a. That conclusion is untenable. Even
assuming arguendo that the interim rules were procedurally improper, nothing in the APA suggests that a
regulation issued after notice and comment is invalid
merely because it was preceded by a procedurally deficient interim rule.
Nor does the fact that the final rules’ “substance” and
“reason[ing]” resemble that of the interim rules, App.,
infra, 30a, in which the agencies solicited comment, render the final rules suspect. On the contrary, the APA
requires a proposed rule to provide “fair notice” of the
final rule’s content, and a final rule that departs too far
from the proposal may violate 5 U.S.C. 553. Long Island
Care at Home, Ltd. v. Coke, 551 U.S. 158, 174 (2007)
(noting that lower courts require final rule to be “a ‘logical outgrowth’ of the rule proposed” (citation omitted)).
On the court of appeals’ view, it is unclear whether, when,
or how an agency whose interim rule is declared procedurally invalid could ever cure the defect through further
rulemaking.
The court of appeals faulted the final rules for “not
reflect[ing] any real open-mindedness toward the position set forth in the [interim rules].” App., infra, 30a.
But as the court of appeals itself has previously recognized, “all that the [APA] requires” is that “the agency

30
considered” comments, Nazareth Hosp. v. Secretary,
HHS, 747 F.3d 172, 185 (3d Cir. 2014) (brackets and
citation omitted)—not that it adopted a particular proportion of them. “While changes and revision are indicative
of an open mind, an agency’s failure to make any does
not mean its mind is closed.” Advocates for Highway &
Auto Safety v. Federal Highway Admin., 28 F.3d 1288,
1292 (D.C. Cir. 1994) (citation omitted). The agencies
did consider various changes to the interim rules raised
by public comments, adopting some proposals and
rejecting others. See, e.g., 83 Fed. Reg. at 57,557-57,558,
57,568-57,571, 57,616-57,619, 57,622-57,623. The court
did not identify any comment or relevant factor the
agencies failed to consider; it “express[ed] no opinion on
whether the Agencies appropriately responded to comments collected.” App., infra, 30a. And the district
court found that, “[f ]or each example” the States cited of
comments the agencies purportedly failed to address,
the agencies in fact “acknowledged the comments and
provided an explanation as to why the Agencies did (or
did not)” adopt commenters’ views. Id. at 136a.
2. The court of appeals’ holding that the final rules are
likely procedurally invalid warrants review

The court of appeals’ decision is in significant tension
with the decisions of other courts of appeals, which have
upheld final rules in similar circumstances regardless of
the procedural validity of a preceding interim rule. See
Levesque v. Block, 723 F.2d 175, 185, 188-189 (1st Cir.
1983) (voiding interim rule but concluding that final rule
satisfied notice-and-comment requirements, where
agency “present[ed] evidence of a level of public participation and a degree of agency receptivity that demonstrate that a real ‘public reconsideration of the issued

31
rule’ has taken place”); Federal Express Corp. v.
Mineta, 373 F.3d 112, 120 (D.C. Cir. 2004) (holding that
final rule satisfied notice-and-comment requirements
where agency provided “a meaningful opportunity to
comment,” without addressing whether agency had
good cause to issue interim final rule (citations omitted)); cf. Administrative Conference of the U.S., Recommendation 95-4, Procedures for Noncontroversial and
Expedited Rulemaking, 60 Fed. Reg. 43,108, 43,110,
43,113 (Aug. 18, 1995) (“Where an agency has used postpromulgation comment procedures * * * courts are
encouraged not to set aside such ratified or modified
rule solely on the basis that inadequate good cause
existed originally to dispense with prepromulgation
notice and comment procedures.”).
Whether and in what circumstances a procedural
defect in an interim rule invalidates an ensuing final rule
is also important. A study by the Government Accountability Office (GAO) found that, between 2003 and 2010,
federal agencies issued dozens of “major” interim rules,
which were frequently followed by finalized rules. U.S.
GAO, GAO-13-21, Federal Rulemaking: Agencies Could
Take Additional Steps to Respond to Public Comments
24-26, 41-44 (2012). Moreover, the procedural validity of
an interim rule may not be definitively resolved in litigation for months or years, as this case illustrates—
potentially long after a final rule would be promulgated
in the ordinary course. The court of appeals’ position
would put agencies to a choice between deferring issuance of final rules—leaving allegedly defective interim
rules in place—or risking a future judicial decision finding the interim rules invalid and the final rules tainted.

32
II. THE COURT OF APPEALS’ HOLDING AFFIRMING A
NATIONWIDE INJUNCTION IS INCORRECT AND
WARRANTS THIS COURT’S REVIEW

A. This Court’s review is independently warranted
because the “nationwide” injunction the court of
appeals affirmed, App., infra, 44a, transgresses fundamental Article III and equitable principles. Article III
requires a “plaintiff ’s remedy [to] be ‘limited to the inadequacy that produced his injury in fact.’ ” Gill v. Whitford, 138 S. Ct. 1916, 1930 (2018) (quoting Lewis v. Casey,
518 U.S. 343, 357 (1996)) (brackets omitted). A plaintiff
must “demonstrate standing * * * for each form of
relief that is sought.” Town of Chester v. Laroe Estates,
Inc., 137 S. Ct. 1645, 1650 (2017) (citation omitted). And
just as a plaintiff cannot pursue relief to benefit others
if his own injury has already been redressed, see Summers v. Earth Island Inst., 555 U.S. 488, 494-497 (2009),
a plaintiff cannot seek relief in the first instance beyond
what is necessary to redress his own injury, see Whitford, 138 S. Ct. at 1929-1931 (plaintiffs challenging
legislative-districting plan could not seek statewide
relief because injury was district-specific).
Longstanding principles of equity likewise require
that injunctive relief “be no more burdensome to the
defendant than necessary to provide complete relief to
the plaintiff [ ].” Madsen v. Women’s Health Ctr., Inc.,
512 U.S. 753, 765 (1994) (citation omitted); see Lewis,
518 U.S. at 359-360. Moreover, federal courts’ equitable
authority is generally confined to relief “traditionally
accorded by courts of equity” in 1789. Grupo Mexicano
de Desarrollo, S.A. v. Alliance Bond Fund, Inc.,
527 U.S. 308, 318 (1999). Absent-party injunctions generally, and so-called nationwide injunctions in particular, are a modern creation that did not exist at equity.

33
Samuel L. Bray, Multiple Chancellors: Reforming the
National Injunction, 131 Harv. L. Rev. 417, 424-445
(2017). Such orders also “take a toll on the federal court
system—preventing legal questions from percolating
through the federal courts, encouraging forum shopping, and making every case a national emergency for
the courts and for the Executive Branch.” Trump v.
Hawaii, 138 S. Ct. 2392, 2425 (2018) (Thomas, J., concurring). In addition, nationwide injunctions create an
inequitable one-way ratchet: any prevailing plaintiff
can obtain relief on behalf of all others, but a ruling for
the government does not preclude other plaintiffs from
seeking relief. Cf. United States v. Mendoza, 464 U.S.
154, 158-162 (1984).
B. The injunction the court of appeals affirmed cannot be reconciled with those principles. This suit was
brought by two States, Pennsylvania and New Jersey.
As the government explained below, the States have not
demonstrated any cognizable injury-in-fact that is actual or imminent and fairly traceable to the final rules.
Gov’t C.A. Br. 22-39. Their suit should be dismissed,
and their request for a preliminary injunction denied,
on that basis alone. But even if the States had demonstrated some Article III injury, enjoining the final rules
throughout the country is not necessary or appropriate
to redress it.
The court of appeals stated that “a nationwide
injunction is necessary to provide the States complete
relief ” principally because some of their residents work
out of state; if those residents’ employers are exempt, it
reasoned, those residents will turn to state-funded services. App., infra, 44a-45a. But many New Jersey residents who work out of state do so in Pennsylvania, and
vice versa. Gov’t C.A. Br. 82. And although some of

34
those States’ residents may work in other adjoining
States—New York, Delaware, Maryland, Ohio, and West
Virginia—all but one of those States (Ohio) requires
health-insurance plans (aside from self-insured plans) to
provide contraceptive coverage. Id. at 82-83. Those who
work in other States may also be unaffected because
their out-of-state employer is ineligible for the exemption or legally or effectively exempt from the mandate
for other reasons. Id. at 83-84. The court’s conjecture
about out-of-state employment (or study) does not
establish that nationwide relief is necessary to redress
any cognizable, irreparable injury to the plaintiff
States.
At a minimum, nationwide relief is not appropriate
because the balance of equities tips decisively in the
government’s favor. Weighed against the government’s
interest in implementation of its rules and in safeguarding religious liberty and moral conscience, the States’
speculative injuries predicated on residents who might
be covered by out-of-state plans and who might resort
to state-funded assistance if their plans invoke the
exemptions cannot equitably justify enjoining the
exemptions everywhere.
C. This Court’s review of the court of appeals’ decision affirming nationwide relief is warranted because
that decision extends a concerning trend among lower
courts of issuing categorical, absent-party injunctions
that bar any enforcement of federal laws or policies
against any person. The decision below is also in tension with the Ninth Circuit’s holding that a different
district court abused its discretion by imposing nationwide injunctive relief against the interim rules in a parallel suit by other States. See California v. Azar,
911 F.3d 558, 582-584 (2018), cert. denied, 139 S. Ct.

35
2716 (2019). After cataloguing the “detrimental consequences” of nationwide injunctions, the Ninth Circuit
concluded that relief limited to the plaintiff States there
“would provide complete relief to them,” including the
“economic harm” those States asserted. Id. at 583-584.
The district court here expressly rejected “the Ninth
Circuit’s approach.” App., infra, 180a. In affirming that
decision, the court of appeals sought to distinguish this
case on the ground that “the record” here was more
extensive. Id. at 44a n.32. But the scope of the record in
this case is irrelevant because the court of appeals cited
nothing in that record that justifies categorical relief.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
JONATHAN C. BOND
Assistant to the Solicitor
General
SHARON SWINGLE
LOWELL V. STURGILL JR.
KAREN SCHOEN
Attorneys

OCTOBER 2019

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Nos. 17-3752, 18-1253, 19-1129, 19-1189
COMMONWEALTH OF PENNSYLVANIA;
STATE OF NEW JERSEY
v.
PRESIDENT UNITED STATES OF AMERICA;
SECRETARY UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES;
SECRETARY UNITED STATES DEPARTMENT OF
TREASURY; UNITED STATES DEPARTMENT OF
TREASURY; SECRETARY UNITED STATES
DEPARTMENT OF LABOR; UNITED STATES
DEPARTMENT OF LABOR; UNITED STATES OF AMERICA
LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME
(INTERVENOR IN D.C.), APPELLANT IN 17-3752, 19-1129
PRESIDENT UNITED STATES OF AMERICA;
SECRETARY UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES;
SECRETARY UNITED STATES DEPARTMENT OF
TREASURY; UNITED STATES DEPARTMENT OF
TREASURY; SECRETARY UNITED STATES
DEPARTMENT OF LABOR; UNITED STATES
DEPARTMENT OF LABOR, APPELLANTS IN 18-1253,
19-1189 (EXCEPT PRESIDENT UNITED STATES OF
AMERICA)

(1a)

2a
Argued: May 21, 2019
Filed: July 12, 2019*
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(E.D. Pa. No. 2:17-cv-04540)
District Judge: Hon. Wendy Beetlestone
OPINION OF THE COURT

Before:
Judges.

MCKEE, SHWARTZ, and FUENTES, Circuit

SHWARTZ, Circuit Judge.
The Women’s Health Amendment to the Affordable
Care Act (“ACA”) mandated that women’s health insurance include coverage for preventive health care.
Through the Amendment, Congress directed the Health
Resources and Services Administration (“HRSA”), a
component of the Department of Health and Human Services (“HHS”), to issue guidelines setting forth the preventive health care services that women should be provided. Among the services HRSA identified was contraceptive care. Nowhere in the enabling statute did
Congress grant the agency the authority to exempt entities from providing insurance coverage for such services nor did Congress allow federal agencies to issue
regulations concerning this coverage without complying
with the Administrative Procedure Act.

*

As amended by order of July 18, 2019.

3a
Notwithstanding Congress’s directives, in 2017, HHS
and the Departments of Labor and Treasury (collectively, “the Agencies”) promulgated regulations that expanded the entities that could invoke an exemption to
the requirement that group health insurance plans cover
contraceptive services as a form of women’s preventive
health care. Because the state plaintiffs are likely to
succeed in proving that the Agencies did not follow the
APA and that the regulations are not authorized under
the ACA or required by the Religious Freedom Restoration Act (“RFRA”), we will affirm the District Court’s
order preliminarily enjoining the rules’ enforcement nationwide.
I
A
Enacted as a part of the ACA, Pub. L. No. 111-148,
124 Stat. 119 (2010), the Women’s Health Amendment
mandates that “[a] group health plan[ 1] and a health insurance issuer offering group or individual health insurance coverage shall, at a minimum provide coverage for
and shall not impose any cost sharing requirements for
. . .
preventive care and screenings [for women]
. . . as provided for in comprehensive guidelines supported by the [HRSA].” 2 42 U.S.C. § 300gg-13(a),
Pursuant to 42 U.S.C. § 300bb-8(1), the term “group health plan”
has the meaning set forth in 26 U.S.C. § 5000(b)(1), which defines a
“group health plan” as “a plan (including a self-insured plan) of, or
contributed to by, an employer . . . to provide health care (directly or otherwise) to the employees.”
2
Congress expressly exempted two sets of actors from various
ACA requirements, including the Women’s Health Amendment:
grandfathered health plans, 42 U.S.C. § 18011, and employers with
fewer than 50 employees, 26 U.S.C. § 4980H(c)(2).
1

4a
(a)(4). HRSA commissioned an expert panel from the
Institute of Medicine to recommend covered services.
In 2011, HRSA adopted the Institute’s recommendations and issued guidelines defining preventive care to
include all “Food and Drug Administration approved
contraceptive methods, sterilization procedures, and patient education and counseling for all women with reproductive capacity,” “as prescribed” by a woman’s health
care provider. HRSA, Women’s Preventive Services
Guidelines, https://www.hrsa.gov/womens-guidelines/
index.html (last visited May 8, 2019). This statutory
and regulatory scheme was deemed the “Contraceptive
Mandate.” Several regulations and litigation followed.
1
The same day that the Guidelines were issued, the
Agencies promulgated an interim final rule (“IFR”), followed by a final rule in 2013, to exempt certain religious
employers—namely, churches and similar entities—
from the Contraceptive Mandate. Group Health Plans
and Health Insurance Issuers Relating to Coverage of
Preventive Services Under the Patient Protection Affordable Care Act, 77 Fed. Reg. 8,725 (Feb. 15, 2012)
(the “Church Exemption”); Group Health Plans and
Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection and Affordable Care Act, 76 Fed. Reg. 46,621 (Aug. 3, 2011). 3
After a notice-and-comment rulemaking process, which included
consideration of comments concerning whether coverage may conflict with the religious beliefs of some employers, Group Health
Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection and Affordable Care
Act, 76 Fed. Reg. 46,621, 46,623 (August 3, 2011), the Agencies defined “religious employer[s]” in the Church Exemption as entities
3

5a
As the Agencies later explained, the “exemption for
churches and houses of worship is consistent with their
special status under longstanding tradition in our society and under federal law.” Coverage of Certain Preventive Services Under the Affordable Care Act, 80 Fed.
Reg. 41,318, 41,325 (July 14, 2015).
The 2013 final rule also separately provided that a
nonprofit religious employer who “(1) [o]pposes providing coverage for some or all of the contraceptive services
required to be covered . . . on account of religious
objections; (2) is organized and operates as a nonprofit
entity; (3) holds itself out as a religious organization; and
(4) self-certifies that it satisfies the first three criteria,”
78 Fed. Reg. at 39,874, is entitled to an accommodation
to avoid “contracting, arranging, paying, or referring
for contraceptive coverage,” id. at 39,875. This accommodation process (the “Accommodation”) permits an
employer to send a self-certification form to its insurance issuer, which then excludes contraceptive coverage, either in full or in part, from the group health plan
and in turn “provide[s] payments for contraceptive services for plan participants and beneficiaries, separate
from the group health plan, without the imposition of
cost sharing, premium, fee, or other charge on plan participants or beneficiaries or on the eligible organization
or its plan.” Id. at 39,876. A third party administra-

“that [are] organized and operate[] as . . . nonprofit entit[ies]
and [are] referred to” as such in the internal revenue code provision applying to “churches, their integrated auxiliaries, and conventions or associations of churches, as well as to the exclusively
religious activities of any religious order,” Coverage of Certain
Preventive Services Under the Affordable Care Act, 78 Fed. Reg.
39,870, 39,871, 39,889 (July 2, 2013); see 45 C.F.R. § 147.132.

6a
tor (“TPA”) may also be used as a claims or plan administrator “solely for the purpose of providing payments
for contraceptive services for participants and beneficiaries in a self-insured plan of an eligible organization
at no cost to plan participants or beneficiaries or to the
eligible organization.” Id. at 39,879. By invoking the
Accommodation, the employer was no longer responsible for providing coverage for contraceptive care.
2
Various legal challenges followed. First, in Burwell
v. Hobby Lobby Stores, Inc., 573 U.S. 682 (2014), the
Supreme Court held that the Accommodation must be
extended to closely-held for-profit corporations with
sincere religious objections to the provision of contraceptive coverage so that their religious beliefs were
not substantially burdened under RFRA, 42 U.S.C.
§ 2000bb-1. Id. at 724-26. The Court observed that
use of the Accommodation process was a less restrictive
means to ensure access to cost-free contraceptives. Id.
at 730-31. Days later, in Wheaton College v. Burwell,
573 U.S. 958 (2014), the Court concluded that Wheaton
College, who also lodged a religious objection to providing insurance for services covered by the Contraceptive
Mandate, did not have to use the Accommodation selfcertification form, known as the ESBA Form 700, but
could instead rely on its notification to HHS to satisfy
the Accommodation’s prerequisites. Id. at 959.
To ensure compliance with these rulings, the Agencies promulgated another IFR and final rule. 4 Cover-

The final rule implementing Hobby Lobby was preceded by
notice of proposed rulemaking. Coverage of Certain Preventive
4

7a
age of Certain Preventive Services Under the Affordable Care Act, 80 Fed. Reg. 41,318 (July 14, 2015). The
rule “extend[ed] the [A]ccommodation to a for-profit entity that is not publicly traded, is majority-owned by a
relatively small number of individuals, and objects to
providing contraceptive coverage based on its owners’
religious beliefs.” Id. at 41,324. The rule also “allow[ed] eligible organizations to choose between using
[the] ESBA Form 700 or the alternative process [of notifying HHS in writing of a religious objection to covering contraceptive services] consistent with the Wheaton
interim order.” Id. at 41,323.
In Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per curiam), the Supreme Court addressed the petitioners’ assertions that “submitting [the Accommodation] notice
substantially burden[ed] the exercise of their religion, in
violation of [RFRA].” Id. at 1559. The Court did not
reach the merits of this claim but rather remanded to
afford the parties “an opportunity to arrive at an approach going forward that accommodates petitioners’
religious exercise while at the same time ensuring that
women covered by petitioners’ health plans receive full
. . . contraceptive coverage.” Id. at 1560 (internal
quotation marks and citation omitted).
In response to the Court’s direction in Zubik, the
Agencies solicited comments regarding the current procedure and possible alternatives to the Accommodation.
Coverage for Contraceptive Services, 81 Fed. Reg.
47,741 (July 22, 2016). The Agencies reviewed the comments and found that “no feasible approach has been
identified at this time that would resolve the concerns of
Services Under the Affordable Care Act, 79 Fed. Reg. 51,118 (Aug.
27, 2014).

8a
religious objectors while still ensuring that the affected
women receive full and equal health coverage, including
contraceptive coverage.” Dep’t of Labor, FAQs About
Affordable Care Act Implementation Part 36, at 4 (Jan.
9, 2017), available at https://www.dol.gov/sites/default/
files/ebsa/about-ebsa/our-activities/resource-center/faqs/
aca-part-36.pdf. As a result, the Accommodation remained unchanged.
3
In May 2017, President Donald Trump issued an executive order directing the Agencies to “consider issuing
amended regulations, consistent with applicable law, to
address conscience-based objections to the preventivecare mandate promulgated under [42 U.S.C. § 300gg13(a)(4)].” Exec. Order No. 13,798 § 3, 82 Fed. Reg.
21,675 (May 9, 2017). In response, and without issuing
a notice of proposed rulemaking or soliciting public comment, the Agencies issued two new IFRs: the Religious IFR and the Moral IFR. These IFRs expanded
the existing exemption and Accommodation framework,
made the Accommodation process voluntary, and offered similar protections to organizations with moral objections to contraceptives. See Religious Exemptions
and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 82 Fed.
Reg. 47,792 (Oct. 13, 2017); Moral Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 82 Fed. Reg.
47,838 (Oct. 13, 2017). This litigation followed.

9a
B
1
The Commonwealth of Pennsylvania filed suit
against various governmental entities 5 and sought to enjoin the enforcement of the IFRs. Little Sisters of the
Poor Saints Peter and Paul Home (“Little Sisters”) intervened. 6 The District Court granted Pennsylvania’s
5
These entities include the President, the Agencies and their
Secretaries, and the United States of America (collectively, “the
Government”).
6
Little Sisters, a religious nonprofit operating a home in Pittsburgh, moved to intervene, the District Court denied its motion, and
our Court reversed, concluding, at that time, intervention was appropriate because the litigation posed a threat to Little Sisters’ interest in an exemption, and that its interests are not adequately represented by the Government. See generally Pennsylvania v. President of the United States of Am., 888 F.3d 52 (3d Cir. 2018). Since
then, however, the United States District Court for the District of
Colorado permanently enjoined enforcement of the Contraceptive
Mandate for benefit plans in which Little Sisters participates.
Pennsylvania v. Trump, 351 F. Supp. 3d 791, 829 n.27 (E.D. Pa. 2019)
(“Defendant-Intervenor has secured a permanent injunction, preventing enforcement of the Contraceptive Mandate against it.”); Little Sisters of the Poor v. Azar, No. 1:13-cv-02611, Dkt. No. 82 at 2-3
(D. Colo. May 29, 2018); Accordingly, Little Sisters is no longer aggrieved by the District Court’s ruling, its need for relief is moot, and
thus they lack appellate standing. See Ass’n of Banks in Ins.
v. Duryee, 270 F.3d 397, 403 (6th Cir. 2001) (“[T]he intervenordefendants face the threat of economic injury should the Ohio statutory provisions not be enforced. Such threatened injury is sufficient to confer appellate standing on the intervenor-defendants and
allows them to challenge the merits of the district court’s decision.”);
cf. In re Grand Jury, 111 F.3d 1066, 1071 (3d Cir. 1997) (“Since both
intervenors remain aggrieved after the district court’s disposition,
the constitutional requirements for standing to appeal as well as
standing to sue are satisfied.”).

10a
request to preliminarily enjoin the IFRs. See generally Pennsylvania v. Trump, 281 F. Supp. 3d 553 (E.D.
Pa. 2017). The Court held that Pennsylvania was likely
to succeed on its procedural and substantive challenges
under the APA. Id. at 576, 581. The Government appealed, and the District Court granted a stay pending
appeal.
While the appeal of the order preliminarily enjoining
the IFRs was pending, the Agencies promulgated two
Final Rules, which are virtually identical to the Religious and Moral IFRs. See Religious Exemptions and
Accommodations for Coverage of Certain Preventive
Services Under the Affordable Care Act, 83 Fed. Reg.
57,536 (Nov. 15, 2018); 45 C.F.R. § 147.132 (“Religious
Rule” or “Religious Exemption”); Moral Exemptions
and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed.
Reg. 57,592 (Nov. 15, 2018); 45 C.F.R. § 147.133 (“Moral
Rule” or “Moral Exemption”) (collectively, “the Rules”
or “the Exemptions”). Like the Religious IFR, the Final Rule creating the Religious Exemption expanded
the categories of employers who are permitted to invoke
the exemption from the Contraceptive Mandate to include all nonprofit, for-profit, and publicly-held companies. The Religious Exemption also made participation in the Accommodation process completely voluntarily, relieving employers from the need to “file notices or
certifications of their exemption.” 7 83 Fed. Reg. at
The Agencies assert that under ERISA, employees will at least
receive notice that their plans no longer cover certain contraceptives
because, “with respect to plans subject to ERISA, a plan document
must include a comprehensive summary of the benefits covered by
the plan,” which will “serve to help provide notice to participants and
7

11a
57,558; see also id. at 57,537, 57,562. The Final Rule
creating the Moral Exemption offered the same exemption and voluntary accommodation process to nonprofit
organizations and non-publicly traded organizations
“with sincerely held moral convictions opposed to coverage of some or all contraceptive or sterilization methods.” Id. at 57,593.
At Pennsylvania’s request, the District Court lifted
the stay, and Pennsylvania filed an amended complaint,
joined New Jersey as a plaintiff, 8 added challenges to
the Final Rules and moved to enjoin them. 9
The District Court held hearings and received evidence regarding the Rules. Specifically, the States
submitted evidence from health care professionals and
state insurance regulators about the Rules’ impact.
The evidence addressed the relationship between costs
and contraceptive use and the impact the Rules would
have on state-funded healthcare services.
Cost is a significant barrier to contraceptive use and
access. The most effective forms of contraceptives are
the most expensive. After the ACA removed cost bar-

beneficiaries” of what services are covered. 83 Fed. Reg. at 57,558.
Even if this is true, this would apply only to certain employers.
8
Pennsylvania and New Jersey are referred to herein collectively
as the “the States.”
9
The States’ amended complaint for declaratory and injunctive relief pleads five counts: (I) violation of Equal Protection of the laws
under the Fifth Amendment; (II) violation of Title VII of the Civil
Rights Act and the Pregnancy Discrimination Act; (III) violation of
the procedural requirements of the APA; (IV) violation of the substantive requirements of the APA; and (V) violation of the Establishment Clause of the First Amendment.

12a
riers, women switched to the more effective and expensive methods of contraception. 10 Because the Rules allow employers to opt out of providing coverage for contraceptive services, some women may no longer have insurance to help offset the cost for these and other contraceptives.
Pennsylvania and New Jersey have state-funded programs that provide family planning and contraceptive
services for eligible individuals. For example, Pennsylvania Medicaid and New Jersey’s FamilyCare 11 cover
all health care for childless adults, pregnant women,
and parents with incomes up to 138% and up to 215% of
the federal poverty level, respectively. Pennsylvania’s
Family Planning Services Program also covers all family planning-related services, including contraceptives,
for individuals with incomes up to 215% of the federal
poverty level even if they have private insurance, and
New Jersey’s Plan First program offers the same for individuals with incomes up to 205% of the federal poverty
level.
Women who lack contraceptive coverage and who
meet certain income levels may also turn to Title X family planning clinics which “provide access to contraceptive services, supplies, and information to all who want
and need them” with priority to low-income persons.
Before the ACA, women spent between 30 and 40% of their total out-of-pocket health costs on contraceptives, and 55% of women
experienced a time where they could not afford contraceptives.
Amicus Curiae Women’s Law Ctr. Br. at 15-17; id. at 17 (describing
that the ACA dropped out-of-pocket contraceptive expenditures by
70%).
11
NJ FamilyCare is New Jersey’s state and federally-funded
Medicaid.
10

13a
Office of Population Affairs, Funding History, HHS,
https://www.hhs.gov/opa/title-x-family-planning/abouttitle-x-grants/funding-history/index.html (last visited
May 12, 2019). State and federal governments fund Title X clinics, but recently, federal funding has decreased.
The States expect that when women lose contraceptive insurance coverage from their employers, they will
seek out these state-funded programs and services.
The States further assert that women who do not seek
or qualify for state-funded contraceptives may have unintended pregnancies. Public funds are used to cover
the costs of many unintended pregnancies. 12 Accordingly, the States expect to spend more money due to the
Rules.
In addition to this evidence, the Agencies presented
spread sheets that listed the organizations and companies that were previously involved in ACA Contraceptive Mandate litigation. The Agencies offered this evidence to demonstrate the likely universe of employers
whom they contend may seek to invoke the Rules and
opt out of covering contraceptive care.
3
The day the Final Rules were set to go into effect,
January 14, 2019, the District Court issued a nationwide
injunction enjoining their enforcement. Pennsylvania
v. Trump, 351 F. Supp. 3d 791 (E.D. Pa. 2019). The
Court found that the States had standing to challenge
the Final Rules and established a likelihood of success
on the merits of their APA claims. First, the Court
Nationally, a publicly-funded birth in 2010 cost $12,770, and
that year, New Jersey spent an estimated $186.1 million on unintended pregnancies and Pennsylvania an estimated $248.2 million.
12

14a
held that the States are likely to succeed on their procedural APA claims because the Agencies failed to comply
with the notice-and-comment requirement and this defect tainted the Final Rules. Id. at 813. Second, the
Court held that the States were likely to succeed on
their substantive APA challenges because neither the
ACA nor RFRA authorized the Agencies to create exemptions. Specifically, the unambiguous language of
the ACA’s Women’s Health Amendment only authorized
the Agencies to decide what services would be covered,
not who provides them, id. at 821, and RFRA did not require or authorize such broad exemptions, particularly
given RFRA’s remedial function that places the responsibility for adjudicating religious burdens on the courts,
not the Agencies, id. at 822-23. The Court concluded
that the balance of equities and public interest favored
an injunction, id. at 829-30, and that a nationwide injunction was appropriate to ensure complete relief for the
States, id. at 834-35. The Government appeals.
II 13
We first address whether the States have standing. 14
Article III limits the scope of federal judicial review to
“cases” or “controversies.” U.S. Const. art. III § 2. A
fundamental safeguard of this limitation is the doctrine
of standing. Spokeo, Inc. v. Robins, 136 S. Ct. 1540,
1547 (2016). Put simply, only parties with standing
The District Court had jurisdiction under 28 U.S.C. § 1331.
We have jurisdiction under 28 U.S.C. § 1292(a)(1).
14
“We review the legal conclusions related to standing de novo, but
review for clear error the factual elements underlying the District
Court’s determination of standing.” Edmonson v. Lincoln Nat’l
Life Ins. Co., 725 F.3d 406, 414 (3d Cir. 2013) (internal quotation
marks and citation omitted).
13

15a
“can invoke the jurisdiction of the federal courts.”
Constitution Party of Pa. v. Aichele, 757 F.3d 347, 357
(3d Cir. 2014). To have standing to sue, “[t]he plaintiff
must have (1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable judicial decision.” Spokeo, 136 S. Ct. at 1547 (citing Lujan
v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992)).
We will examine each element in turn.
A
To establish injury in fact, the alleged injury must be
“concrete and particularized” and “actual or imminent,
not conjectural or hypothetical.” Id. at 1548 (quoting
Lujan, 504 U.S. at 560). An injury is concrete if it “actually exist[s]” and is not abstract. Id. “For an injury
to be particularized, it must affect the plaintiff in a personal and individualized way.” Id. (internal quotation
marks and citations omitted).
Plaintiffs need not
“demonstrate that it is literally certain that the harms
they identify will come about.” Clapper v. Amnesty
Int’l USA, 568 U.S. 398, 414 n.5 (2013). Instead, “[a]n
allegation of future injury may suffice if . . . there is
a substantial risk that the harm will occur.” Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 158 (2014) (internal quotation marks and citation omitted); see also
Clapper, 568 U.S. at 410 (rejecting lower court’s use of
an “objectively reasonable likelihood” standard to assess injury).
1
The States have established that they will suffer a
concrete and particularized injury. The States de-

16a
scribe that (1) employers will take advantage of the exemptions and women covered by their plans will lose
contraceptive coverage; and (2) financially-eligible
women will turn to state-funded services for their contraceptive needs and for the unintended pregnancies
that may result from the loss of coverage. As a result,
the States will suffer a concrete financial injury from the
increased use of state-funded services. See Cottrell v.
Alcon Labs., 874 F.3d 154, 163 (3d Cir. 2017) (“Typically,
a plaintiff’s allegations of financial harm will easily satisfy each of these components, as financial harm is a
classic and paradigmatic form[ ] of injury in fact.” (alteration in original) (internal quotation marks and citations omitted)). The States will suffer this injury in a
particularized manner, as each State’s coffers will be depleted by the expenditure of funds to meet the increased
demand for state services. Having concluded that the
States have identified a concrete and particular injury,
we next examine whether the injury at issue is not conjectural and is actual or imminent.
The record shows that the injury the States expect to
sustain is not conjectural. First, the Agencies’ regulatory impact analysis acknowledges that between 70,500
and 126,400 women nationwide will lose contraceptive
coverage as a result of their employers’ invocation of the
Religious Exemption, 83 Fed. Reg. at 57,578, 57,581, and
fifteen women will lose coverage as a result of their employers’ use of the Moral Exemption, 83 Fed. Reg.
at 57,627. See California v. Azar (“California II”),
911 F.3d 558, 572 (9th Cir. 2018) (noting that the Agencies’ own regulatory impact analysis estimates loss
of coverage, and therefore “it is reasonably probable
that women in the plaintiff states will lose some or all
employer-sponsored contraceptive coverage due to the

17a
IFRs”), cert. denied Little Sisters of the Poor v. California, No. 18-1192, — S. Ct. —, 2019 WL 1207008 (June
17, 2019) (Mem.). Second, based on the Agencies’ list
of entities who challenged the Contraceptive Mandate,
eight employers, not including Little Sisters, between
New Jersey and Pennsylvania would likely take advantage of the Exemptions. Massachusetts v. U.S.
Dep’t of Health & Human Servs., 923 F.3d 209, 224 (1st
Cir. 2019) (relying on spreadsheet of litigating entities
to find “it is highly likely that at least three employers
in the Commonwealth with self-insured health plans
. . . will use the expanded exemptions”). Accordingly, it is not conjecture to conclude that employers in
Pennsylvania and New Jersey will take advantage of the
Exemptions and, as a result, women will lose coverage.
Id. at 224 n.12 (stating that “it is improbable based on
the evidence that no women in the [States] would lose
contraceptive coverage” (emphasis omitted)).
2
The record also supports the District Court’s conclusion that the injury is imminent. The States have provided evidence showing that the Exemption will result
in the expenditure of state funds because some women
who lose coverage will inevitably seek out state-sponsored
programs providing contraceptive services; and some
women will forego contraceptive use, causing the States
to shoulder the costs of unintended pregnancies.
With the ACA, many patients “switch[ed] from a
cheaper, less effective [contraceptive] method to a more
effective, expensive method that was better for their
medical health and personal needs.” App. 272. Contraceptives are not only used for pregnancy prevention.
They are the “standard first-line of care for a number of

18a
hormonal, and other, disorders, including poly-cystic ovarian syndrome, primary ovarian insufficiency/premature
ovarian failure, amenorrhea, dysmenorrhea/chronic pelvic
pain, and abnormal uterine bleeding.” App. 292. A
“vast majority” of women use inter-uterine devices
(“IUDs”)—a treatment religious objectors are particularly focused on, App. 350-83—“for purposes other than
birth control.” App. 293 (describing 90-95% of patients
using IUDs for non-birth control purposes). Contraceptive use “carries long-term health benefits for
women[,]” including reducing the risk of ovarian and
uterine cancer. App. 294. “Contraception also helps
protect the health of those women for whom pregnancy
can be hazardous, or even life-threatening.” Amici Curiae Health Prof ’l Orgs. Br. at 16. Thus, removing cost
free contraceptive coverage can have ramifications on
women’s health beyond birth control and unplanned
pregnancies.
Without insurance to defray or eliminate the cost for
the more-effective contraceptive methods, women will
use “less expensive and less effective methods,” App.
245, and both Pennsylvania and New Jersey “anticipate[] that women who lose contraceptive coverage
through employer plans—whether the plan of their own
employer or that of another family member—may seek
contraception from other sources, including statefunded programs.” 15 App. 299; App. 317. Thus, the
The Agencies “theorize” that some women may be able to pay
out of pocket or obtain coverage through a spouse or family member’s plan. Massachusetts, 923 F.3d at 227. While “[s]uch a hypothetical woman may exist, . . . the number of women with incomes that make them eligible for state-assisted contraceptive coverage but who still fit in that category would, logically, be very
small.” Id.
15

19a
State-funded programs will be tapped to provide coverage for financially eligible women whose employers invoke the Exemptions.
Furthermore, some women who lose contraceptive
coverage may either fail to qualify for state services or
elect to forego the use of contraceptives altogether.
“Women who stop using contraception are more likely
to have unplanned pregnancies and to require additional
medical attention.” App. 312. The costs of such unintended pregnancies are often shouldered by states, costing hundreds of millions of dollars. Therefore, the evidence supports the conclusion that the loss of contraceptive coverage may also result in unintended pregnancies
for which the States will bear associated health care
costs.
For these reasons, “[t]he expanded exemptions are
expected to result in greater financial expenditures” by
the States on contraceptive services. App. 318. This
anticipated substantial impact on state finances presents an imminent injury. Thus, the District Court
properly found that the States showed an imminent injury in fact.
The Government faults the States for failing to identify a specific woman who will be affected by the Final
Rules, but the States need not define injury with such a
demanding level of particularity to establish standing.
Massachusetts v. EPA, 549 U.S. 497, 523 n.21 (2007); see
Massachusetts, 923 F.3d at 225; California II, 911 F.3d
at 572. The likelihood that employers will invoke the
Exemptions and leave women without contraceptive
coverage, and that women will turn to the States for coverage, is sufficient to demonstrate imminent injury.

20a
This likelihood “has nothing to do with whether petitioners have determined [a] precise” woman who will seek
such funding. Massachusetts, 549 U.S. at 523 n.21. 16
B
The States’ imminent injury is causally connected
and fairly traceable to the Exemptions. The States will
suffer financial injury when employers in Pennsylvania
and New Jersey take advantage of the Exemptions,
leaving female employees without contraceptive coverage and prompting financially eligible women to turn to
state-funded services. See Texas v. United States,
809 F.3d 134, 159 (5th Cir. 2015) (“For Texas to incur
injury, DAPA beneficiaries would have to apply for
driver’s licenses as a consequence of DHS’s action, and
it is apparent that many would do so.”), aff ’d by an
equally divided court, United States v. Texas, 136 S. Ct.
2271 (2016) (Mem.) (per curiam). In other words, the
In the context of an environmental case and a claim that the
plaintiff-state Massachusetts lacked standing because it failed to
identify land that would be impacted by federal regulators’ inaction,
the Supreme Court observed that
16

the likelihood that Massachusetts’ coastline will recede has
nothing to do with whether petitioners have determined the
precise metes and bounds of their soon-to-be-flooded land.
Petitioners maintain that the seas are rising and will continue
to rise, and have alleged that such a rise will lead to the loss of
Massachusetts’ sovereign territory. . . . Our cases require
nothing more.
Massachusetts, 549 U.S. at 523 n.21. Just as it was unnecessary for
Massachusetts to identify specific coastline that would be flooded by
the agencies’ inaction, it is unnecessary for the States to identify a
specific woman who would be impacted by the Government’s action
where in both instances, the record provided a basis to infer specific
imminent injury.

21a
States will not experience an increased demand for services and the resulting financial burden unless the new
Exemptions, which create a void in contraceptive coverage, go into effect. See id. at 160 (“Far from playing an
insignificant role, DAPA would be the primary cause
and likely the only one. Without the program, there
would be little risk of a dramatic increase in the costs of
the driver’s-license program.”). Thus, there is a link
between the Exemptions and the impact on the States’
fiscs.
C
The District Court also correctly concluded that an
injunction would redress the financial injury the States
face from the Rules. Enjoining the Final Rules until
their legality is adjudicated on the merits will avoid the
imminent financial burden the States face if they are not
enjoined. Massachusetts, 923 F.3d at 228 (“[A]n injunction preventing the application of these exemptions
would stop the alleged fiscal injury from occurring, making it not only ‘likely,’ Spokeo, 136 S. Ct. at 1547, but
certain that this injury would not occur for as long as the
exemptions are enjoined.”); see Massachusetts, 549 U.S.
at 526 (“The risk of catastrophic harm, though remote,
is nevertheless real. That risk would be reduced to
some extent if petitioners received the relief they
seek.”).
For these reasons, the States have standing to bring
this suit. 17

Based upon of the foregoing discussion, we need not decide
whether the States also have standing under the special solicitude
or parens patriae doctrines.
17

22a
III
Having determined that the States have standing, we
now address whether they are entitled to a preliminary
injunction. The decision to grant or deny a preliminary
injunction is within the sound discretion of the district
court. 18 Winter v. Nat. Res. Def. Council, Inc., 555 U.S.
7, 24, 33 (2008). To obtain a preliminary injunction, the
movants must:
demonstrate (1) that they are reasonably likely to
prevail eventually in the litigation and (2) that they
are likely to suffer irreparable injury without relief.
If these two threshold showings are made the District Court then considers, to the extent relevant, (3)
whether an injunction would harm the [defendants]
more than denying relief would harm the plaintiffs
and (4) whether granting relief would serve the public interest.
K.A. ex rel. Ayers v. Pocono Mountain Sch. Dist.,
710 F.3d 99, 105 (3d Cir. 2013) (alteration in original)
(quoting Tenafly Eruv Ass’n v. Borough of Tenafly,
309 F.3d 144, 157 (3d Cir. 2002)); accord Fed. R. Civ. P.
65. To establish a likelihood of success, “a sufficient
degree of success for a strong showing exists if there
is ‘a reasonable chance, or probability, of winning.’ ”
In re Revel AC, Inc., 802 F.3d 558, 568 (3d Cir. 2015)

“We employ a tripartite standard of review for . . . preliminary injunctions. We review the District Court’s findings of fact
for clear error. Legal conclusions are assessed de novo. The ultimate decision to grant or deny the injunction is reviewed for abuse
of discretion.” K.A. ex rel. Ayers v. Pocono Mountain Sch. Dist.,
710 F.3d 99, 105 (3d Cir. 2013) (omission in original) (internal quotation marks and citations omitted).
18

23a
(quoting Singer Mgmt. Consultants, Inc. v. Milgram,
650 F.3d 223, 229 (3d Cir. 2011) (en banc)).
Here, we must decide whether the District Court correctly concluded that the States have a reasonable probability of showing that the Final Rules violate the APA,
and if so, whether the equitable factors warrant a nationwide injunction.
A 19
To promulgate binding regulations, agencies engage
in what is known as notice-and-comment rulemaking.
5 U.S.C. § 553. This requires an agency to publish notice of the proposed rule in the Federal Register, collect
and consider public comments, and issue a concise statement of purpose upon finalizing the new rule. Id.
§ 553(b)-(c). Deviation from these procedures is only
permitted where expressly authorized by statute, id.
§ 559, or when the agency has “good cause” to dispense
with them, id. § 553(b)(3)(B). The Agencies assert that
both grounds justify their decision to forego notice-andcomment procedures here. They are mistaken.
1
The Government first argues that provisions within
the Health Insurance Portability and Accountability Act
of 1996 (“HIPAA”) grant the Agencies discretion to proceed by IFR in lieu of notice-and-comment rulemaking.

Quite appropriately, the Agencies do not challenge the States’
statutory standing to sue under the APA. 5 U.S.C. § 702; Massachusetts, 549 U.S. at 520 (recognizing states’ “procedural right to
challenge the rejection of its rulemaking petition as arbitrary and
capricious” under the EPA).
19

24a
The provisions upon which the Government relies provide:
The Secretary, consistent with section 104 of
[HIPAA], may promulgate such regulations as may
be necessary or appropriate to carry out the provisions of this [subchapter]. The Secretary may promulgate any interim final rules as the Secretary determines are appropriate to carry out this [subchapter].
26 U.S.C. § 9833; 29 U.S.C. § 1191c; 42 U.S.C. § 300gg92 [hereinafter “Regulation Provision”]. This language
does not eliminate the need for notice and comment.
First, the APA only allows a subsequent statute to
modify or supersede its procedural requirements “to the
extent [the statute] does so expressly.” 5 U.S.C. § 559.
The Regulation Provision contains no express language
supplanting APA procedures, and the sole reference to
“interim final rules” does not confer a license to ignore
APA requirements. Indeed, in contrast to statutory
authorizations to forego APA procedures, the Regulation Provision is “permissive (‘The Secretary may promulgate any interim final rules as the Secretary determines are appropriate . . . ’), wide-ranging (applying to any regulatory proceeding relating to group
health insurance plans), and do[es] not contain any specific deadlines for agency action.” Coal. for Parity,
Inc. v. Sebelius, 709 F. Supp. 2d 10, 18-19 (D.D.C. 2010)
(omissions in original and emphasis omitted); see also
California II, 911 F.3d at 578-80. In short, because the
Regulation Provision “neither contain[s] express language exempting agencies from the APA nor provide[s]
alternative procedures that could reasonably be understood as departing from the APA,” it does not authorize

25a
the Agencies to disregard the notice-and-comment requirements. California II, 911 F.3d at 579.
Second, the statutory reference within the Regulation Provision sheds light on the scope and purpose of
its IFR sentence. As the Court of Appeals for the
Ninth Circuit points out, § 104 of HIPAA aims to assure
regulatory coordination between the Agencies’ Secretaries for matters over which they share responsibility.
See California II, 911 F.3d at 579-80 (citing Pub. L. No.
104-191, 110 Stat. 1936 (1996) (codified at 42 U.S.C.
§ 300gg-92)). The first sentence of the Regulation Provision authorizes each Secretary to promulgate regulations “consistent with” the HIPAA section on coordination. The second sentence is identical but for two differences: it discusses IFRs instead of final regulations, and it omits any mention of HIPAA’s coordination
section. Read in light of the first sentence, the second
ensures that each Agency can proceed by IFR where a
Secretary “need[s] to regulate within his or her own domain temporarily while sorting out . . . inter-agency
conflict.” Id. at 579. Thus, “we need not give the second sentence the [A]gencies’ expansive interpretation in
order for the second sentence to retain independent effect.” Id. at 579-80. In sum, the Regulation Provision
does not expressly excuse the Agencies from complying
with APA procedures and therefore does not provide a
basis for issuing the IFRs without notice and comment. 20
Congress knows how to excuse an agency from complying with
the APA. For example, one HIPAA provision expressly permits
the Agencies to promulgate a rule prior to notice and comment.
42 U.S.C. § 1320a-7b note. That provision requires the Secretary
of Health and Human Services to publish a rule prescribing penalties for kickbacks by January 1, 1997, then less than four months
20

26a
The Agencies also lacked good cause for dispensing
with notice of and comment to the IFRs. An agency has
“good cause” to forego APA procedures where following
them would be “impracticable, unnecessary, or contrary
to the public interest.” 21 5 U.S.C. § 553(b)(3)(B). “[C]ircumstances justifying reliance on [the good cause] exception are indeed rare and will be accepted only after
the court has examine[d] closely proffered rationales
justifying the elimination of public procedures.” Nat.
Res. Def. Council, Inc. v. EPA (“NRDC”), 683 F.2d 752,
764 (3d Cir. 1982) (alterations in original) (internal quotation marks and citation omitted). Thus, we construe
the “good cause” exception to the notice-and-comment
requirement narrowly. 22 Id.

away. It provides that “[s]uch rule shall be effective and final immediately on an interim basis, but is subject to change and revision
after public notice and opportunity for . . . public comment.”
Unlike the Regulation Provision, § 1320a-7b expressly provides for
notice and comment after the promulgation of an IFR. Congress’s
omission of that procedure from the Regulation Provision demonstrates that it did not provide the Agencies authority to promulgate
IFRs without notice and comment.
21
5 U.S.C. § 553(b)(3) provides
[e]xcept when notice or hearing is required by statute, this
subsection does not apply—
...
(B) when the agency for good cause finds (and incorporates
the finding and a brief statement of reasons therefor in the
rules issued) that notice and public procedure thereon are impracticable, unnecessary, or contrary to the public interest.
22
Though the review standard for agency assertions of good cause
remains an open question in our circuit, see United States v. Reynolds, 710 F.3d 498, 509 (3d Cir. 2013), we need not answer that question here. Even applying the most deferential of the potential

27a
When they issued the IFRs, the Agencies claimed
good cause to waive notice and comment based on (1) the
urgent need to alleviate harm to those with religious objections to the current regulations; (2) the need to address “continued uncertainty, inconsistency, and cost”
arising from “litigation challenging the previous rules”;
and (3) the fact that the Agencies had already collected
comments on prior Mandate-related regulations. 82 Fed.
Reg. at 47,813-15; see also 82 Fed. Reg. at 47,855-59.
None of these assertions meet the standard for good
cause.
First, the Agencies’ desire to address the purported
harm to religious objections does not ameliorate the
need to follow appropriate procedures. All regulations
are directed toward reducing harm in some manner. 23
See United States v. Reynolds, 710 F.3d 498, 512-13
(3d Cir. 2013). Thus, “[a] need to regulate affected parties does not create the urgency necessary to establish
good cause.” Id. at 511. “As with any other administrative agency conclusion, we require some statement of
facts or circumstances that justifies the existence of
standards—reviewing the agency’s good cause determination to see
if it is arbitrary and capricious—the IFRs cannot stand.
23
As we observed in Reynolds,
[m]ost, if not all, laws passed by Congress requiring agencies
to promulgate new rules are designed to eliminate some real
or perceived harm. If the mere assertion that such harm will
continue while an agency gives notice and receives comments
were enough to establish good cause, then notice and comment
would always have to give way. An agency will invariably be
able to point to some continuing harm during the notice and
comment period antecedent to the promulgation of a rule.
710 F.3d at 512-13.

28a
good cause (e.g., an imminent, externally imposed deadline or the existence of an emergency).” Id. at 512.
The Agencies fail to cite any facts or impending deadlines sufficient to raise “good cause” here.
Second, the need to address uncertainty is likewise
insufficient to establish good cause. Uncertainty precedes every regulation, and to allow uncertainty to excuse compliance with notice-and-comment procedures
“would have the effect of writing [those] requirements
out of the statute.” Id. at 510. Furthermore, our
precedent forecloses the acceptance of uncertainty as a
basis for good cause. Id. (“An agency’s intention to
provide clarity, without more, cannot amount to good
cause.”).
Third, the Agencies’ previous solicitation and collection of comments regarding other rules concerning the
Contraceptive Mandate cannot substitute for notice and
comment here. If the APA permitted agencies to forego notice-and-comment concerning a proposed regulation simply because they already regulated similar matters, then the good cause exception could largely obviate
the notice-and-comment requirement. Furthermore,
the IFRs did not make a minor change. The IFRs create exemptions from the Contraceptive Mandate with
unprecedented scope and make the Accommodation
wholly voluntary. Such a dramatic overhaul of the
Contraceptive Mandate regulations required noticeand-comment under the APA.
For these reasons, the Agencies did not have good
cause to ignore the APA’s notice and comment requirement.

29a
B
The Government also contends that, even if the IFRs
were procedurally deficient, the Agencies’ subsequent
use of notice-and-comment rulemaking to finalize the
Rules cured any procedural defects. Under our precedent, however, “post-promulgation notice and comment
procedures cannot cure the failure to provide such procedures prior to the promulgation of the rule at issue.”
NRDC, 683 F.2d at 768; see Reynolds, 710 F.3d at 519
(“Any suggestion that the postpromulgation comments
to the Interim Rule can satisfy [the purposes of noticeand-comment rulemaking] misses the point.” (internal
citation omitted)); Sharon Steel Corp. v. EPA, 597 F.2d
377, 381 (3d Cir. 1979) (“We hold that the period for comments after promulgation cannot substitute for the prior
notice and comment required by the APA.”).
APA notice-and-comment procedures serve several
goals, including “(1) to ensure that agency regulations
are tested via exposure to diverse public comment, (2) to
ensure fairness to affected parties, and (3) to give affected parties an opportunity to develop evidence in the
record to support their objections to the rule and
thereby enhance the quality of judicial review.” Prometheus Radio Project v. FCC, 652 F.3d 431, 449
(3d Cir. 2011) (quoting Int’l Union, United Mine Workers of Am. v. Mine Safety & Health Admin., 407 F.3d
1250, 1259 (D.C. Cir. 2005)). The comment process also
allows each agency to “maintain[] a flexible and openminded attitude towards its own rules,” Reynolds,
710 F.3d at 511 (alteration in original and citation omitted) (quoting Prometheus Radio, 652 F.3d at 449); see
also Azar v. Allina Health Servs., 139 S. Ct. 1804, 1816
(2019) (“Notice and comment
. . .
affords the

30a
agency a chance to avoid errors and make a more informed decision.” (internal citation omitted)). To preserve the integrity of this process, “[t]he opportunity for
comment must be a meaningful opportunity,” Prometheus Radio, 652 F.3d at 450 (alteration in original), to
have interested parties share their views, and to have
the agency consider them with an “open mind,” Reynolds, 710 F.3d at 517-19.
The notice and comment exercise surrounding the Final Rules does not reflect any real open-mindedness toward the position set forth in the IFRs. 24 First, as the
Government admits, the minor changes to the Final
Rules do not “alter the fundamental substance of the exemptions set forth in the IFRs.” Dkt. 107-1 at 8. Second, the reasons the Agencies supplied for promulgating
the Final Rules simply echoed those provided for issuing
the IFRs. See 83 Fed. Reg. at 57,552, 57,609. These
rationales do not show the “flexible and open-minded attitude” the notice-and-comment process requires.
Reynolds, 710 F.3d at 511. Together, the Agencies’
justifications for avoiding notice and comment to the
IFRs, and the fact that the IFRs and the Final Rules
are virtually identical, suggest that the opportunity for
comment was not a “meaningful” one in the way the APA
requires. Prometheus Radio, 652 F.3d at 450.
Lastly, even setting aside the Agencies’ lack of openmindedness, the IFRs also impaired the rulemaking
process by altering the Agencies’ starting point in considering the Final Rules. In NRDC, our Court rejected the EPA’s argument that the opportunity for
We express no opinion on whether the Agencies appropriately
responded to comments collected during this process, see Trump,
351 F. Supp. 3d at 811-12, as this issue is not before us.
24

31a
post-promulgation comment remedied the EPA’s initial
failure to promulgate a rule through notice-andcomment rulemaking:
[t]o allow the APA procedures in connection with
the [new rule] to substitute for APA procedures in
connection with [the initial, procedurally defective
rule] would allow [the] EPA to substitute postpromulgation notice and comment procedures for
pre-promulgation notice and comment procedures at
any time by taking an action without complying with
the APA, and then establishing a notice and comment
procedure on the question of whether that action
should be continued. This would allow agencies to
circumvent [our case law] and the APA. We cannot
countenance such a result.
683 F.2d at 768 (citation omitted). This reasoning applies with equal force here. By first promulgating the
IFRs that granted the expanded exemptions without notice and comment, the Agencies changed the question
presented concerning the Final Rules from whether
they should create the exemptions to whether they
should depart from them. This starting position is impermissible under the APA. Id.; see also Sharon Steel,
597 F.2d at 381 (“Provision of prior notice and comment
allows effective participation in the rulemaking process
while the decisionmaker is still receptive to information
and argument. After the final rule is issued, the petitioner must come hat-in-hand and run the risk that the
decisionmaker is likely to resist change.” (citation omitted)).
In sum, because deficits in the promulgation of the
IFRs compromised the procedural integrity of the Final

32a
Rules, the States have demonstrated a likelihood of success in showing that the Final Rules are procedurally
defective, and in turn, violate the APA.
C
There are also serious substantive problems with the
Final Rules. More specifically, neither of the statutes
upon which the Agencies rely, the ACA and RFRA, authorize or require the Final Rules. Thus, they were enacted “in excess of statutory jurisdiction, authority, or
limitations, or short of statutory right,” making them
“arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A),
(C).
1
The Agencies argue that their authority under the
ACA to issue preventive care guidelines includes the
power to promulgate the Exemptions. This assertion
is without textual support.
The Women’s Health
Amendment to the ACA, 42 U.S.C. § 300gg-13(a)(4), provides:
A group health plan and a health insurance issuer
offering group or individual health insurance coverage shall, at a minimum provide coverage for
and shall not impose any cost sharing requirements
for— . . .
(3) with respect to infants, children, and adolescents, evidence-informed preventive care and screenings provided for in the comprehensive guidelines
supported by the [HRSA].
(4) with respect to women, such additional preventive care and screenings not described in paragraph

33a
(1)[ 25 ] as provided for in comprehensive guidelines
supported by the [HRSA] for purposes of this paragraph.
42 U.S.C. § 300gg-13(a). The authority to issue “comprehensive guidelines” concerns the type of services
that are to be provided and does not provide authority
to undermine Congress’s directive concerning who must
provide coverage for these services. Section 300gg13(a) unambiguously dictates that group health plans
and health insurance issuers “shall provide” the preventive care services set forth in the HRSA-supported comprehensive guidelines, and “shall” not impose cost sharing. The term “shall” denotes a requirement, Prometheus Radio Proj. v. FCC, 824 F.3d 33,50 (3d Cir. 2016)
(“Th[e] repeated use of ‘shall’ creates ‘an obligation impervious to . . . discretion.’ ” (omission in original)
(quoting Lexecon Inc. v. Milberg Weiss Bershad Hynes
& Lerach, 523 U.S. 26, 35 (1998)), and HRSA’s authority
to issue the guidelines does not empower it to ignore
that requirement. Nothing from § 300gg-13(a) gives
HRSA the discretion to wholly exempt actors of its
choosing from providing the guidelines services. On
the contrary, the mandate articulated in § 300gg-13(a)
forecloses such exemptions. 26

Paragraph (1) refers to “evidence-based items or services that
have in effect a rating of ‘A’ or ‘B’ in the current recommendations
of the United States Preventive Services Task Force.” 42 U.S.C.
§ 300gg-13(a)(1).
26
The Government argues that if the ACA does not grant the authority to issue the Exemptions, then HRSA was equally without authority to issue the Church Exemption and the Accommodation.
This argument fails. Though the Church Exemption may seem facially at odds with § 300gg-13(a), Supreme Court precedent dictates
25

34a
The Agencies’ reliance on the language that directed
HRSA to create the guidelines concerning women’s preventive health care and the use of the phrase “as provided for in” such guidelines does not advance their position. The Agencies contrast § 300gg-13(a)(4)’s use of
the phrase “as provided for in” comprehensive guidelines with a neighboring sub-section’s provision addressing preventive care for infants, children, and adolescents, which is “provided for in the” comprehensive
guidelines for those services.
Compare 42 U.S.C.
§ 300gg-13(a)(3) (describing “preventive care and
screenings provided for in the comprehensive guidelines”), with id. § 300gg-13(a)(4) (describing “preventive
care and screenings as provided for in comprehensive
guidelines”). They assert that the use of the word “as”
in § 300gg-13(a)(4) gives HRSA authority to dictate the
preventive services to be provided and who must provide them. This argument overlooks the clear explanation for the different language. When the ACA was
passed, the comprehensive guidelines for children’s preventive care already existed, but guidelines for women’s
preventive care were not yet written. Congress used
the definite article “the” in § 300gg-13(a)(3) to refer to
a narrow form of exemption for houses of worship. See 80 Fed.
Reg. at 41,325 (describing the exemption for churches and houses of
worship as “consistent with their special status under longstanding
tradition in our society and under federal law”); see, e.g., HosannaTabor Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S. 171
(2012) (discussing the existence of a ministerial exception precluding
application of employment legislation to a religious institution to respect churches’ internal autonomy). The Accommodation likewise
does not plainly run afoul of the ACA. Instead, it provides a process through which a statutorily identified actor “shall provide” the
mandated coverage. In any event, the Agencies’ authority to issue
the Church Exemption and Accommodation is not before us.

35a
those existing children’s preventive care guidelines.
In § 300gg-13(a)(4), Congress addressed the women’s
preventive care guidelines that were yet to be promulgated by stating “as provided for in the comprehensive
guidelines.”
The Agencies’ interpretation of “comprehensive” as
authorizing them to issue guidelines that exempt entities from complying with the Mandate likewise fails.
Put simply, the discretion the statute grants HRSA to
issue comprehensive guidelines concerning services to
be provided does not include the power to exempt actors
from the statute itself. This is borne out by the fact
that the word “comprehensive” is also used to describe
the children’s preventive care guidelines, and those
guidelines do not exempt any statutorily required party
from providing services. See HHS, Preventive Care
Benefits for Children, https://www.healthcare.gov/
preventive-care-children (last visited May 8, 2019).
Congress was obviously aware of the existing children’s
guidelines when it drafted the Women’s Health Amendment, and Congress’s use of “comprehensive” to describe both sets of guidelines conveys that it intended
them to cover the same type of subject matter, namely
health care services for the identified groups. See
F.A.A. v. Cooper, 566 U.S. 284, 292 (2012) (“[W]hen Congress employs a term of art, it presumably knows and
adopts the cluster of ideas that were attached to each
borrowed word in the body of learning from which it was
taken.” (internal quotation marks and citation omitted)).
Other portions of the ACA also show that Congress
retained the authority to exempt certain employers
from providing contraceptive coverage. In passing the
ACA, Congress explicitly exempted grandfathered

36a
plans from the Contraceptive Mandate and other ACA
requirements. 42 U.S.C. § 18011(a), (e). Congress
also considered and rejected a statutory conscience
amendment that would have operated similarly to the
challenged Exemptions. 158 Cong. Rec. S1162, 117374 (2012). Between the substantially analogous exemption Congress rejected, and the one it decided to
keep, Congress demonstrated that exempting specific
actors from the ACA’s mandatory requirements is its
job, not the Agencies. See United States v. Johnson,
529 U.S. 53, 58 (2000) (“When Congress provides exceptions in a statute,” we may infer “that Congress considered the issue of exceptions and, in the end, limited the
statute to the ones set forth.”). Relatedly, by promulgating the Moral Exemption, which sought to do what
Congress refused to do with the conscience amendment,
the Agencies contravened Congress’s intent. See Food
& Drug Admin. v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 147 (2000) (considering Congress’s prior
refusal to pass laws as material to whether an agency’s
interpretation of its statute is entitled to deference).
Because § 300gg-13(a) does not authorize the Agencies to exempt plans from providing the required coverage, the Agencies’ authority under the ACA to enact the
Final Rules is without merit.
2 27
The Agencies’ effort to cast RFRA as requiring the
Religious Exemption is also incorrect. Even assuming
that RFRA provides statutory authority for the Agencies to issue regulations to address religious burdens the
No party argues that RFRA authorizes or requires the Moral
Exemption.
27

37a
Contraceptive Mandate may impose on certain individuals, RFRA does not require the enactment of the Religious Exemption to address this burden.
RFRA provides that the federal government “[s]hall
not substantially burden a person’s exercise of religion
even if the burden results from a rule of general applicability,” 42 U.S.C. § 2000bb-1(a), unless “that application
of the burden to the person—(1) is in furtherance of a
compelling governmental interest; and (2) is the least restrictive means of furthering that compelling governmental interest,” id. § 2000bb-1(b). “[A] person whose
religious exercise has been burdened in violation of this
section” may seek relief in a judicial proceeding. Id.
§ 2000bb-1(c). Thus, RFRA authorizes a cause of action for government actions that impose a substantial
burden on a person’s sincerely-held religious beliefs,
and provides a judicial remedy via individualized adjudication. See 42 U.S.C. § 2000bb-3(a); City of Boerne
v. Flores, 521 U.S. 507, 529 (1997) (“[RFRA] prevents
and remedies laws which are enacted with the unconstitutional object of targeting religious beliefs and practices.”). Because Congress has deemed the courts the
adjudicator of private rights of actions under RFRA,
Gonzales v. O Centro Espirita Beneficente Uniao do
Vegetal, 546 U.S. 418, 434 (2006) (holding RFRA “plainly
contemplates that courts would . . . consider whether
exceptions are required under the test set forth by Congress” (emphasis omitted)), we owe the Agencies no deference when reviewing determinations based upon
RFRA, see Adams Fruit Co., Inc. v. Barrett, 494 U.S.
638, 649 (1990) (declining to defer to an agency’s statutory interpretation where Congress “expressly estab-

38a
lished the Judiciary and not the [agency] as the adjudicator of private rights of action arising under the statute”).
A prima facie RFRA case requires a plaintiff to prove
that the government imposed a substantial burden on
religious exercise.
Mack v. Warden Loretto FCI,
839 F.3d 286, 304 (3d Cir. 2016). A substantial burden
exists if
(1) a follower is forced to choose between following
the precepts of his religion and forfeiting benefits
otherwise generally available to other [persons] versus abandoning one of the precepts of his religion in
order to receive a benefit; or (2) the government puts
substantial pressure on an adherent to substantially
modify his behavior and to violate his beliefs.[ 28]
Real Alternatives, Inc. v. Sec’y Dep’t of Health & Human Servs., 867 F.3d 338, 371 (3d Cir. 2017) (alteration
in original) (internal quotation marks and citation omitted). The Supreme Court has directed that, when considering a requested accommodation to address the burden, “courts must take adequate account of the burdens
a requested accommodation may impose on nonbeneficiaries.” Cutter v. Wilkinson, 544 U.S. 709, 720 (2005)
(referring to third parties who may face collateral consequences from accommodating an observer’s burden). 29
Although we “defer to the reasonableness” of an objector’s religious beliefs, “this does not bar our objective evaluation of the
nature of the claimed burden and the substantiality of that burden
on [the objector’s] religious exercise.” Real Alternatives, Inc. v.
Sec’y Dep’t of Health & Human Servs., 867 F.3d 338, 356 (3d Cir.
2017) (emphasis omitted) (citation omitted).
29
Although Cutter v. Wilkinson, 544 U.S. 709 (2005), dealt with an
application of the Religious Land Use and Institutionalized Persons
28

39a
The Accommodation fulfills this directive as it provides
a means for an observer to adhere to religious precepts
and simultaneously allows women to receive statutorilymandated health care coverage.
RFRA does not require the broad exemption embodied in the Final Rule nor to make voluntary a notice of
the employer’s decision not to provide such coverage to
avoid burdening those beliefs. As our Court has explained,
the self-certification form does not trigger or facilitate the provision of contraceptive coverage because
coverage is mandated to be otherwise provided by
federal law. Federal law, rather than any involvement by the [employers] in filling out or submitting
the self-certification form, creates the obligation of
the insurance issuers and third-party administrators
to provide coverage for contraceptive services. . . .
[And] the submission of the self-certification form
does not make the [employers] “complicit” in the provision of contraceptive coverage.
Geneva Coll. v. Sec’y of U.S. Dep’t of Health & Human
Servs., 778 F.3d 422, 437-38 (3d Cir. 2015) (emphasis omitted), vacated and remanded sub nom. Zubik, 136 S. Ct.
1557. 30

Act (“RLUIPA”), we have said that RLUIPA and RFRA “are analogous for the purpose of the substantial burden test,” and we may
therefore may apply RLUIPA law. Mack, 839 F.3d at 304 n.103;
see Holt v. Hobbs, 135 S. Ct. 853, 860 (2015).
30
While Zubik vacated our opinion in Geneva College, it did not
reach the merits of the Accommodation nor did it “attack our reasoning.” Real Alternatives, 867 F.3d at 356 n.18. After Zubik,

40a
The religious objectors who oppose the Accommodation mechanism disapprove of “what follows from” filing
the self-certification form, but under Free Exercise jurisprudence, we examine the conduct of the objector, not
third parties. Id. at 439-40. Here, through the Accommodation process, “the actual provision of contraceptive coverage is by a third party,” so any possible
burden from the notification procedure is not substantial. Id. at 442. For these reasons, RFRA does not
require that the Agencies permit religious objectors to
decline to provide contraceptive coverage without notifying their insurance issuer, TPA, HHS, or the employees.
Contrary to the Agencies’ assertions in the Rule, the
Supreme Court has not held that the Accommodation
imposes substantial burdens on religious rights.
Hobby Lobby ruled that closely-held corporations are
entitled to take advantage of the Accommodation process rather than facing fines for non-compliance with the
contraceptive mandate, observing that the Accommodation was a less restrictive alternative to forcing objectors to choose between adhering to the mandate or violating their sincerely-held beliefs. 573 U.S. at 730-31.
While the Court “did not decide” whether the Accommodation “complies with RFRA,” it found that “[a]t a minimum . . . it does not impinge on that plaintiffs’ religious belief that providing insurance coverage for [certain contraceptives] violates their religion, and it serves
HHS’s stated interests equally well.” Id. at 731; see
also Zubik, 136 S. Ct. at 1561 (Sotomayor, J., concur-

we repeated that the Accommodation does “not impose a substantial burden.” Id.

41a
ring) (“The opinion does not . . . endorse the petitioners’ position that the existing regulations substantially burden their religious exercise or that contraceptive coverage must be provided through a separate policy, with a separate enrollment process.” (internal
quotation marks and citations omitted)); Wheaton,
573 U.S. at 960 (noting that Hobby Lobby “expressly
rel[ied] on the availability of the religious-nonprofit accommodation” to reach its holding).
Furthermore, the Religious Exemption and the new
optional Accommodation would impose an undue burden
on nonbeneficiaries—the female employees who will
lose coverage for contraceptive care. The Agencies
downplayed this burden on women, contradicting Congress’s mandate that women be provided contraceptive
coverage. “No tradition, and no prior decision under
RFRA, allows a religion-based exemption when the
[A]ccommodation would be harmful to others—here, the
very persons the contraceptive coverage requirement
was designed to protect.” Hobby Lobby, 573 U.S. at
764 (Ginsburg, J., dissenting). As the Agencies recognize, the record shows that thousands of women may
lose contraceptive coverage if the Rule is enforced and
frustrate their right to obtain contraceptives. Id. at
727 (citation omitted); 42 U.S.C. § 300gg-13(a)(4) (directing the enactment of the Women’s Preventive Services Guidelines, which include contraceptives).
In short, the status quo prior to the new Rule, with
the Accommodation, did not infringe on the religious exercise of covered employers, nor is there a basis to conclude the Accommodation process infringes on the religious exercise of any employer. For these reasons,
RFRA does not demand the Religious Exemption.

42a
D
Because the States demonstrated a likelihood of success on the merits as to their APA claim, we next turn
to the remaining equitable factors. To obtain a preliminary injunction, a plaintiff must “demonstrate that irreparable injury is likely in the absence of an injunction.” Winter, 555 U.S. at 22 (emphasis omitted). Because the States cannot collect money damages under
the APA, 31 5 U.S.C. § 702 (enabling claimants to obtain
“relief other than money damages”); see also California
II, 911 F.3d at 581, the States will suffer irreparable
harm if the Rules are enforced. The States will face
unredressable financial consequences from subsidizing
contraceptive services, providing funds for medical care
associated with unintended pregnancies, and absorbing
medical expenses that arise from decreased use of contraceptive medications for other health conditions.
Therefore, the District Court did not abuse its discretion in holding that the States demonstrated a likelihood
of irreparable harm.
Furthermore, because the current Accommodation
does not substantially burden employers’ religious exercise and the Exemption is not necessary to protect a
legally-cognizable interest, the States’ financial injury
outweighs any purported injury to religious exercise.
Moreover, the public interest favors minimizing harm to
third-parties by ensuring that women who may lose
ACA guaranteed contraceptive coverage are able to
maintain access to the preventive care to which they are
entitled under the ACA and HRSA’s comprehensive
Monetary injuries ordinarily do not constitute irreparable
harm because they are compensable. See Instant Air Freight Co.
v. C.F. Air Freight, Inc., 882 F.2d 797, 801 (3d Cir. 1989).
31

43a
guidelines while final adjudication of the Rules is pending. Therefore, the District Court did not abuse its discretion in concluding that the balance of the equities and
the public interest both favor issuing an injunction.
E
Having determined that a preliminary injunction is
warranted, the final question we address is whether the
District Court abused its discretion by enjoining the Final Rules nationwide. “Crafting a preliminary injunction is an exercise of discretion and judgment, often dependent as much on the equities of a given case as the
substance of the legal issues it presents.” Trump v.
Int’l Refugee Assistance Project, 137 S. Ct. 2080, 2087
(2017) (per curiam). While courts are vested with the
power to issue equitable relief with a nationwide reach,
see Texas, 809 F.3d at 188 (quoting U.S. Const. art. III,
§ 1), they must ensure that “injunctive relief [is] no more
burdensome to the defendant than necessary to provide
complete relief to plaintiffs,” Novartis Consumer
Health, Inc. v. Johnson & Johnson-Merck Consumer
Pharm. Co., 290 F.3d 578, 598 (3d Cir. 2002) (internal
quotation marks and citation omitted). We must also
bear in mind that the purpose of injunctions is “not to
conclusively determine the rights of the parties, but to
balance the equities as the litigation moves forward.”
Trump, 137 S. Ct. at 2087 (internal citation omitted).
Mindful of these considerations, the District Court
did not abuse its discretion in concluding that a nationwide injunction is necessary to afford complete relief to
the States and that it is not “more burdensome to the

44a
defendant that necessary” to provide such relief. 32
Groupe SEB USA, Inc. v. Euro-Pro Operating LLC,
774 F.3d 192, 206 (3d Cir. 2014) (internal quotation
marks and citations omitted). First, our APA case law
suggests that, at the merits stage, courts invalidate—
without qualification—unlawful administrative rules as
a matter of course, leaving their predecessors in place
until the agencies can take further action. See, e.g.,
Prometheus Radio, 652 F.3d at 453-54 & n.25 (vacating
procedurally defective rule and leaving the prior rule in
effect); Council Tree Commc’ns, Inc. v. FCC, 619 F.3d
235, 258 (3d Cir. 2010) (same). Congress determined
that rule-vacatur was not unnecessarily burdensome on
agencies when it provided vacatur as a standard remedy
for APA violations. See 5 U.S.C. § 706(2) (“The reviewing court shall . . . hold unlawful and set aside
agency action” that is outside an agency’s authority, or
“without observance of procedure required by law,”
among other things). While vacatur is the ultimate
remedy the States seek, and that is not the relief being
granted here, by enjoining enforcement of the Rules we
provide a basis to ensure that a regulation that the
States have shown likely to be proven to be unlawful is
not effective until its validity is finally adjudicated.
Second, a nationwide injunction is necessary to provide the States complete relief. Many individuals work
in a state that is different from the one in which they
reside. See Amici Curiae Massachusetts, et al., Br. at
Our sister circuit declined to uphold a nationwide injunction concerning the IFRs, but the record before us is substantially more developed than the record before that court. California II, 911 F.3d
at 584 (“On the present record, an injunction that applies only to the
plaintiff states would provide complete relief to them.”).
32

45a
24 (“Mass. Amici Br.”) (stating that 14% of the workforce in New Jersey and 5.4% in Pennsylvania work out
of state, comprising more than 800,000 workers in total).
An injunction geographically limited to the States alone
will not protect them from financial harm, as some share
of their residents who work out-of-state will lose contraceptive coverage originally provided through employers
in non-enjoined states who will exempt themselves.
Women covered by these plans who live in the States will
seek state-funded services, and a state specific injunction will not be sufficient to prevent the resulting financial harm.
Out-of-state college attendance further exacerbates
the States’ injury. As the Moral Exemption points out,
“[o]nly a minority of students in higher education receive health insurance coverage from plans arranged by
their colleges or universities.” 83 Fed. Reg. at 57,564;
83 Fed. Reg. at 57,619. Instead, most of these students
remain on their parents’ employer-based plans. Mass.
Amici Br. at 26. The States host many such students
at their colleges. “Each year, for example, Pennsylvania takes in more than 32,000 first-time out-of-state students alone—the second most of any state in the country.” Mass. Amici Br. at 25 (citing Nat’l Ctr. For Educ.
Statistics, Residence and Migration of All First-Time
Degree/Certificate-Seeking Undergraduates, Digest of
Education Statistics (2017)). In the absence of a nationwide injunction, students attending school in the
States may lose contraceptive coverage from their parents’ out-of-state plans, again leaving programs within
the States to pick up the bill. 33 In light of the impact of
It is also likely that residents of the States will attend out-ofstate schools that invoke the Exemptions, and that such students will
33

46a
these interstate activities, the District Court did not
abuse its discretion in concluding that a nationwide injunction was necessary to afford the States complete relief. 34
V
For the foregoing reasons, we will affirm the District
Court’s order granting the nationwide preliminary injunction.

seek contraceptive services through programs in their home states,
also giving rise to fiscal injuries to the States that only a nationwide
injunction can remedy.
34
The Government also argues that a nationwide injunction takes
a toll on the court system, foreclosing “adjudication by a number of
different courts and judges,” Califano v. Yamasaki, 442 U.S. 682, 702
(1979), thereby preventing legal questions from “percolating”
throughout the court system, Gov’t Br. at 79-80. The argument has
little force in this case. First, other federal courts have examined
substantially the same legal issues as we confront here. See generally Massachusetts, 923 F.3d 209; California II, 911 F.3d 558. Second, the extensive litigation surrounding the Exemption and Accommodation have allowed for an airing of the legal issues. See Petition for Writ of Certiorari at 27, The Little Sisters of the Poor
Jeanne Jugan Residence v. California (No. 18-1192) (“Further percolation is unnecessary. . . . [T]his issue was adjudicated by ten
courts of appeals and dozens of district courts. . . . The arguments have all been aired.”). Thus, there is no “percolation” problem here.

47a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

No. 17-4540
COMMONWEALTH OF PENNSYLVANIA, PLAINTIFF
v.
DONALD J. TRUMP, DONALD J. WRIGHT,
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, STEVEN T. MNUCHIN,
UNITED STATES DEPARTMENT OF THE TREASURY,
RENE ALEXANDER ACOSTA AND THE UNITED STATES
DEPARTMENT OF LABOR, DEFENDANTS
Filed: Dec. 15, 2017
OPINION

The interests at stake in this litigation are great, but
the issues that must be decided here on Plaintiff ’s Motion for a Preliminary Injunction are narrow. This
case implicates access to healthcare, religious freedom,
women’s rights, and executive power. However, the
Court currently addresses only two precise questions:
Did the Defendants here follow the proper procedure in
issuing new rules that greatly expand exemptions to the
law requiring health plans to cover women’s preventive
services at no cost, and do the new rules contradict the
text of the statute that they are meant to interpret?

48a
Plaintiff, the Commonwealth of Pennsylvania (“Commonwealth”), seeks to enjoin enforcement of two Interim Final Rules (“New IFRs”), referred to as the
Moral Exemption Rule and the Religious Exemption
Rule, modifying the Affordable Care Act. The New
IFRs were issued by the Departments of Health and
Human Services, the Department of Treasury, and the
Department of Labor on October 6, 2017. They permit
employers to opt out of providing no-cost contraceptive
coverage on the basis of sincerely held religious beliefs
or sincerely held moral convictions. The parties here
have vastly different perspectives on the import of the
New IFRs. The Defendants assert that they are meant
to permit a small number of religious objectors to opt
out of covering contraceptive services in their employersponsored health plans because the requirement to provide contraceptive coverage imposes a substantial burden on their exercise of religion. Quite to the contrary,
the Commonwealth argues that the Rules allow almost
any employer to withhold insurance coverage for contraceptive services from their female employees, thus impacting millions of women—all in contravention of the
Affordable Care Act and the United States Constitution.
The Commonwealth has sued President Donald J.
Trump, United States Secretary of Health and Human
Services Donald J. Wright, 1 United States Secretary
of the Treasury Steven T. Mnuchin, and United States
Secretary of Labor Rene Alexander Acosta in their official capacities, as well as each of their agencies (collectively, “Defendants”). It now seeks to enjoin the Defendants from enforcing the New IFRs for a variety of
Eric D. Hargan substitutes Donald J. Wright pursuant to Rule
25(d) of the Federal Rules of Civil Procedure.
1

49a
constitutional and statutory violations. For the reasons explained below, the Motion for a Preliminary Injunction shall be granted.
I.

Background 2

In March 2010, Congress enacted the Affordable
Care Act. See Patient Protection and Affordable Care
Act (ACA), Pub. L. No. 111-148, 124 Stat. 119 (2010). The
ACA included a provision called the Women’s Health
Amendment, which mandated that group health plans
and health insurance issuers offering group or individual health insurance provide coverage for preventive
health services and screenings for women without costsharing responsibilities. The preventive services that
must be covered include, “with respect to women, such
additional preventive care and screenings . . . as
provided for in comprehensive guidelines supported by
the Health Resources and Services Administration
(HRSA).” See 42 U.S.C. § 300gg-13(a)(4). Thus, Congress left the decision about which preventive care and
screenings should be covered by the ACA up to the
HRSA, which is an agency of the Department of Health
and Human Services (HHS).
The HRSA commissioned the Institute of Medicine
(“the Institute”) to issue recommendations identifying
what specific preventive women’s health services should
be covered under the ACA’s mandate. See 77 Fed.
Reg. 8725-26. The Institute is an arm of the National

The factual statements found here and elsewhere in the opinion constitute this Court’s findings of fact, as required under Rule 52(a) of the
Federal Rules of Civil Procedure, regardless of any heading or lack
thereof.
2

50a
Academy of Sciences, an organization that Congress established for the explicit purpose of furnishing advice to
the federal government. See Pub. Citizen v. Dep’t of
Justice, 491 U.S. 440, 460 n.11 (1989). The Institute, in
turn, convened a committee of sixteen members (the
“Committee”), including specialists in disease prevention, women’s health issues, adolescent health issues,
and evidence-based guidelines, to formulate specific recommendations.
The Committee defined preventive
health services to include measures “shown to improve
well-being and/or decrease the likelihood or delay the
onset of a targeted disease or condition.” Institute,
Clinical Prevention Services for Women: Closing the
Gaps 23 (2011) (“Institute Report”).
On July 19, 2011, the Institute, through the Committee, issued a comprehensive report that identified health
services that should be covered under the Women’s
Health Amendment. Id. at 8-12. It recommended
that the ACA cover “the full range of [FDA]-approved
contraceptive methods, sterilization procedures, and patient education and counseling for women with reproductive capacity.” Id. at 109-10. The Committee considered: (1) the prevalence of unintended pregnancy in
the United States; (2) potential health risks of pregnancy; (3) that decreased intervals between pregnancies
lead to an “increased risk of adverse pregnancy outcomes”; (4) the effectiveness of contraceptives in preventing unintended pregnancy; (5) the health benefits of
contraceptives for other diseases and conditions; and
(6) the barrier to contraceptive access presented by its
cost. See id. at 104-10.

51a
Original Religious Exemption
On August 1, 2011, HRSA adopted the Institute’s recommendations in guidelines, which required, among
other things, that plans must cover all FDA-approved
contraceptive methods (“Contraceptive Mandate”).
45 C.F.R. § 147.130(a)(1)(iv); 29 C.F.R. § 2590.7152713(a)(1)(iv); 26 C.F.R. § 54.9815-2713(a)(1)(iv). This
requirement applied to all health insurers offering individual or group insurance, as well as all group health
plans, with the exception of certain “grandfathered”
plans. See 29 C.F.R. § 2590.715-1251. Simultaneously,
the Departments of HHS, Labor, and the Treasury (“the
Agencies” or “Defendant Agencies”) also promulgated
an Interim Final Rule (“IFR”) exempting certain religious employers from providing contraceptive services
(“Original Religious Exemption”). See 76 Fed. Reg.
46621. To take advantage of that exemption, an employer must: (1) have the inculcation of religious values
as its purpose; (2) primarily employ people who share its
religious tenets; (3) primarily provide services to persons who share its religious tenets; and, (4) be a church,
its integrated auxiliary, or a convention or association
of a church, all of which are exempt from taxation under
26 U.S.C. § 501(a). See id. at 46623.
Second Religious Exemption and Accommodation Process
Following several legal challenges to the Contraceptive Mandate, the Agencies began to consider changes
to the religious exemptions. In March 2012, they issued an Advanced Notice of Proposed Rulemaking concerning a potential accommodation process for religious
objectors to the Contraceptive Mandate. 77 Fed. Reg.

52a
16501. After a comment period, they then issued a Notice of Proposed Rulemaking proposing changes to the
definition of religious organizations in the exemption
and creating an accommodation process for religious objectors to the Contraceptive Mandate. 78 Fed. Reg.
8456. The Agencies published final regulations on July
2, 2013 (“Second Religious Exemption”). See 78 Fed.
Reg. 39870. These regulations redefined a religious
employer to only refer to churches, their integrated auxiliaries, and conventions or associations of churches,
eliminating the need to fulfill the first three requirements of the prior regulations of the exemption. Upon
a covered entity claiming the exemption, the provider or
administrator would then have to provide the legally required contraceptive services directly to women covered
under the employer’s plan (“Accommodation Process”).
Third Religious Exemption and Accommodation Process
Following enactment of the ACA and the Second Religious Exemption, the Supreme Court granted certiorari to decide whether the Contraceptive Mandate violated the Religious Freedom Restoration Act, 42 U.S.C.
§ 2000bb-1 (RFRA). In Burwell v. Hobby Lobby Stores,
Inc., 134 S. Ct. 2751 (2014), the Supreme Court concluded that applying the Contraceptive Mandate to
closely held corporations violated RFRA. In Wheaton
Coll. v. Burwell, 134 S. Ct. 2806 (2014), the Court identified an alternative process by which Wheaton College
could comply with the Contraceptive Mandate without
informing its health insurer or third-party administrator: The Court permitted Wheaton College to “inform[] the Secretary of Health and Human Service in
writing that it
. . .
has religious objections to

53a
providing coverage for contraceptive services. Id. at
2807. In response to Hobby Lobby and Wheaton College, the Agencies issued a third set of IFRs to augment
the Accommodation Process to comply with the Supreme Court’s orders. See 79 Fed. Reg. 51092, 51118
(expanding the Accommodation Process to include forprofit corporations and to adjust the Accommodation
Process). The Agencies finalized the IFRs on July 14,
2015 (“Third Religious Exemption”). See 80 Fed. Reg.
41318, 41324.
One year later, the Supreme Court granted certiorari
to decide whether the Accommodation Process violated
RFRA. The question before the Supreme Court was
whether the requirement to notify plaintiffs’ insurers of
their religious objections substantially burdened their
exercise of religion in violation of RFRA. The Supreme
Court did not address the question head on. Rather, it
vacated the judgments of the courts of appeals and remanded the cases to provide the parties “an opportunity
to arrive at an approach going forward that accommodates petitioners’ religious exercise while at the same
time ensuring that women covered by petitioners’ health
plans ‘receive full and equal health coverage, including
contraceptive coverage.’ ” Zubik v. Burwell, 136 S. Ct.
1557, 1560 (2016). The Agencies then issued a Request
for Information (“RFI”) seeking public comment on options for modifying the Accommodation Process in light
of Zubik. See 81 Fed. Reg. 47741. On January 9, 2017,
the Department of Labor announced that it was unable
to develop an approach that could “resolve the concerns
of religious objectors, while still ensuring that the affected women receive full and equal health coverage, in-

54a
cluding contraceptive coverage.” Department of Labor, FAQs about Affordable Care Act Implementation
Part 36 (Jan. 9, 2017).
Executive Order 13798: “Promoting Free Speech and
Religious Liberty”
On May 4, 2017, President Trump issued an Executive Order “Promoting Free Speech and Religious Liberty.” Exec. Order No. 13798, 82 Fed. Reg. 21675. The
Order directed the Agencies to “consider issuing amended
regulations, consistent with applicable law, to address
conscience-based objections to the preventive-care mandate promulgated under [the Women’s Health Amendment.]” Id. § 3.
Fourth Religious Exemption and Accommodation Process
The Agencies issued the New IFRs on October 6,
2017, citing a goal of being “consistent with the President’s Executive Order and the Government’s desire to
resolve the pending litigation and prevent future litigation from similar plaintiffs.” See 82 Fed. Reg. 47792
(“Religious Exemption Rule”); 82 Fed. Reg. 47838
(“Moral Exemption Rule”). The New IFRs embodied
two exemptions to the Contraceptive Mandate. First,
under the Religious Exemption Rule, any non-profit or
for-profit entity, whether closely held or publicly traded,
may claim the exemption based on sincerely held religious beliefs. Second, under the Moral Exemption Rule,
any non-profit or for-profit entity, so long as it is closely
held, may claim the exemption based on sincerely held
moral convictions.
The Religious Exemption and Moral Exemption
Rules make significant changes from prior exemptions.

55a
First, the new rules greatly expand the scope of who
may opt out of the Contraceptive Mandate. Second,
the rules render the Accommodation Process optional.
Third, they eliminate requirements to provide notice of
an intent to take advantage of either exemption. In
other words, entities that stop providing contraceptive
care “do not need to file notices or certifications of their
exemption and [the Exemption Rules] do not impose any
new notice requirements on them.” 3 See 82 Fed. Reg.
47850, 47858. Fourth, the New IFRs permit employers to opt out of coverage on the basis of “sincerely held”
religious beliefs and moral convictions.
The Agencies issued the new rules as IFRs and requested post-issuance comments by December 5, 2017,
60 days after they were issued. The Commonwealth filed
this suit in the interim seeking to enjoin enforcement of
the New IFRs because: (1) they fail to comply with the
notice-and-comment procedures required by the Administrative Procedure Act (“APA”), 5 U.S.C. § 551, et seq.;
(2) they are “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law” in violation of the substantive provisions of the APA, 5 U.S.C.
§ 706(2)(A); (3) they violate Title VII of the Civil Rights
Act, 42 U.S.C. § 2000-2(a); (4) they violate the Equal
Protection Guarantee of the Fifth Amendment, U.S.
Const. amend. V; and, (5) they violate the Establishment
Clause. U.S. Const. amend. I.

The Employee Retirement Income Security Act of 1974 (ERISA)
still requires group health plans to notify plan participants of any
change in coverage at least 30 or 60 days in advance. See 77 Fed.
Reg. 8667.
3

56a
II.

Standing

A threshold question is whether the Commonwealth
has standing. Standing is a litigant’s ticket to federal
court. It is a constitutional requirement, “limit[ing]
the category of litigants empowered to maintain a lawsuit in federal court to seek redress for a legal wrong.”
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016); U.S.
Const. art. III, § 2, cl. 2. The Commonwealth contends
that it is properly before the Court because the New
IFRs are causing, or will imminently cause, direct harm
to its sovereign, quasi-sovereign and proprietary interests. Additionally, it asserts that it has parens patriae
standing to protect the health, safety and well-being of
its residents in ensuring that they enjoy access to
healthcare services. The Defendants, on the other hand,
contend that the Commonwealth has not suffered any
legal wrong that would allow it to step foot into federal
court.
“No principle is more fundamental to the judiciary’s
proper role in our system of government than the constitutional limitation of federal-court jurisdiction to actual cases or controversies.” Raines v. Byrd, 521 U.S.
811, 818 (1997). The doctrine of standing ensures that
federal judicial power is properly limited to these cases
or controversies. See Finkleman v. Nat’l Football
League, 810 F.3d 187, 203 (3d Cir. 2016). Thus, if a
plaintiff lacks standing, the case must be dismissed.
See id. at 195. And, as Plaintiff, the Commonwealth
has the burden of establishing that it has standing. See
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 411-12
(2013).

57a
To do so, it must satisfy “the irreducible constitutional minimum of standing,” which “contains three elements.” Lujan v. Defenders of Wildlife, 504 U.S. 555,
560 (1992). First, the Commonwealth must have suffered an “injury in fact,” defined as “an invasion of a legally protected interest which is (a) concrete and particularized and (b) actual or imminent, not conjectural or
hypothetical.” Id. (internal quotation marks and citations omitted). Second, the Commonwealth must show
that there is a “causal connection between the injury and
the conduct complained of.” Id. That is, the injury
must be “fairly traceable” to the “challenged action of
the defendant.” Id. Third, the Commonwealth must
show that it is “likely, as opposed to merely speculative,
that the injury will be redressed by a favorable decision.” Id. at 561 (internal quotation marks omitted).
“Each element [of standing] must be supported in the
same way as any other matter on which the plaintiff
bears the burden of proof, i.e., with the manner and degree of evidence required at the successive stages of the
litigation.” Id. Thus, because the Commonwealth
here seeks a preliminary injunction, it must adduce evidence demonstrating more than a mere possibility of injury in support of standing. Doe v. Nat’l Bd. of Med.
Exam’rs, 199 F.3d 146, 152 (3d Cir. 1999).
a.

Special Solicitude

This standing inquiry must be made in the context
of a clear recognition that States, like the Commonwealth here, “are not normal litigants for the purposes
of invoking federal jurisdiction.” Massachusetts v.
EPA, 549 U.S. 497, 518 (2007). Accordingly, a State is
“entitled to special solicitude in [the] standing analysis”
if it has: (1) a procedural right that authorizes it to

58a
challenge the conduct at issue; and, (2) a “stake in protecting its quasi-sovereign interests.” Massachusetts,
549 U.S. at 520; see also Texas v. United States, 809 F.3d
134, 151 (5th Cir. 2015), aff ’d by an equally divided
Court, 136 S. Ct. 2271 (2016).
In determining whether the Commonwealth has met
these conditions, both Massachusetts v. EPA and Texas
v. United States are instructive. In Massachusetts v.
EPA, Massachusetts sued the Environmental Protection Agency (EPA), alleging that global warming was “the
most pressing environmental challenge of our time,” and
that the EPA had “abdicated its responsibility under the
Clean Air Act” when it failed to issue rules regulating
the emission of greenhouse gases coming from cars.
549 U.S. at 505. The EPA challenged Massachusetts’
standing to bring the suit because greenhouse gas emissions are a widespread and generalized harm not unique
to any specific plaintiff. See id. at 517. The Supreme
Court nonetheless held that Massachusetts had special
solicitude in the standing inquiry to challenge the EPA’s
inaction: First, Massachusetts had a procedural right
under the relevant statute, the Clean Air Act, which allowed it to “challenge agency action unlawfully withheld.” Id. (citing 42 U.S.C. § 7607(b)(1)). Second,
Massachusetts had a quasi-sovereign interest—a “wellfounded desire to preserve its sovereign territory” from
the effects of global warming. Id. at 519. Indeed,
Massachusetts “own[ed] a great deal of the ‘territory alleged to be affected.’ ” Id.; see also id. at 522 (affidavits
noting that “rising seas have already begun to swallow
Massachusetts’ coastal land.”). After concluding that
Massachusetts was entitled to special solicitude in the
standing analysis, the Supreme Court ultimately held
that it had Article III standing to sue the EPA based on

59a
an injury to its territory that stemmed from global
warming. See id. at 526.
In Texas v. United States, the Fifth Circuit, relying
on Massachusetts v. EPA, similarly concluded that
Texas, as a State, was entitled to special solicitude in
seeking to enjoin implementation of the Deferred Action
for Parents of Americans and Lawful Permanent Residents program (DAPA). 809 F.3d at 154. In that case,
non-citizens in Texas could apply for a driver’s license if
they presented “documentation issued by the appropriate United States agency that authorizes the applicant
to be in the United States.” See id. at 155 (quoting
TEX. TRANSP. CODE § 521.142(a)). DAPA would have
permitted at least 500,000 non-citizens to qualify for
these driver’s licenses. Id. Because Texas subsidized
its licenses, it would have lost money for each license issued to a DAPA beneficiary. Id. Texas therefore
sought injunctive relief to prevent DAPA’s implementation. See id. at 149.
Applying the Massachusetts v. EPA framework, the
Fifth Circuit first considered whether Texas had a procedural right to challenge DAPA. It concluded that
Texas’ use of the APA to challenge an “affirmative decision” made by a federal agency was similar to Massachusetts’ use of the judicial review provision in the Clean
Air Act to challenge the EPA’s inaction. Id. at 152.
Second, as to Texas’ quasi-sovereign interest, the Fifth
Circuit held that DAPA imposed “substantial pressure”
on the State to change its laws to avoid bearing further
costs from subsidizing additional driver’s licenses. See
id. at 153. The Fifth Circuit thus concluded that Texas
had special solicitude in suing the federal government
under the APA for injunctive relief. Id. at 154-55.

60a
On writ of certiorari, the Supreme Court summarily
affirmed the Fifth Circuit’s decision without opinion but
with a notation that the affirmance was “by an equally
divided Court.” United States v. Texas, 136 S. Ct. 2271
(2016) (per curiam). Notably, one question certified by
the Supreme Court included whether Texas had standing. See United States v. Texas, 136 S. Ct. 906 (2016)
(granting petition for writ of certiorari for, among other
things, whether Texas had standing). Affirmances by
an equally divided Supreme Court typically do not constitute binding precedent. See Eaton v. Price, 364 U.S.
263, 264 (1960). However, when the Supreme Court is
equally divided on an issue of subject matter jurisdiction, it has determined that the proper course is to remand the issue of jurisdiction to a lower court. See Silliman v. Hudson River Bridge Co., 66 U.S. 582, 584-85
(1861). In other words, if the Supreme Court were
equally divided on whether Texas had standing to enjoin
DAPA, it would have remanded that issue to the Fifth
Circuit. The Supreme Court did not and instead affirmed the Fifth Circuit. It therefore follows logically
that a majority of the Supreme Court decided that Texas
had standing to pursue its APA claim. 4
There is no daylight between the 2015 Texas suit
against the federal government and the current Commonwealth suit against the federal government. Like
Texas, the Commonwealth challenges agency action in
issuing regulations—here, the New IFRs. See Texas,
809 F.3d at 152. It is all the more significant that the
Even if the affirmance by an equally divided Supreme Court as
it relates to subject matter jurisdiction were not binding, the Court
is persuaded by the reasoning of the Fifth Circuit in Texas v.
United States as it pertains to state standing.
4

61a
Commonwealth, like Texas before it, sues to halt affirmative conduct made by a federal agency.
See id.
Whereas Massachusetts v. EPA concerned regulatory
inaction—the EPA’s order denying a rulemaking
petition—the Commonwealth’s case here challenges
regulatory action that, it contends, affects its legally
cognizable interests. See 549 U.S. at 514. Thus, it is
especially appropriate to accord the Commonwealth
“special solicitude.” Texas, 809 F.3d at 152-53. Furthermore, like Texas and Massachusetts, the Commonwealth seeks to protect a quasi-sovereign interest—the
health of its women residents. See Alfred L. Snapp &
Son, Inc. v. Puerto Rico, 458 U.S. 592, 600-01 (1982)
(holding that a State has a “quasi-sovereign interest in
the health and wellbeing—both physical and economic—
of its residents in general.”). As the Commonwealth
observes, contraceptives offer significant health benefits, including the prevention of unintended pregnancies, and the treatment of menstrual disorders, acne or
hirsutism, and pelvic pain. This quasi-sovereign interest in safeguarding the health and wellbeing of its
women residents is inextricably intertwined with the
Commonwealth’s alleged future fiscal injury that, as will
be discussed later, goes to the heart of its Article III
standing. See Texas, 809 F.3d at 153 (concluding that
DAPA affected quasi-sovereign interest by “imposing
substantial pressure” on Texas to change its laws to
avoid losing more money from driver license subsidies).
According to the Commonwealth (and as addressed
more fully below), the Agencies’ New IFRs will allow
more employers to exempt themselves from the ACA’s
Contraceptive Mandate. Consequently, the Commonwealth contends that Pennsylvanian women will seek
state-funded sources of contraceptive care. Such a

62a
course of action will likely cause the Commonwealth to
expend more funds to protect its quasi-sovereign interest in ensuring that women residents receive adequate
contraceptive care. The Commonwealth, then, meets
the two conditions outlined in Massachusetts v. EPA
and shall be accorded special solicitude in the standing
analysis.
b.

Article III Standing

As previously stated, the three pillars of standing are
injury in fact, causation, and redressability. Lujan,
504 U.S. at 560. First, an agency rule that has “a major
effect on the states’ fiscs” is sufficient to find injury in
fact. Texas, 809 F.3d at 152; id. at 155 (Texas “satisfied the first standing requirement by demonstrating
that it would incur significant costs in issuing driver’s
licenses to DAPA beneficiaries.”); see also Wyoming v.
Oklahoma, 502 U.S. 437, 448 (1992) (holding that Wyoming had Article III standing because it undisputedly
suffered a “direct injury in the form of a loss of specific
tax revenues”); Danvers Motor Co., Inc. v. Ford Motor
Co., 432 F.3d 286, 291 (3d Cir. 2005) (“While it is difficult
to reduce injury-in-fact to a simple formula, economic
injury is one of its paradigmatic forms.”).
The New IFRs will likely inflict a direct injury upon
the Commonwealth by imposing substantial financial
burdens on State coffers. Specifically, the Commonwealth will have to increase its expenditures for State
and local programs providing contraceptive services.
This is not a speculative harm. As the Defendants
themselves noted in issuing one of the New IFRs, “there
are multiple Federal, State, and local programs that
provide free or subsidized contraceptives for low-income

63a
women.” 82 Fed. Reg. 47803. As more women residents of the Commonwealth are deprived of contraceptive services through their insurance plans and turn to
these State and local programs, the Commonwealth will
likely make greater expenditures to ensure adequate
contraceptive care. And although Defendants point out
that the Commonwealth has not yet identified a woman
resident of Pennsylvania who has lost contraceptive coverage as a result of the New IFRs, the Commonwealth
need not sit idly by and wait for fiscal harm to befall it.
See McNair v. Synapse Group Inc., 672 F.3d 213, 223
(3d Cir. 2012) (“When, as in this case, prospective relief
is sought, the plaintiff must show that he is “likely to
suffer future injury” from the defendant’s conduct.”)
(quoting City of Los Angeles v. Lyons, 461 U.S. 95, 105
(1983)). As the New IFRs themselves estimate, they
will cause at least 31,700 women to lose contraceptive
coverage. 82 Fed. Reg. 47821.
Indeed, the Commonwealth’s affidavits confirm that
its women residents will come to rely more on Statefunded sources. The Acting Executive Deputy Secretary for the Commonwealth’s Department of Human
Services concludes that it would not be unreasonable to
expect women who do not receive contraceptive care
from their insurers to rely on government-funded programs. See Decl. of Leesa Allen ¶ 23 (“Allen Decl.”).
The Executive Deputy Insurance Commissioner for the
Commonwealth echoes a similar view, expecting women
who lose contraceptive coverage to seek coverage from
State-funded programs (or pay for the contraceptives
themselves). See Decl. of Seth A. Mendelsohn (“Medelsohn Decl.”) ¶ 15. The CEO of Planned Parenthood
Southeastern Pennsylvania also expects that, as a result
of the New IFRs, many low-income women will have to

64a
rely on government-funded programs to obtain contraceptive care. See Decl. of Dayle Steinberg (“Steinberg
Decl.”) ¶¶ 24-25. The Commonwealth has furthermore
provided evidence from a doctor who practices in Pennsylvania acknowledging that she directs uninsured, lowincome women to State programs for contraceptive services. See Tr. 177-78. At bottom, just as Texas’ estimated loss due to DAPA supported injury in fact, so too
does the Commonwealth’s estimated loss due to the New
IFRs support injury in fact. See Texas, 809 F.3d at
155.
Second, the Commonwealth’s financial injury is “fairly traceable” to issuance of the New IFRs. By their
terms, they expand the scope of the existing religious
exemption rule as well as allow employers a new rationale for refusing to provide employees with contraceptive coverage if the refusal is “based on sincerely
held moral convictions.” In short, the New IFRs allow
more employers to stop providing contraceptive coverage. And as the Commonwealth’s various affidavits
show, State officials expect that once employers take advantage of the New IFRs more women residents will
seek contraceptive care through State-funded programs. The Commonwealth has thus shown a causal
connection between the New IFRs and its financial injury.
Defendants, however, cite to Pennsylvania v. New
Jersey, 426 U.S. 660, 664 (1976), and argue that the injury is not “fairly traceable” to the New IFRs because
the Commonwealth’s fiscal injury is “self-inflicted.”
According to Defendants, the Commonwealth cannot
shoot itself in the foot and then hobble into federal court

65a
by premising injury in fact on costs that flow from elective State programs that offer contraceptive care services to residents.
Pennsylvania v. New Jersey is distinguishable. In
that case, Pennsylvania voluntarily gave tax credits to
Pennsylvania residents who paid taxes in New Jersey.
Id. at 663. Pennsylvania proceeded to sue New Jersey,
contending that the New Jersey tax injured Pennsylvania’s fiscs and was constitutionally impermissible. Id.
at 662. The Supreme Court found that Pennsylvania
lacked standing because the injuries to its fiscs were
“self-inflicted,” resulting, as they did, from a decision of
its state legislature. Id. at 664. Pennsylvania was not
allowed to “complain about damage inflicted by its own
hand” when it enacted a law that incorporated the legislative choices of New Jersey. Id. The harm could
have been avoided if Pennsylvania simply changed the
law so that it no longer extended credits for taxes paid
to New Jersey. See id. Here, by contrast, funding for
the Commonwealth’s programs does not explicitly incorporate the legislative choices of the federal government.
Rather, the Commonwealth’s described injuries flow
from the unilateral decision by the Agencies to issue the
New IFRs, which will likely cause Pennsylvanian women
to seek contraceptive care from other sources, particularly state-funded sources. Consequently, the injunction that the Commonwealth seeks—to enjoin that unilateral federal agency decision—is untethered to any
state law that the Commonwealth itself has enacted.
See Texas, 809 F.3d at 158 (“The fact that Texas sued in
response to a significant change in the defendants’ policies shows that its injury is not self-inflicted.”).

66a
Third, the Commonwealth has satisfied the redressability requirement. Because the Commonwealth is
asserting a procedural right under the APA to protect
its interests, it “can assert that right without meeting all
the normal standards for redressability and immediacy.” See Massachusetts, 549 U.S. at 517-18. If, as
here, the litigant is “vested with a procedural right, that
litigant has standing if there is some possibility that the
requested relief will prompt the injury-causing party to
reconsider the decision that allegedly harmed the litigant.” Id. at 518. Enjoining the Agencies’ New IFRs
based on APA claims should prompt them to reconsider
the propriety of the Religious and Moral Exemptions
Rules, “which is all a plaintiff must show when asserting
a procedural right.” Texas, 809 F.3d at 161. In sum,
the Commonwealth has shown that it has standing to
pursue injunctive relief through its APA claims based on
an injury to its fiscs. 5
III. Legal Standard

As the Commonwealth has standing to pursue a preliminary injunction, the next step is to determine whether
one is appropriate. A preliminary injunction is an extraordinary remedy; it “should be granted only in limited circumstances.” American Tel. & Tel. Co. v. Winback & Conserve Program, Inc., 42 F.3d 1421, 1426-27
(3d Cir. 1994). “A plaintiff seeking a preliminary injunction must establish that he is likely to succeed on
the merits, that he is likely to suffer irreparable harm in

Because the Commonwealth has identified an imminent, direct
injury to its state coffers that result from the New IFRs, the Court
does not need to address whether it has sovereign or parens patriae standing.
5

67a
the absence of preliminary relief, that the balance of equities tips in his favor, and that an injunction is in the
public interest.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 20 (2008). The “failure to establish any
element . . . renders a preliminary injunction inappropriate.” NutraSweet Co. v. Vit–Mar Enters., Inc.,
176 F.3d 151, 153 (3d Cir. 1999). The movant bears the
burden of showing that these four factors weigh in favor
of granting the injunction. See Opticians Ass’n of Am.
v. Indep. Opticians of Am., 920 F.2d 187, 192 (3d Cir.
1990).
While the movant must show that each of these factors weighs in favor of granting an injunction, an injunction might be appropriate where a movant makes a particularly strong case on some factors, but not others.
Thus, “courts must balance the competing claims of injury and must consider the effect on each party of the
granting or withholding of the requested relief.”
Reilly v. City of Harrisburg, 858 F.3d 173, 177-78 (3d
Cir. 2017), as amended (June 26, 2017) (quoting Winter,
555 U.S. at 24). “[I]n a situation where factors of irreparable harm, interests of third parties and public considerations strongly favor the moving party, an injunction
might be appropriate even though plaintiffs did not
demonstrate as strong a likelihood of ultimate success
as would be generally required.” Constructors Ass’n
of W. Pa. v. Kreps, 573 F.2d 811, 815 (3d Cir. 1978). In
addition, the court must weigh “[a]ll of [the four preliminary injunction] factors . . . together in the final
decision and the strength of the plaintiff ’s showing with
respect to one may affect what will suffice with respect
to another.” Marxe v. Jackson, 833 F.2d 1121, 1128 (3d
Cir. 1987). The Third Circuit recently clarified in
Reilly that a “movant for preliminary equitable relief

68a
must meet the threshold for the first two ‘most critical’
factors [—likelihood of success and irreparable harm].
If these gateway factors are met, a court then considers
the remaining two factors and determines in its sound
discretion if all four factors, taken together, balance in
favor of granting the requested preliminary relief.”
Reilly, 858 F.3d at 179. “How strong a claim on the
merits is enough depends on the balance of the harms:
the more net harm an injunction can prevent, the weaker the plaintiff’s claim on the merits can be while still
supporting some preliminary relief.” Id.
a.

Likelihood of Success on the Merits

In demonstrating the likelihood of success on the
merits, a plaintiff need not show that it is more likely
than not that he will succeed. Singer Mgmt. Consultants, Inc. v. Milgram, 650 F.3d 223, 229 (3d Cir. 2011)
(en banc). Instead, a plaintiff must “show[] a reasonable probability of success on the merits.” American
Express Travel Related Svcs., Inc. v. Sidamon-Eristoff,
669 F.3d 359, 366 (3d Cir. 2012). This requires a showing “significantly better than negligible, but not necessarily more likely than not.” Reilly, 858 F.3d at 179.
Because “courts should be extremely careful not to
issue unnecessary constitutional rulings,” American
Foreign Serv. Ass’n v. Garfinkel, 490 U.S. 153, 161
(1989) (per curiam), the Court addresses the statutory
claims at issue—that Defendants violated the noticeand-comment procedures of the APA and that the New
IFRs are “arbitrary, capricious, or not in accordance
with law”—and finds it unnecessary, at this juncture, to
proceed to the constitutional issues.

69a
i.

Administrative Procedure Act
1. Procedural Safeguards

The APA provides any interested party the right to
participate in the rulemaking process by submitting
data, views or arguments. See 5 U.S.C. § 553. “The
APA provisions reflect a judgment by Congress that the
public interest is served by a careful and open review of
proposed administrative rules and regulations.” Phila.
Citizens in Action v. Schweiker, 669 F.2d 877, 881 (3d
Cir. 1982). “Section 553 was enacted to give the public
an opportunity to participate in the rule-making process. It also enables the agency promulgating the rule
to educate itself before establishing rules and procedures which have a substantial impact on those regulated.” Texaco, Inc. v. Fed. Power Comm’n, 412 F.2d
740, 744 (3d Cir. 1969).
Accordingly, prior to promulgating regulations, administrative agencies must follow a procedure called “notice and comment rulemaking.” See 5 U.S.C. § 553.
First, an agency must issue a general notice of proposed
rulemaking. See 5 U.S.C. §§ 552(b), 553(b). Then the
agency must “give interested persons an opportunity to
participate in the rule making through submission
of written data, views or arguments. . . . ” Id.
§ 553(c). Last, “[a]fter consideration of the relevant
matter presented, the agency shall incorporate in the
rules adopted a concise general statement of their basis
and purpose.” Id. Defendants bypassed each of these
procedures when issuing the New IFRs.
The APA requires a court to set aside agency action
“found to be . . . without observance of procedure

70a
required by law.” 5 U.S.C. § 706(2)(D). Thus, if Defendants did not comply with notice and comment provisions, the Court must preliminarily enjoin Defendants
from enforcing the New IFRs unless there is a statutorily countenanced reason for their non-compliance.
See Minard Run Oil Co. v. U.S. Forest Serv., 2009 WL
4937785, at *34 (W.D. Pa. 2009), aff ’d, 670 F.3d 236 (3d
Cir. 2011).
Although “[e]xemption from the terms of the Administrative Procedure Act are not lightly to be presumed
. . . ,” Marcello v. Bonds, 349 U.S. 302, 310 (1955),
there are limited exceptions to the requirement that all
rules must be issued pursuant to notice-and-comment
rulemaking. Defendants contend that two of those exceptions apply here. First, they argue that Congress
expressly and impliedly authorized the Secretaries of
HHS, Labor, and the Treasury to bypass notice and
comment rulemaking with respect to the New IFRs.
5 U.S.C. § 559. Second, they argue that there is no
need for notice-and-comment rulemaking because they
have found “good cause” that the notice and comment procedure is, in this instance, “impracticable, unnecessary,
or contrary to the public interest.” Id. § 553(b)(B).
i.

Statutory Authorization to Bypass
Notice and Comment

At the outset, it should be noted that the ACA contains no provision expressly authorizing the Defendant
Agencies or their respective Secretaries to bypass the
APA’s notice and comment requirements, and indeed,
Defendants cite none. Rather, in justifying their sidestep of the strictures of the notice and comment procedure, they find express and implied authorizations for
their actions through various statutes besides the ACA.

71a
Defendants’ argument, matryoshkanesque in its construction, proceeds as follows: In 1996, Congress passed
the Health Insurance Portability and Accountability Act
of 1996 (HIPAA), Pub. L. No. 104-191 (1996), which regulates group health plans and some individual health insurance policies. HIPAA amended certain provisions
of the United States Code to provide that “[t]he [respective] Secretary may promulgate any interim final rules
as the Secretary determines are appropriate to carry
out this [chapter.]” See 29 U.S.C. § 1191c; 26 U.S.C.
§ 9833; 42 U.S.C. § 300gg-92. 6 In 2010, Congress passed
the ACA, which also amended those same sections of the
United States Code to require health plans to cover certain preventive women’s services. HHS interpreted
the preventive service requirement to include contraceptive services. The requirement to provide contraceptive services was thus codified in the chapters of the
United States Code as modified by HIPAA in 1996.
Thus, according to Defendants, HIPAA’s amendments,
which permit issuance of IFRs “appropriate to carry out
this [chapter],” also encompass authorization to issue
IFRs to carry out the ACA.
The argument is creative, but not supported by law.
As to express authorization, in order to authorize an
agency to bypass notice and comment, a subsequent
statute must be clear that it abrogates the APA. See
5 U.S.C. § 559; Coalition for Parity, Inc. v. Sebelius,
709 F. Supp. 2d 10, 18 (D.D.C. 2010). And as Coalition
Specifically, HIPAA amended various portions of ERISA,
which is administered by the Secretary of Labor, the Internal Revenue Code, which is administered by the Secretary of Treasury,
and the Public Health Services Act, which is administered by the
Secretary of Health and Human Services.
6

72a
for Parity held, the provision of HIPAA that Defendants here rely on says nothing about overruling the
APA, let alone notice and comment procedures. Id.
HIPAA, then, does not provide express authorization to
bypass the notice and comment requirements of the
APA in this case. See id.
As to implied authorization, the relevant standard to
determine if Congress sub silentio allowed an agency to
avoid notice and comment is “whether Congress has established procedures so clearly different from those required by the APA that it must have intended to displace
the norm.” Asiana Airlines v. FAA, 134 F.3d 393, 397
(D.C. Cir. 1998). Defendants rely on two cases, Asiana
Airlines and Methodist Hospital of Sacramento v.
Shalala, 38 F.3d 1225, 1237 (D.C. Cir. 1994), for the
proposition that Congress has impliedly authorized the
Agencies here to bypass notice and comment and issue
IFRs.
In both Asiana Airlines and Methodist Hospital, the
D.C. Circuit held that certain IFRs could be issued without complying with notice and comment, but both cases
are inapposite. The statutory language from those
cases, involving respectively the Federal Aviation Reauthorization Act and the Social Security Amendments of
1983, expressly abrogated APA notice and comment
procedures because Congress, through its use of the
mandatory word “shall” in both pieces of legislation,
commanded the agencies to issue interim final rules.
See Asiana Airlines, 134 F.3d at 395 (“the Administrator shall publish . . . interim final rule[s]”) (citing
49 U.S.C. § 45301(b)(2)) (emphasis added); Methodist
Hosp., 38 F.3d at 1236 n.18 (“[t]he Secretary shall cause
to be published . . . a notice of the interim final

73a
DRG prospective payment rates . . . without the necessity for consideration of comments. . . . ”) (citing
97 Stat. 168-69) (emphasis added). By contrast, the
HIPAA provision here states that a “Secretary may
promulgate any interim final rules as the Secretary determines are appropriate. . . . ” See 29 U.S.C.
§ 1191c; 26 U.S.C. § 9833; 42 U.S.C. § 300gg-92 (emphasis added). The use of the term “may” is permissive rather than mandatory. See Barlow v. Collins, 397 U.S.
159, 165-66 (1970) (statute authorizing Secretary of Agriculture to promulgate regulations “as he may deem
proper” does not preclude judicial review). 7 There is,
accordingly, no support in HIPAA for the Agencies’
avoidance of the notice and comment procedure.
ii. Good Cause Exception to Bypass
Notice and Comment
The second exception to notice-and-comment rulemaking permits agencies to utilize IFRs “for good
cause.” See 5 U.S.C. § 553. More specifically, the APA
provides that notice and comment may be waived “when
the agency for good cause finds (and incorporates the
finding and a brief statement of reasons therefor in the
rules issued) that notice and public procedure thereon
are impracticable, unnecessary, or contrary to the public interest.” Id. The “circumstances justifying reliance on the good cause exception are ‘indeed rare’ and
Asiana Airlines and Methodist Hospital are further distinguishable still. In both cases, Congress imposed an expeditious timetable on the agencies in issuing the IFRs which justified bypassing
notice and comment. See Methodist Hosp., 38 F.3d at 1237; Asiana
Airlines, 124 F.3d at 398. By contrast, the supposed statutory authorization in HIPAA provides no timetable for the Agencies to issue
IFRs.
7

74a
will be accepted only after the court has examined
closely proffered rationales justifying the elimination of
public procedures.” Natural Res. Def. Council, Inc. v.
EPA, 683 F.2d 752, 764 (3d Cir. 1982). The Third Circuit has cautioned that the good cause exception should
be “narrowly construed.” United States v. Reynolds,
710 F.3d 498, 507 (3d Cir. 2013) (citations omitted).
Since the APA requires agencies availing themselves
of the good cause exception to state their “finding[s] and
a brief statement of reasons” for good cause “in the rules
issued,” the Court will examine the proffered “good
cause” reasons as stated in the New IFRs. See 82 Fed.
Reg. at 47813-15; 82 Fed. Reg. at 47855-59. First, the
Agencies found that excessive delay caused by notice
and comment rulemaking would be contrary to public interest. Id. Second, the Agencies determined that the
New IFRs were important to resolve ongoing litigation
and ease the burdens imposed by them in order to prevent “continued uncertainty, inconsistency, and cost.”
Id. Third, the Agencies determined that they had already received significant comments in past rounds of
rulemaking as well as from the 2016 RFI, and therefore
there was no need to repeat the notice-and-comment
process again. Id. These arguments are considered
seriatim.
As to their “excessive delay” justification, the Agencies contend that, because the Accommodation Process
(in their view) violated RFRA, it was a matter of urgency to issue the New IFRs without going through the

75a
APA’s time-consuming notice and comment process. 8 See
id. However, urgency is not sufficient in the absence of
a deadline imposed by Congress, the executive, or
courts. See Reynolds, 710 F.3d at 511 (“Our prior decisions have recognized urgency alone as sufficient only
when a deadline imposed by Congress, the executive, or
the judiciary requires agency action in a timespan that
is too short to provide a notice and comment period.”).
None of the three branches of government have imposed
any urgent deadline that could support circumventing
notice and comment rulemaking. First, Congress has
not spoken on this issue. Second, far from compelling
any immediate action, President Trump’s Executive Order 13798 merely asks the Secretaries to “consider issuing amended regulations, consistent with applicable law,
to address conscience-based objections to the preventive care mandate.” Executive Order 13798 § 3. Last,
The Agencies also justify their use of IFRs rather than regulations promulgated through APA’s proscribed procedures by reference to their use of IFRs in three earlier updates to regulations concerning the Women’s Health Amendment. This fact does not, of
course, warrant a conclusion that the New IFRs were appropriately
issued—the facts of one case do not necessarily transfer wholesale
to another. Defendants argue that as the D.C. Circuit upheld the
Defendants’ use of IFRs in Priests for Life v. U.S. Dep’t of Health
and Human Servs., 772 F.3d 229, 276 (D.C. Cir. 2014), vacated on
other grounds, Zubik v. Burwell, 136 S. Ct. 1557 (2016), this Court
should do so here. In that case, however, the D.C. Circuit reasoned
that good cause existed to bypass notice and comment because “the
regulations the interim final rule modifies were recently enacted pursuant to notice and comment rulemaking, [] present virtually identical issues, . . . the modifications made in the interim final rule
are minor,” and the Supreme Court “obligat[ed] [HHS] to take action.” Id. By contrast, the issues presented in the New IFRs are
not identical to prior regulations, they make significant changes in
the law, and the Supreme Court did not require immediate action.
8

76a
the Supreme Court has not imposed any deadline or
called for urgent action either. In fact, the Supreme
Court remanded the latest challenge to the Accommodation Process to give the parties “an opportunity to arrive at an approach going forward.” Zubik, 136 S. Ct.
at 1560. Though Defendants cite many cases in which
courts have pressured them to resolve uncertainty regarding the Contraceptive Mandate, none of those
courts have imposed any actual deadlines for issuing
regulations.
“The desire to eliminate uncertainty, by itself, cannot
constitute good cause.” Reynolds, 710 F.3d at 510.
Even if it could, the Agencies’ stated need to resolve uncertainty is undercut by the request, contained in the
New IFRs, for post-issuance comments regarding
“whether these regulations expanding the exemption
should be made permanent or subject to modification.”
See 82 Fed. Reg. at 47814-15; 82 Fed. Reg. at 47855-56.
The request for comments particularly as to whether the
New IFRs should be modified “implicitly suggests that
the rule[s] will be reconsidered [and] means the level of
uncertainty is, at best, unchanged. . . . ” Reynolds, 710 F.3d at 511.
The Agencies stated in the New IFRs that the clarity
offered by the expanded exemptions will decrease insurance costs; they hypothesize that groups with grandfathered health plans will wish to make changes to other
components of their health plans in order to reduce
costs, while still avoiding coverage for contraceptive services. See 82 Fed. Reg. 47815, 47856. Under the ACA,
as long as grandfathered plans do not make any changes
to their health coverage, they need not cover women’s
preventive services. However, the New IFRs do not

77a
cite a single comment from an employer with a grandfathered plan which suggests that they will make changes
to health plans in light of the new agency interpretation. 9 This is merely speculation, unsupported by the
record.
Last, the Agencies asserted in the New IFRs that notice and comment was unnecessary because the Agencies considered past comments and requested postissuance comments. The Agencies received multiple
rounds of comments on the first set of interim final regulations in 2010, on the interim final regulations in 2011,
on the proposed changes to the religious employer exemption in 2012 and 2013, on the modifications to the
Accommodation Process in 2015, and on the RFI issued
in July 2016. And the Agencies received over 54,000 public comments in response to the July 2016 RFI which
sought ways to expand the Accommodation Process.
Indeed, a search of “grandfather” in the hundreds of thousands
of pages of the Administrative Record filed with the Court does not
reveal a single comment from a policy holder with a grandfathered
health plan who sought to change their health coverage without risking their grandfathered status. During Oral Argument, the Court
asked Defendants to find comments in the Administrative Record
demonstrating that group health plans with grandfathered status
sought to change their health plans without forgoing their grandfathered status. Defendants admitted that they “have identified no
particular comments.” Tr. 206. Instead, Defendants looked outside of the Administrative Record and cited just two cases from 2012
in which the litigating parties wanted to retain their grandfathered
health plans without covering contraceptive services. See Roman
Catholic Archdiocese of Atlanta v. Sebelius, No. 1:12-CV-03489WSD (N.D. Ga. 2014); Diocese of Fort Wayne-S. Bend, Inc. v. Sebelius, 988 F. Supp. 2d 958 (N.D. Ind. 2013). However, neither case
shows that those entities sought to change their coverage in order to
maintain their grandfathered status in 2017.
9

78a
Defendants cite no case, and research has not disclosed any, finding that notice and comment is unnecessary where an agency has received ample commentary
on its prior interpretations of the same law. In fact,
the significance of this issue and the outpouring of public
comments reflect the opposite: the overwhelming public interest demonstrates that notice and comment is
critical.
“The unnecessary prong of the exception
. . . ‘is confined to those situations in which the administrative rule is a routine determination, insignificant in
nature and impact, and inconsequential to the industry
and to the public.’ ” Utility Solid Waste Activities Grp.
v. EPA, 236 F.3d 749, 755 (D.C. Cir. 2001) (quoting
South Carolina v. Block, 558 F. Supp. 1004, 1016 (D.S.C.
1983)).
The significance of this litigation and the
stakes involved, including hundreds of lawsuits, and several appeals to the Supreme Court, belies the Agencies’
purported reliance on the “unnecessary,” good cause exception for notice and comment.
The Agencies also assert that their provision for a
post-issuance commentary period does away with the
need for pre-issuance notice and comment. They solicited comments for 60 days following the issuance of the
New IFRs. See 82 Fed. Reg. at 47792. None of the
cases that Defendants cite support that position. Instead, each of them stand for the proposition that an
agency may seek post-issuance commentary only if and
only after having shown that it had good cause to avoid

79a
notice and comment rulemaking, a situation that is not
present here. 10
There are several reasons why post-issuance comments do not comply with the notice and comment provisions of the APA. First, there is nothing in the APA
that provides for post-issuance commentary. Second,
participants are less likely to influence agency action in
later stages of the agency decision-making process.
This is especially the case where an agency has already
issued interim rules which suggest that it has decided
what federal policy should be. Post-issuance commentary does not ameliorate the need for notice and comment because by the time agencies issue interim rules,
they are less likely to heed public input. See United
States v. Johnson, 632 F.3d 912, 929 (5th Cir. 2011)
(“[P]arties will have a greater opportunity for influencing agency decision making if they participate at an
early stage.”). Last, permitting post-issuance commentary carte blanche would write the notice and comment requirements out of the APA. See id.; United
States v. Gould, 568 F.3d 459, 479 (4th Cir. 2009)
In Petry v. Block, 737 F.2d 1193 (D.C. Cir. 1984), the D.C. Circuit
held that the Department of Agriculture had good cause to avoid notice and comment rulemaking before it held that remand to the
agency for further proceedings was unnecessary in light of a postpromulgation comment period. In Republic Steel Corp v. Costle, 621
F.2d 797 (6th Cir. 1980), another case cited by Defendants, the court
countenanced post-promulgation comments after finding good cause
for avoiding notice-and-comment. Prior to Petry, the D.C. Circuit
has held that “[p]ermitting submission of views after the effective
date is no substitute for the right of interested persons to make their
views known to the agency.” State of N.J., Dep’t of Envtl. Prot. v.
U.S. Envtl. Prot. Agency, 626 F.2d 1038, 1049 (D.C. Cir. 1980). Petry
did not alter this rule.
10

80a
(“[R]equesting post-promulgation comments makes a
sham of the APA’s rulemaking procedures.”); Paulsen
v. Daniels, 413 F.3d 999, 1005 (9th Cir. 2005) (“[I]t is
antithetical to the structure and purpose of the APA for
an agency to implement a rule first, and then seek comment later.”).
Grasping at straws, Defendants argue that even if a
single justification “standing alone” does not constitute
good cause, the “combined effect” of several factors justified the Agencies’ reliance on the good cause exception. An underlying assumption of this argument is
that “[e]ach of the factors” provides at least some support for a finding that the Agencies had good cause to
dispense with notice and comment. They do not. The
three proffered factors to dispense with notice and comment offer no support. There was no deadline, much
less an urgent one, to implement new rules. The New
IFRs did not resolve any uncertainty and, as this case
demonstrates, have not prevented ongoing litigation.
And the blizzard of prior comments that the Agencies
have received in past rounds of notice and comment
rulemaking actually demonstrates that further comments are necessary given the public interest in this
matter.
Certainly, an inquiry into whether an agency has
“properly invoked ‘good cause’ proceeds case-by-case,
sensitive to the totality of the factors at play.” Alcaraz
v. Block, 746 F.2d 593, 612 (9th Cir. 1984). And a court
may consider the “combined effect” of multiple factors,
which standing alone might not suffice to demonstrate
“good cause.” See Nat’l Women, Infants, & Children
Grocers Ass’n v. Food & Nutrition Serv., 416 F. Supp.
2d 92, 107 (D.D.C. 2006). But Defendants’ arguments—

81a
even when viewed in their totality—provide no support
for their proposition. 11
For the above reasons, it is likely that the Commonwealth will succeed on its claim that the Defendants did
not follow proper procedures in issuing the New IFRs.
2.

Substantive Provision

Under the APA, an administrative rule has no legal
effect if it is “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.”
5 U.S.C. § 706(2)(A). Pursuant to this standard, it is
likely that the Commonwealth will also succeed on its
substantive challenge against the New IFRs because
they contradict the text of the statute that they purport
to interpret.
While an agency’s interpretation of a statute is generally accorded great deference, an interpretation that
conflicts with the statute’s plain language is not. See
Chevron U.S.A., Inc. v. Natural Res. Def. Council, Inc.,
Defendants’ failure to follow the APA’s notice and comment procedures was also not “harmless.” “[T]he ‘utter failure’ to comply
with notice and comment cannot be considered harmless if there
is any uncertainty at all as to the effect of that failure.” Reynolds,
710 F.3d at 516. Rather, failure to abide by notice and comment
rulemaking will only be found harmless in instances such as “when
the administrative record demonstrates that the conclusion reached
in the administrative rule was the only possible conclusion.” Id. at
518. This is not the case here. In addition, the Defendant Agencies
have never sought comments on whether publicly traded companies
should be allowed to opt out of the Contraceptive Mandate for sincerely held religious reasons, whether a “moral exemption” should
apply to the Mandate for all closely held corporations, or whether to
exempt entities from additional notice requirements before opting
out of providing contraceptive coverage for their employees.
11

82a
467 U.S. 837 (1984). Chevron and its progeny dictate
the appropriate framework for analyzing whether an
agency’s interpretation of a statute is permissible.
First, a court must determine whether Chevron applies.
Chevron deference is only appropriate in situations
where Congress delegated rulemaking authority to a
particular agency.
See Swallows Holding, Ltd. v.
C.I.R., 515 F.3d 162, 168 (3d Cir. 2008). Next, “if the
statutory language is clear and unambiguous, our inquiry ends and the plain meaning of the statute governs
the action.” Id. at 170. While review of an agency’s
interpretation under the “arbitrary and capricious”
standard is decidedly narrow, an agency may not exercise its authority in a manner “inconsistent with the administrative structure that Congress enacted into law.”
Food & Drug Admin. v. Brown & Williamson Tobacco
Corp., 529 U.S. 120, 126 (2000). Last, “[i]f the statute
is ambiguous on the point, we defer at step two to the
agency’s interpretation so long as the construction is ‘a
reasonable policy choice for the agency to make.’ ” National Cable & Telecommunications Ass’n v. Brand X
Internet Servs., 545 U.S. 967, 986 (2005) (quoting Chevron, 467 U.S. at 845).
i.

Scope of HHS’ Statutory Authority

The takeaway is that Chevron deference does not extend to all agency action. In United States v. Mead,
the Supreme Court explained that Chevron deference is
only appropriate in situations where “Congress would
expect the agency to be able to speak with the force of
law.” 553 U.S. 218, 229 (2001). Here, Congress delegated authority to the HRSA, a division of HHS, to interpret the scope of “preventive care” as defined by the
ACA. The problem is that HHS, the Department of

83a
Labor, and the Department of Treasury have, through
the New IFRs, interpreted the statute in a manner inconsistent with its text.
It bears mentioning, at this time, the remarkable
breadth of the New IFRs. They are the proverbial exception that swallows the rule. The New IFRs permit
various entities, on the basis of sincerely held religious
beliefs or moral convictions, to opt out of providing contraceptive coverage—coverage that, under the text of
the ACA as interpreted by the HRSA in August 2011, is
supposedly mandatory.
The Religious Exemption
Rule allows all non-profit and for-profit entities, whether
closely held or publicly traded, to deny contraceptive
coverage based on sincerely held religious beliefs. The
Moral Exemption Rule allows any non-profit or forprofit organization that is not publicly traded to deny
contraceptive coverage for its employees for any sincerely held moral conviction. This means that boards
of closely held corporations can vote, or their executives
can decide, to deny contraceptive coverage for the corporation’s women employees not just for religious reasons but also for any inchoate—albeit sincerely held—
moral reason they can articulate. Who determines
whether the expressed moral reason is sincere or not or,
for that matter, whether it falls within the bounds of morality or is merely a preference choice, is not found within the terms of the Moral Exemption Rule. If one assumes that it is the Agency Defendants—or, indeed, any
agency—then the Rule has conjured up a world where a
government entity is empowered to impose its own version of morality on each one of us. That cannot be
right. It “run[s] afoul of this country’s vast history of
legislative protections that single out and safeguard re-

84a
ligious freedom but not moral philosophy.” Real Alternatives, Inc. v. Sec’y Dep’t of Health & Human Servs.,
867 F.3d 338, 350 (3d Cir. 2017) (emphasis added).
A simple hypothetical illustrates the insidious effect
of the Moral Exemption Rule. It would allow an employer with a sincerely held moral conviction that
women do not have a place in the workplace to simply
stop providing contraceptive coverage. And, it may do
so in an effort to impose its normative construct regarding a woman’s place in the world on its workforce, confident that it would find solid support for that decision in
the Moral Exemption Rule. It is difficult to comprehend a rule that does more to undermine the Contraceptive Mandate or that intrudes more into the lives of
women.
ii. The Text of the ACA
Before analyzing whether the Agencies had authority
to create the Moral and Religious Exemption Rules, a
brief aside to RFRA is necessary. RFRA provides that
government action cannot “substantially burden” the
exercise of religion. It states that laws passed after
1993 are subject to RFRA “unless such law explicitly excludes such application. . . . ” 42 U.S.C. § 2000bb3(b). The ACA was passed after 1993 and is thus subject to RFRA. 12 In Hobby Lobby, the Supreme Court
held that the ACA does not explicitly exclude application
of RFRA. See Hobby Lobby, 134 S. Ct. at 2775 n.30.
Congress enacted RFRA in 1993 in response to Employment
Div., Dep’t of Human Resources of Ore. v. Smith, 494 U.S. 872 (1990),
which held that “the Constitution does not require judges to engage in a case-by-case assessment of the religious burdens imposed
by facially constitutional laws.” Gonzales v. O Centro Espirita
Beneficente Uniao do Vegetal, 546 U.S. 418, 424 (2000).
12

85a
It follows that any exception to the ACA required by
RFRA is permissible. Bearing that in mind—and putting the issue of RFRA’s application to the New IFRs
on ice for now—the Court turns whether there is any
language in the text of the ACA itself that would authorize the Agencies to issue the New IFRs—and concludes
that there is not.
Congress created only a single exemption from the
ACA’s statutory mandate to cover women’s preventive
care and that is for “grandfathered health plans.”
42 U.S.C. § 18011(e). “When Congress provides exceptions in a statute . . . [t]he proper inference . . .
is that Congress considered the issue of exceptions and,
in the end, limited the statute to the ones set forth.”
United States v. Johnson, 529 U.S. 53, 58 (2000). Given
that there is no religious or moral exemption in the explicit text of the statute and there is one for grandfathered health plans, it cannot be assumed that Congress
authorized the Agencies to create any additional exemptions.
The fact that the statute does not contain language
specifically precluding the Agency Defendants from developing exemptions does not change this result. Even
absent the maxim that the inclusion of an exemption in
a statute must be interpreted to mean that Congress intended no additional exemptions, “[n]ot every silence is
pregnant.” Burns v. United States, 501 U.S. 129, 136
(1991). Here, the mandatory language “shall”—found
in the ACA’s requirement that covered health plans
“shall cover . . . with respect to women, such additional preventive care” as provided for in the HRSA
guidelines—indicates quite the opposite: no exemptions created by HHS are permissible (unless they are

86a
required by RFRA). “An inference drawn from congressional silence certainly cannot be credited when it is
contrary to all other textual and contextual evidence of
congressional intent.” Id. That conclusion carries
particular weight here, because, in 2012, Congress explicitly rejected an attempt to add to the ACA an exemption similar to the Moral and Religious Rules. See
S. Amdt. 1520, 112th Cong. (2011-2012); see also Brown
& Williamson, 529 U.S. at 147 (rejection of an agency’s
interpretation by Congress is a factor courts consider
when determining the meaning of a statute).
Nevertheless, Defendants argue that the textual
structure of the ACA permits HHS to proscribe the
“manner or reach of the coverage.” They compare two
subsections of the ACA, both of which provide for nocost preventive care and screenings. The first concerns
children, the second, women. Defendants then focus on
the language in each subsection which authorizes the
agency to issue guidelines regarding that subsection. 13
The full text of the two subsections are as follows:
A group health plan and a health insurance issuer offering group or
individual health insurance coverage shall, at a minimum provide
coverage for and shall not impose any cost sharing requirements for
—[the following services] . . .
13

(3) with respect to infants, children, and adolescents, evidenceinformed preventive care and screenings provided for in the
comprehensive guidelines supported by the Health Resources
and Services Administration;
(4) with respect to women, such additional preventive care and
screenings not described in paragraph (1) as provided for in
comprehensive guidelines supported by the Health Resources
and Services Administration for purposes of this paragraph.
42 U.S.C. § 300gg-13(a)(3)-(4) (emphasis added).

87a
The subsection concerning children refers to “preventive care and screenings provided for in the comprehensive guidelines” from the HRSA. 42 U.S.C. § 300gg13(a)(3). In contrast, the subsection concerning women
refers to “such additional preventive care and screenas provided for in the comprehensive
ings . . .
guidelines” from the HRSA.
42 U.S.C. § 300gg13(a)(4) (emphasis added). Defendants note that the
word “as” precedes the words “provided for in the comprehensive guidelines” in the women’s subsection, but
not the children’s subsection. Proceeding from the
statutory maxim that statutes should be interpreted, if
possible, to give each word operative effect, see Walters
v. Metropolitan Educ. Enter., Inc., 519 U.S. 202, 209
(1997), Defendants conclude that the inclusion of the
word “as” in the women’s subsection means that HRSA
may determine not only the services covered by the
ACA, but also the manner or reach of that coverage.
This extrapolation from the statutory inclusion of the
word “as” must, pursuant to another principle of statutory interpretation, be analyzed by looking to the dictionary definition of the word. See Bonkowski v. Oberg
Indus., Inc., 787 F.3d 190, 200 (3d Cir. 2015). The term
“as” in this context is “[u]sed to indicate that something
happens during the time when something else is taking
place.” As, Oxford English Dictionary Online, June
2017. At the time Congress passed the ACA, the
HRSA had already promulgated guidelines interpreting
children’s preventive care. The HRSA had not promulgated such guidelines for women’s preventive care.
Thus, the ACA requires coverage “provided for” in HRSA
guidelines for children’s care and “as provided for” in
HRSA guidelines for women’s care. Giving effect to
the use of the word “as” leads to the conclusion that the

88a
“as” is used in anticipation of HRSA issuing such guidelines and not to the conclusion that the ACA implicitly
provides the Agencies with the authority to create nonstatutory exemptions.
In sum, the ACA contains no statutory language allowing the Agencies to create such sweeping exemptions
to the requirements to cover “preventive services,”
which, as interpreted by those same agencies, include
mandatory no-cost coverage of contraceptive services.
Nor does any rule of statutory construction warrant
these exemptions.
iii. Religious Freedom and Restoration
Act

The Agency Defendants also argue that they were
compelled by RFRA to create the Religious Exemption
Rule. It should be noted at the outset that they specifically do not propound this argument with respect to the
Moral Exemption Rule. Thus, since the text of the
statute is clear that non-statutory exemptions are not
permitted, and Defendants admit that RFRA provides
no support for it, the Moral Exemption Rule is “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law” under the APA. 5 U.S.C.
§ 706(2)(A). As set forth below, upon consideration of
Defendants’ argument regarding RFRA, the Court
reaches the same conclusion with respect to the Religious Exemption Rule.
a.

RFRA Does Not Support the
Agencies’ Interpretation

Turning now—finally—to the RFRA issue. One of
the reasons the Agencies gave for issuing the New IFRs

89a
is that the Accommodation Process imposes a substantial burden on the exercise of religion. The Accommodation Process, as discussed earlier, allows religious objectors to notify their healthcare administrator of their
religious objection, and the administrator would then
have to provide the legally required contraceptive services directly to women covered under the employer’s
plan. The Agencies’ stated belief that the Accommodation Process now imposes a substantial burden on the
exercise of religion led them to create the broader exemptions set forth in the New IFRs. See 82 Fed. Reg.
47800. But their view that the Accommodation Process
imposes a substantial burden on the exercise of religion
has been specifically rejected by the Third Circuit,
which found exactly to the contrary in Geneva Coll. v.
Sec’y U.S. Dep’t of Health & Human Servs., 778 F.3d
422, 442 (3d Cir. 2015), vacated and remanded on other
grounds sub nom. Zubik v. Burwell, 136 S. Ct. 1557
(2016). 14 There, the Third Circuit decisively and clearly
held that the Accommodation Process does not impose a
“substantial burden” under RFRA. And, in Real Alternatives, it reaffirmed that the Accommodation Process does not impose a substantial burden on religious
exercise. See 867 F.3d at 356 n.18 (“[W]e continue to
believe . . . that the regulation at issue . . . did
not impose a substantial burden.”). Therefore, the
Agency Defendants’ interpretation of RFRA—that issuance of the Religious Exemption Rule is proper because

While Zubik subsequently vacated Geneva College, it did so on
other grounds. The Supreme Court expressly stated that “the
Court does not decide whether petitioners’ religious exercise has
been substantially burdened. . . . ” Zubik, 136 S. Ct. at 1561.
14

90a
the “substantial burden” that the Accommodation Process places on a person’s exercise of religion—is erroneous as a matter of law. See Williams v. Meltzler,
132 F.3d 937, 946 (3d Cir. 1997) (on questions of law, administrative judgment is subject to plenary judicial review). 15
Defendants make much of having issued exemptions
under prior regulations. For example, the Original
Religious Exemption allowed churches and their integrated auxiliaries to opt out of the Contraceptive Mandate. However, the Supreme Court has held that exemptions like the one for churches and their integrated
auxiliaries are required under RFRA and the First
Amendment’s free exercise protections. See Hobby
Lobby, 134 S. Ct. at 2794 & n.14 (citing cases requiring
Although the Agencies asserted in the New IFRs that “[t]he Departments believe that agencies charged with administering a statute or associated regulations or guidance that imposes a substantial
burden on the exercise of religion under RFRA have discretion in
determining how to avoid the imposition of such burden,” 82 Fed.
Reg. 47800, Defendants now suggest otherwise. Defendants concede that the Agencies’ interpretations of RFRA are not entitled to
deference under RFRA. See Tr. 45 (“We are not arguing that the
Agencies are entitled to Chevron deference writ large.”). In any
event, the Agencies’ opinion is foreclosed by Snoqualmie Indian
Tribe v. F.E.R.C., 545 F.3d 1207 (9th Cir. 2008), in which the Ninth
Circuit held that an agency’s interpretation of RFRA is not accorded
deference. They do argue that deference is appropriate for the
Agencies’ opinion that the Contraceptive Mandate does not serve a
compelling interest as applied to religious objectors. However, this
is beside the point because this question only becomes relevant if a
court finds, first, that a government action imposes a substantial
burden on the exercise of religion. As noted, the Accommodation
Process does not impose a substantial burden on the exercise of religion so the Court need not conduct the compelling state interest
analysis.
15

91a
exemptions for certain religious organizations). In
Real Alternatives, the Third Circuit confirmed that the
Original Religious Exemption was plainly required by
federal and constitutional law in holding that exemptions and accommodations “may be extended to houses
of worship and religious denominations without applying to all nonprofit entities in order to ‘alleviate significant governmental interference with the ability of religious organizations to define and carry out their religious missions.’ ” 867 F.3d at 352 (quoting Corp. of
Presiding Bishop of Church of Jesus Christ of Latterday Saints v. Amos, 483 U.S. 327 (1987). In contrast,
the New IFRs are not required under RFRA because
the Third Circuit—twice now—has foreclosed the Agencies’ legal conclusion that the Accommodation Process
imposes a substantial burden.
For these reasons, the Commonwealth has shown a
likelihood of success on the merits of its APA claim that
the New IFRs are arbitrary, capricious, and contrary to
established law.
b.

Irreparable Harm

As explained earlier, the second factor to consider in
deciding the Commonwealth’s motion is whether it has
demonstrated that it is likely to suffer irreparable harm
in the absence of a preliminary injunction. “Issuing a
preliminary injunction based only on a possibility of irreparable harm is inconsistent with the characterization
of injunctive relief as ‘an extraordinary remedy’ that
may be awarded only upon a clear showing that the
plaintiff is entitled to such relief.” Winter, 555 U.S. at
21 & 22 (“Our frequently reiterated standard requires
plaintiffs seeking preliminary relief to demonstrate that

92a
irreparable injury is likely in the absence of an injunction.”).
The Commonwealth asserts that it will suffer two
harms in the absence of an injunction: First, significant damage to the Commonwealth’s fiscal integrity;
and second, harm to the health, safety, and wellness of
the Commonwealth’s female residents.
The Commonwealth offered the testimony of Doctors
Carol Weisman, Samantha Butts, and Cynthia Chuang,
as well as several declarations and exhibits to support
its allegation of irreparable harm. From this testimony and from other evidence and affidavits in the record, the Court finds that it is likely that the New IFRs
will result in direct and irreparable harm to the Commonwealth’s fiscal integrity: The Commonwealth will
become obligated to shoulder much of the burden of
providing contraceptive services to those women who
lose it because their health plans will opt out of coverage. See Steinberg Decl. ¶¶ 27-29; Medelsohn Decl.
¶ 15. Such women will seek contraceptive services
elsewhere and, as Defendants noted in issuing the New
IFRs, may turn to “multiple Federal, State, and local
programs that provide free or subsidized contraceptives
for low-income women” as alternative coverage. See
82 Fed. Reg. 47813, 47850. These programs in the
Commonwealth include Medicaid, called “Medical Assistance,” which relies on funding from both the State and
federal governments; Family Planning Services Program; and the Commonwealth’s network of clinics
funded under the Title X grant program. See Allen
Decl. ¶¶ 3-18; Steinberg Decl. ¶ 16.
Indeed, Dr.
Chuang testified that she counsels patients without coverage for contraceptive services to seek coverage from

93a
Medicaid. Tr. 177-78. As women in Pennsylvania lose
contraceptive coverage through their health insurance
plans and turn to State programs, it is likely that the
Commonwealth will bear the added financial burden occasioned by the increase in women who need contraceptive care coverage. See Decl. of Seth A. Mendelsohn
¶ 15; Allen Decl. ¶ 23.
Of course, “loss of money” is generally insufficient to
merit a preliminary injunction because “monetary damages . . . are capable of ascertainment and award at
final judgment. . . . ” Instant Air Freight Co. v.
C.F. Air Freight, Inc., 882 F.2d 797, 801 (3d Cir. 1989).
Here, however, the Commonwealth will not be able to
recover any economic damages traceable to the implementation of the New IFRs. This is because a party—
including the Commonwealth—may not seek monetary
damages from the federal government. See 5 U.S.C.
§ 702 (providing that the federal government is immune
from a suit for money damages). Therefore, if the New
IFRs are ultimately struck down, the Commonwealth
will be unable to recoup the money it expends on contraceptive care in the interim. In such circumstances, a
preliminary injunction is appropriate. See, e.g., N.J.
Retail Merchants, 669 F.3d at 388 (holding that a preliminary injunction is appropriate where a movant could
not recover damages from a State due to sovereign immunity).
The Commonwealth’s harm is not merely speculative;
it is actual and imminent. See Adams v. Freedom Forge
Corp., 204 F.3d 475, 488 (3d Cir. 2000). The New IFRs
estimate that at least 31,700 women will lose contraceptive coverage under the New Rules—and, as Plaintiff

94a
and amici persuasively argue, there are reasons to believe the number is significantly higher. See 82 Fed.
Reg. 47,821. Thus, the only serious disagreement is
not whether the Commonwealth will be harmed, but how
much the Commonwealth will be harmed. Though Defendants argue that the Commonwealth has not identified any individual who has lost coverage already, there
is no need to wait for the axe to fall before an injunction
is appropriate, particularly where Defendants have estimated that it is about to fall on tens of thousands of
women. 16 And the financial burden is impending. The
Commonwealth anticipates that on January 1, 2018,
when open enrollment begins for health plans regulated
by ERISA, some health plans will remove no-cost contraceptive services pursuant to the New IFRs, and it is
likely that Pennsylvanian women will seek contraceptive
services through services funded by the State fisc.
While the legal harm to the integrity of the State fisc
is important to obtain a preliminary injunction, of parallel importance is the significant harm to the Commonwealth’s interest in protecting the health, safety, and
well-being of its citizens. See In re Oxycontin Antitrust Litig., 821 F. Supp. 2d 591, 601 (S.D.N.Y. 2011)
(citing Alfred L. Snapp, 458 U.S. at 601-02). The potential harm faced by Pennsylvanian women and across
the nation is enormous and irreversible. As employers
take advantage of the New IFRs, access to no-cost contraceptive services for many women will be severely curtailed.

Since the New IFRs eliminate requirements to notify HHS of
any decision to opt out, it is nearly impossible to know whether employers have already availed themselves of the New IFRs.
16

95a
The Commonwealth’s concern is that absent available cost-effective contraception, women will either forego contraception entirely or choose cheaper but less effective methods—individual choices which will result in
an increase in unintended pregnancies. That, in turn,
will inflict economic harm on the Commonwealth because unintended pregnancies are more likely to impose
additional costs on Pennsylvania’s State-funded health
programs. See Steinberg Decl., ¶ 30 (discussing study
finding that 68% of unplanned births are paid for by
public insurance programs, compared to only 38% of
planned births).
The record evidence in support of this position is compelling. Contraceptives are, without question, effective
at preventing unintended pregnancies. See Institute
Report at 106. Eighty five percent of women who do
not use any form of contraceptive services and who do
not want to become pregnant, become pregnant in one
year. See id. Those women who do use contraception
are far less likely to have an unplanned pregnancy. Id.
But, even for those who do use contraception, there is
some chance of an unplanned pregnancy higher or lower
depending upon the chosen contraceptive method. For
example, a pamphlet issued by the Centers for Disease
Control entitled “Effectiveness of Family Planning Methods” shows there are 6 to 12 pregnancies per 100 women
who are on the contraceptive pill in any given year. See
Exh. 17. Yet, for those who have an Intrauterine Device (“IUD”) implanted there is less than one pregnancy
per 100 women per year. Id. Thus, it is clear that an
IUD is more effective than the pill at preventing unintended pregnancy. A reasonable conclusion from that
is women, all else being equal, would make the contraceptive choice of an IUD rather than the pill. But, three

96a
doctors testified that an IUD can be cost-prohibitive for
many women because it has higher upfront costs than
the contraceptive pill. Tr. 90; 132-33; 176-78. Dr. Butts
testified that, prior to the implementation of the ACA’s
Contraceptive Mandate, it was common for her patients
not to have prescribed IUDs implanted, but since the
Contraceptive Mandate, use of IUDs has increased dramatically. Tr. 132; 153. She testified that after the
Mandate went into effect, making no-cost contraception
services available to all women, the number of her patients who declined an IUD dropped significantly. Id.
Meanwhile, she recorded a five-fold increase in the number of IUDs she inserted in the course of her medical
practice. Tr. 153.
Dr. Chuang and Dr. Weisman also testified about a
study (“MyNewOptions Study”) they and others conducted between 2014 and 2016 of more than 900 Pennsylvanian women who were actively avoiding pregnancy.
Reviewing insurance claims data, they found that the
number of women using IUDs and other implants—
contraceptive methods that carry the highest up-front
costs but are the most effective—doubled in two years
after the Contraceptive Mandate took effect. Tr. 17887. Meanwhile, the number of women who did not use
contraceptive services decreased by roughly 50% in the
two years following the Mandate’s effect. 17 Id. Doctors Chuang, Weisman, and Butts all attributed these

Defendants cited a study from the Guttmacher Institute which
found no changes in contraceptive use patterns among sexually active women. See Bearak, J.M. and Jones, R.K., “Did Contraceptive
Use Patterns Change after the Affordable Care Act? A descriptive
analysis,” 27 Women’s Health Issues 316 (Guttmacher Inst. May17

97a
changes to the effect of the Contraceptive Mandate, Tr.
90; 134; 187, and concluded that with the reduction in nocost contraceptive insurance that will result from employer utilization of the New IFRs, more women will
lose no-cost contraceptive coverage and the cost of their
contraceptive services, to them, will rise. See Tr. 94.
Thus, women will likely forgo contraceptive services or
seek out less expensive and less effective types of contraceptive services in the absence of no-cost insurance
coverage. See id.; Weisman Decl. ¶ 47; Chuang Decl.
¶¶ 36-39. Indeed, women cite cost as a significant factor in determining whether to purchase contraceptive
services and which contraceptive services to use. See
Adam Sonfield, What is at Stake with the Federal Contraceptive Coverage Guarantee? 20 Guttmacher Policy
Review 8, 9 (2017).
The real life consequences, as amici point out, are significant: roughly 41% of unintended pregnancies in
America are caused by inconsistent use of contraceptives. 18 These problems are particularly acute in Pennsylvania, where the rate of unintended pregnancy is
June 2017). Unlike the MyNewOptions Study presented by Plaintiff, the Guttmacher study used survey data, which is less reliable
than the claims data used in the MyNewOptions study. And, unlike
the MyNewOptions study, the Guttmacher study did not focus on
Pennsylvania where the rate of unintended pregnancy is significantly greater than the national average, and which is the focus of
the preliminary injunction.
18
The Contraceptive Mandate also affects women’s health in other
contexts as well. The Institute’s Report, which recommended nocost contraceptive coverage under the ACA, explained that contraceptive services are used to treat menstrual disorders, acne, hirsutism, and pelvic pain, in addition to assisting family planning and
birth spacing. See Institute Report at 107. Contraceptive services

98a
53%, significantly higher than the national average.
Tr. 152. The negative effects of even a short period of
decreased access to no-cost contraceptive services are
irreversible.
c.

Balance of the Equities

The third factor that the Commonwealth must show
is that the balance of the equities tips in favor of granting a preliminary injunction. “Balancing the equities”
is jurisprudential “jargon for choosing between conflicting public interests.” Youngstown Sheet & Tube Co. v.
Sawyer, 343 U.S. 579, 609 (1943) (Frankfurter, J., concurring). Here, Congress has already struck the balance: Its passage of the Women’s Health Amendment
was to bridge the significant gender gap in healthcare
costs between men and women. Senator Feinstein explained that “[w]omen of childbearing age spend 68 percent more in out-of-pocket health care costs than men.”
155 Cong. Rec. 29302. And part of this problem stems
from unintended pregnancies—an issue faced only by
women. Senator Durbin explained that the purpose of
the Women’s Health Amendment was to “expand health
insurance coverage to the vast majority of [the 17 million women of reproductive age in the United States who
are essential for women who face high-risk pregnancies or those for
whom pregnancy may lead to significant complications. Even a
short period of interrupted coverage will lead to irreparable harm
because, as the Institute Report notes, women face severe complications, including death, from high-risk pregnancy. Dr. Butts also
testified that decreased access to contraceptives will “increase pain
and suffering for women who have [disorders such as pelvic pain and
other medical conditions] . . . and to the extent that some of
those unintended pregnancies are in women with very serious medical disorders for whom pregnancy may be contraindicated [it] can
increase risks in a life-threatening way.” Tr. 140.

99a
are uninsured and] . . . reduce unintended pregnancies.” Id. at 26768. Where, as here, “Congress itself
has struck the balance, has defined the weight to be
given the competing interests, a court of equity is not
justified in ignoring that pronouncement under the
guise of exercising equitable discretion.” Youngstown
Sheet, 343 U.S. at 609-10.
Here, given the Commonwealth’s clear interest in securing the health and well-being of its women residents
and containing its costs for contraceptive services, the
balance of the equities heavily weighs in its favor. Defendants’ assertion that there is “inherent harm to an
agency in preventing it from implementing regulations
that Congress found to be in the public interest to direct
that agency to develop” does not change that balance.
Defendants will not be prejudiced by a preliminary injunction. If the New IFRs were issued in violation of
applicable law, they will have suffered no harm. If Defendants ultimately prevail, then a preliminary injunction will have merely delayed their preferred regulatory
outcome.
d.

Public Interest

When considering the public interest, a court is limited to evaluating “how such interest and conveniences
are affected by the selection of an injunction over other
enforcement mechanisms.” United States v. Oakland
Cannabis Buyers’ Co-op., 532 U.S. 483, 498 (2001). Here,
a preliminary injunction is unquestionably in the public
interest because it maintains the status quo pending the
outcome of a trial on the merits. The New IFRs permit
any entity to opt out of coverage within 30 to 60 days’
notice to plan members. A trial on the merits will not
conclude in that short span. A preliminary injunction

100a
will maintain the status quo: those with exemptions or
accommodations prior to October 6, 2017 will maintain
their status, those with injunctions preventing enforcement of the Contraceptive Mandate will maintain their
injunctions, but those with coverage will maintain their
coverage as well.
IV.

Conclusion

Plaintiff, the Commonwealth of Pennsylvania, has
demonstrated that it has met all four factors necessary
to obtain a preliminary injunction. In this case, the
Commonwealth is likely to succeed on the merits of its
two APA claims; the Commonwealth is likely to suffer
serious and irreparable harm in the absence of a preliminary injunction; the balance of the equities tips in favor
of granting an injunction, and the public interest favors
granting it as well. After weighing these four factors,
as stated above, the Court concludes that a preliminary
injunction is warranted. The Commonwealth’s Motion
for Preliminary Injunction will be granted and Defendants shall be enjoined from enforcing the New IFRs.
An appropriate order follows.
BY THE COURT:
/s/

Dec. 15, 2017

WENDY BEETLESTONE, J.
WENDY BEETLESTONE, J.

101a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

No. 17-4540
COMMONWEALTH OF PENNSYLVANIA, PLAINTIFF
v.
DONALD J. TRUMP, DONALD J. WRIGHT,
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, STEVEN T. MNUCHIN,
UNITED STATES DEPARTMENT OF THE TREASURY,
RENE ALEXANDER ACOSTA AND THE UNITED STATES
DEPARTMENT OF LABOR, DEFENDANTS
Filed: Dec. 15, 2017
ORDER
AND NOW, this 15th day of December, 2017, upon
consideration of the Commonwealth of Pennsylvania’s
Motion for a Preliminary Injunction (ECF No. 9), Defendants’ Response thereto (ECF No. 15), Plaintiff ’s
Reply in Support thereof (ECF No. 30), the Administrative Record (ECF Nos. 23 & 47), Briefs of the Amici Curiae (ECF Nos. 34, 35 & 36), and following a Hearing on
Plaintiff’s Motion on December 14, 2017, IT IS HEREBY
ORDERED that the Motion is GRANTED.

It is FURTHER ORDERED that Defendants Eric D.
Hargan, as Acting Secretary of the United States Department of Health and Human Services (substituted

102a
pursuant to Rule 25(d) of the Federal Rules of Civil Procedure); the United States Department of Health and
Human Services; Steven T. Mnuchin, as Secretary of the
United States Department of Treasury; the United
States Department of Treasury, Rene Alexander Acosta,
as Secretary of the United States Department of Labor;
and the United States Department of Labor; 1 and their
officers, agents, servants, employees, attorneys, designees, and subordinates, as well as any person acting in
concert or participation with them, are hereby ENJOINED from enforcing the following Interim Final
Rules pending further order of this Court:
1.

Religious Exemptions and Accommodations for
Coverage of Certain Preventive Services Under
the Affordable Care Act described at 82 Fed.
Reg. 47792; and

2.

Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under
the Affordable Care Act described at 82 Fed.
Reg. 47838.

The Court has considered the issue of security pursuant to Rule 65(c) of the Federal Rules of Civil Procedure and determines that Defendants will not suffer any
financial loss that warrants the need for the Plaintiff to
post security. After considering the facts and circumstances of this case, the Court finds that security is unnecessary and exercises its discretion not to require the
posting of security in this situation.
In light of the constitutional concerns associated with enjoining
the President of the United States for a claim under the Administrative Procedure Act, this injunction does not apply to the President.
See Franklin v. Massachusetts, 505 U.S. 788, 801 (1992).
1

103a
BY THE COURT:
/s/

WENDY BEETLESTONE, J.
WENDY BEETLESTONE, J.

104a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

No. 17-4540
COMMONWEALTH OF PENNSYLVANIA AND STATE OF
NEW JERSEY, PLAINTIFFS
v.
DONALD J. TRUMP, ALEX M. AZAR II,
UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES, STEVEN T. MNUCHIN,
UNITED STATES DEPARTMENT OF THE TREASURY,
RENE ALEXANDER ACOSTA, THE UNITED STATES
DEPARTMENT OF LABOR AND THE UNITED STATES OF
AMERICA, DEFENDANTS
LITTLE SISTERS OF THE POOR SAINTS PETER AND
PAUL HOME, DEFENDANT-INTERVENOR
Filed: Jan. 14, 2019
OPINION
Table of Contents

I.

Background ..................................................... [3]
A. Contraceptive Mandate ................................ [3]
B. Regulatory Action to Accommodate
Religious Objections..................................... [4]
C. Hobby Lobby & Wheaton College ................ [6]
D. Regulatory Response to Hobby Lobby &
Wheaton College ........................................... [7]

105a
E. Zubik Remand & Impasse ........................... [8]
F. 2017 IFRs & First Preliminary
Injunction ..................................................... [9]
G. 2018 Final Rules & Second Motion for
Preliminary Injunction .............................. [12]
II. Analysis ......................................................... [13]
A. Standing ...................................................... [13]
1. Special Solicitude .................................... [15]
2. Article III Standing ................................ [18]
B. Venue .......................................................... [20]
C. Preliminary Injunction .............................. [23]
1. Legal Standard ....................................... [23]
2. Likelihood of Success on the Merits ...... [24]
a. APA Procedural Claim ........................ [24]
i. Inadequate Response to
Comments ........................................ [25]
ii. IFRs Taint the Final Rules ............ [27]
b. APA Substantive Claim....................... [34]
i. The ACA .......................................... [35]
ii. RFRA ............................................... [42]
3. Irreparable Harm ................................... [52]
4. Balance of the Equities........................... [55]
5. Public Interest ........................................ [56]
D. Remedy ....................................................... [57]
Plaintiffs, the Commonwealth of Pennsylvania and
the State of New Jersey (collectively “the States”), have
sued the United States of America, President Donald J.
Trump, the United States Secretary of Health and Human Services Alex M. Azar II, the United States Secretary of the Treasury Steven T. Mnuchin, and the United

106a
States Secretary of Labor Rene Alexander Acosta in
their official capacities, as well as each of their agencies
(collectively “Defendants”), seeking to enjoin enforcement of two Final Rules that grant exemptions to the
Affordable Care Act’s requirement that health plans
cover women’s preventive services. The Final Rules
“finalize” two Interim Final Rules, which Defendants issued in October 2017 and which this Court enjoined soon
thereafter, see Pennsylvania v. Trump, 281 F. Supp. 3d
553, 585 (E.D. Pa. 2017). On November 15, 2018, while
their appeal of that preliminary injunction was pending,
Defendants promulgated the Final Rules currently before the Court. The States move to enjoin enforcement
of the Final Rules arguing that, like the IFRs before
them, the Final Rules violate a variety of constitutional
and statutory provisions. For the reasons set forth below, Plaintiffs’ Second Motion for a Preliminary Injunction shall be granted.
I.

Background 1

Although the relevant factual and procedural history
of this dispute has been laid out at length before, see id.
at 560-64, that background information is recounted
here for the sake of clarity.
A.

Contraceptive Mandate

In March 2010, Congress enacted the Affordable
Care Act. See Patient Protection and Affordable Care
Act (“ACA”), Pub L. No. 111-148, 124 Stat. 119 (2010).

The factual statements found here and elsewhere in the opinion
constitute this Court’s findings of fact, as required under Rule 52(a)
of the Federal Rules of Civil Procedure, regardless of any heading
or lack thereof.
1

107a
A provision of the ACA, the Women’s Health Amendment, mandated that insurance providers cover preventive health services and screenings for women without
cost-sharing responsibilities. Specifically, the Women’s
Health Amendment requires that “[a] group health plan
and a health insurance issuer offering group or individual health insurance coverage shall, at a minimum provide coverage for and shall not impose any cost sharing
requirements . . . with respect to women, such additional preventive care and screenings . . . as provided for in comprehensive guidelines supported by
the Health Resources and Services Administration
[“HRSA”] for purpose of this paragraph.” 42 U.S.C.
§ 300gg-13(a)(4). This requirement applies to all health
insurers offering individual or group insurance, as well
as all group health plans, with an exception for certain
“grandfathered” plans. 42 U.S.C. § 18011 (exempting
“grandfathered” plans); see also 29 C.F.R. § 2590.7151251 (2010).
Rather than enumerate the preventive services to be
covered by the mandate, Congress delegated that decision to HRSA, which is an agency of Defendant Department of Health and Human Services (“HHS”). HRSA,
in turn, commissioned the then-named Institute of Medicine (“the Institute”), to convene a panel of experts to
provide recommendations. 2 On July 19, 2011, the Institute issued its report, recommending that the ACA
cover “the full range of Food and Drug AdministrationThe Institute, renamed the National Academy of Medicine in
2015, is an arm of the National Academy of Sciences, an organization that Congress established for the explicit purpose of furnishing advice to the federal government. See Pub. Citizen v. Dep’t of
Justice, 491 U.S. 440, 460 n.11 (1989).
2

108a
approved contraceptive methods, sterilization procedures, and patient education and counseling for women
with reproductive capacity.” Institute of Medicine,
Clinical Prevention Services for Women: Closing the
Gaps, at 109-10 (2011).
On August 1, 2011, HRSA issued its preventive
care guidelines (“2011 Guidelines”), which adopted the
Institute’s recommendations. See HRSA, Women’s
Preventive Services Guidelines, available at https://
www.hrsa.gov/womens-guidelines/index.html. 3 The
2011 Guidelines hewed to the Institute’s report, defining
preventive care to include all FDA-approved “contraceptive methods, sterilization procedures, and patient
education and counseling.” Id. Under the Women’s
Health Amendment, “non-grandfathered group health
plans and health insurance issuers are required to provide coverage consistent with the HRSA Guidelines,
without cost sharing.”
Group Health Plans and
Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection and
Affordable Care Act, 77 Fed. Reg. 8,725, 8,725 (Feb. 15,
2012). Thus these interlocking statutory and regulatory requirements created the so-called “Contraceptive
Mandate.”

The Guidelines were updated in 2016 but continue to define
“preventive services” to include contraceptive services and counseling. See Updating the HRSA-Supported Women’s Preventive
Services Guidelines, 81 Fed. Reg. 95,148, 95,149 (Dec. 27, 2016).
3

109a
B.

Regulatory Action to Accommodate Religious
Objections

At the same time, and based on “considerable feedback,” HHS, the Department of Labor, and the Department of the Treasury (collectively “the Agencies”) found
it was “appropriate that HRSA, in issuing [the 2011]
Guidelines, take[] into account the effect on the religious
beliefs of certain religious employers if coverage of contraceptive services were required.”
Group Health
Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection
and Affordable Care Act, 76 Fed. Reg. 46,621, 46,623
(Aug. 3, 2011).
The Agencies therefore provided
HRSA with “additional discretion to exempt certain religious employers from the Guidelines where contraceptive services are concerned.” Id.
On August 1, 2011, the Agencies promulgated an interim final rule exempting certain religious employers
from providing contraceptive services. Id. Under
the exemption, a “religious employer” could be exempt
from the Contraceptive Mandate only if it: (1) had the
inculcation of religious values as its purpose; (2) primarily employed people who shared its religious tenets;
(3) primarily served persons who shared its religious
tenets; and (4) was a church, its integrated auxiliary, or
a convention or association of a church exempt from taxation under the Internal Revenue Code. Id. On February 15, 2012, after considering more than 200,000 responses to this interim final rule, the Agencies issued a
final rule adopting the “religious employer” definition.
77 Fed. Reg. at 8,725.

110a
On March 21, 2012, the Agencies issued a notice of
proposed rulemaking requesting comments on “alternative ways of providing contraceptive coverage without
cost sharing in order to accommodate non-exempt, nonprofit religious organizations with religious objections
to such coverage.” Certain Preventive Services Under
the Affordable Care Act, 77 Fed. Reg. 16,501, 16,503
(March 21, 2012). After receiving and considering over
400,000 comments, the Agencies issued their final rule
on July 2, 2013. Coverage of Certain Preventive Services Under the Affordable Care Act, 78 Fed. Reg.
39,870, 39,871 (July 2, 2013). The final rule had two
noteworthy effects.
First, the rule “eliminate[ed] the first three prongs
and clarif[ied] the fourth prong of the definition” of
“religious employer” adopted in 2012. Id. at 39,874.
Under the new definition, an entity qualified as a
“religious employer” so long as it “is organized and operates as a nonprofit entity and is referred to in section
6033(a)(3)(A)(i) or (iii)” of the Internal Revenue Code,
which applies to “churches, their integrated auxiliaries,
and conventions or associations of churches, as well as
to the exclusively religious activities of any religious order.” Id.
Second, the rule established an accommodation for
“eligible organizations” with religious objections to
providing contraceptive coverage. Id. The rule defined an “eligible organization” as one that: “(1) [o]pposes providing coverage for some or all of the contraceptive services required to be covered . . . ; (2) is organized and operates as a nonprofit entity; (3) holds itself
out as a religious organization; and (4) self-certifies that

111a
it satisfies the first three criteria.” Id. An eligible organization was required to provide a copy of the selfcertification to its insurance provider, which then would
provide contraceptive coverage to the organization’s
employees. Id. at 39,876. Thus an eligible organization that self-certified as such was “not required to contract, arrange, pay, or refer for contraceptive coverage,”
but its “plan participants and beneficiaries [would] still
benefit from separate payments for contraceptive services without cost sharing or other charge,” consistent
with the Contraceptive Mandate. Id. at 39,874.
C.

Hobby Lobby & Wheaton College

Meanwhile, a host of legal challenges to the Contraceptive Mandate progressed through the federal courts,
several of which eventually reached the Supreme Court.
On June 30, 2014, the Supreme Court issued its opinion in Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct.
2751 (2014). There, three closely-held corporations
challenged the Contraceptive Mandate. Id. at 2765.
The Supreme Court held that the application of the Contraceptive Mandate to the organizations violated the Religious Freedom Restoration Act, 42 U.S.C. § 2000bb-1
(“RFRA”), because the Contraceptive Mandate imposed
a substantial burden on the plaintiffs’ religious exercise
and was not the “least restrictive means” of guaranteeing cost-free access to certain methods of contraception.
134 S. Ct. at 2780-82. The Supreme Court found the
existence of the accommodation supported its conclusion
that the Contraceptive Mandate was not the “least restrictive means”: “HHS itself has demonstrated that it
has at its disposal an approach that is less restrictive
than requiring employers to fund contraceptive methods

112a
that violate their religious beliefs. . . . HHS has already established an accommodation for nonprofit organizations with religious objections.” Id. at 2782.
Nevertheless, the Supreme Court refrained from deciding “whether an approach of this type”—meaning the
accommodation—“complies with RFRA for purposes of
all religious claims.” Id.
A few days later, the Supreme Court issued an order
in a related case, Wheaton College v. Burwell, 134 S. Ct.
2806 (2014) (per curiam). There, Wheaton College,
an organization eligible for the accommodation, sought
an injunction “on the theory that its filing of a selfcertification form [would] make it complicit in the provision of contraceptives by triggering the obligation for
someone else to provide the services to which it objects.”
Id. at 2808 (Sotomayor, J., dissenting). The Supreme
Court granted the injunction, permitting Wheaton College to “inform[] the Secretary of Health and Human
Services in writing that it . . . has religious objections
to providing coverage for contraceptive services”—that
is, the college did not have to “use the [self-certification]
form prescribed by the [g]overnment.” Id. at 2807 (per
curiam). The Supreme Court warned, however, that
the “order should not be construed as an expression of
the Court’s views on the merits.” Id.
D.

Regulatory Response to Hobby Lobby & Wheaton
College

The Agencies responded to Hobby Lobby and Wheaton College by issuing a notice of proposed rulemaking
“amend[ing] the definition of an eligible organization
[for purposes of the accommodation] to include a closely
held for-profit entity that has a religious objection to
providing coverage for some or all of the contraceptive

113a
services otherwise required to be covered.” Coverage
of Certain Preventive Services Under the Affordable
Care Act, 79 Fed. Reg. 51,118, 51,121 (Aug. 27, 2014).
Furthermore, the Agencies issued an interim final rule,
effective immediately, that provided “an alternative process” for eligible organizations to self-certify “consistent with the Wheaton order.” Coverage of Certain
Preventive Services Under the Affordable Care Act, 79
Fed. Reg. 51,092, 51,094-96 (Aug. 27, 2014). On July
14, 2015, the Agencies issued a rule that finalized the extended accommodation and alternative self-certification
process. Coverage of Certain Preventive Services Under the Affordable Care Act, 80 Fed. Reg. 41,318, 41,32324 (July 14, 2015).
E.

Zubik Remand & Impasse

On May 16, 2016, the Supreme Court issued its third
decision regarding the Contraceptive Mandate. In Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per curiam), several organizations eligible for the accommodation challenged the self-certification process on the grounds that
the requirement to submit a notice either to their insurer or the federal government violated RFRA. Id. at
1559. The Supreme Court declined to reach the merits
of the dispute, requesting instead “supplemental briefing from the parties addressing ‘whether contraceptive
coverage could be provided to petitioners’ employees,
through petitioners’ insurance companies, without any
such notice from petitioners.’ ” Id. at 1559-60. After
the parties agreed that “such an option [was] feasible,”
the Supreme Court remanded to afford them “an opportunity to arrive at an approach going forward that accommodates petitioners’ religious exercise while at the
same time ensuring that women covered by petitioners’

114a
health plans receive full and equal health coverage, including contraceptive coverage.” Id. at 1560 (internal
quotation marks omitted). Again, though, the Court
“express[ed] no view on the merits of the cases,” and refrained from “decid[ing] whether petitioners’ religious
exercise has been substantially burdened, whether the
[g]overnment has a compelling interest, or whether the
current regulations are the least restrictive means of
serving that interest.” Id.
Following the remand the Agencies reached an impasse. After reviewing over 50,000 comments submitted in response to a request for information, the Agencies concluded that there was “no feasible approach
. . . at this time that would resolve the concerns of religious objectors, while still ensuring that the affected
women receive full and equal health coverage, including
contraceptive coverage.” Dep’t of Labor, FAQs About
Affordable Care Act Implementation Part 36, at 4 (2016),
available at https://www.dol.gov/sites/default/files/ebsa
/about-ebsa/our-activities/resource-center/faqs/aca-part36.pdf.
F.

2017 IFRs & First Preliminary Injunction

On May 4, 2017, President Donald Trump issued an
Executive Order entitled “Promoting Free Speech and
Religious Liberty.” Exec. Order No. 13798, 82 Fed. Reg.
21,675 (May 4, 2017). The Order directed the Agencies
to “consider issuing amended regulations, consistent with
applicable law, to address conscience-based objections
to the preventive-care mandate promulgated under [the
Women’s Health Amendment].” Id. at § 3.
On October 6, 2017, aiming to be “[c]onsistent with
the President’s Executive Order and the Government’s

115a
desire to resolve the pending litigation and prevent future litigation from similar plaintiffs,” Religious Exemptions and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act,
82 Fed. Reg. 47,792, 47,799 (Oct. 13, 2017), the Agencies
issued two, new IFRs, referred to as the Religious Exemption IFR and the Moral Exemption IFR. See id.
at 47,792 (“Religious Exemption IFR”); Moral Exemptions and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act,
82 Fed. Reg. 47,838, 47,838 (Oct. 13, 2017) (“Moral Exemption IFR”) (collectively, “the IFRs”).
The IFRs made several significant changes to the
prior exemption and accommodation framework. 4 For
one, the Moral Exemption IFR made the exemption
available to “additional entities”—including for-profit
entities that are not publicly traded—that object based
on “sincerely held moral convictions,” without any need
for the objection to be grounded in a religious objection
to contraception. 82 Fed. Reg. at 47,862 (emphasis
added). Second, the Religious Exemption IFR significantly broadened the scope of the religious exemption to
encompass any non-profit or for-profit entity, whether
The following is not an exhaustive list of the changes enacted by
the IFRs, and subsequently the Final Rules. For example, the IFRs
also changed the level at which exemptions are to be applied. So,
whereas before the availability of an exemption was to be “ ‘determined on an employer by employer basis,’ ” the IFRs provide that an
exemption “will be determined on a plan basis.” 82 Fed. Reg. at
47,810. The effect of this change, according to the States, is that an
employer may disregard the Contraceptive Mandate by adopting a
group health plan “established or maintained” by an objecting organization, id., even if the employer itself does not hold a sincere
religious or moral objection to contraception.
4

116a
closely held or publicly traded. 82 Fed. Reg. at 47,810.
Third, the IFRs “likewise” expanded eligibility for the
accommodation, allowing entities with sincerely held religious or moral convictions to take advantage of the accommodation process. 82 Fed. Reg. at 47,813; 82 Fed.
Reg. at 47,849. Fourth, the IFRs made “the accommodation process optional for eligible organizations,” such
that entities taking advantage of the accommodation
would “not be required to comply with a self-certification
process.” 82 Fed. Reg at 47,808; 82 Fed. Reg. at 47,850.
Finally, the IFRs eliminated the requirement to provide
notice of an intent to take advantage of the exemption or
accommodation—entities that stop providing contraceptive care “do not need to file notices or certifications of
their exemption.” 82 Fed. Reg. at 47,808; 82 Fed. Reg.
at 47,850. Thus the IFRs permit entities with religious
or moral objections to forgo providing contraceptive
coverage to employees without “fil[ing] notices or certifications of their exemption.” 82 Fed. Reg. at 47,838. 5
The IFRs became effectively immediately. 82 Fed.
Reg. at 47,815; 82 Fed. Reg. at 47,855. Rather than engage in advance notice-and-comment procedures, the
Agencies requested post-promulgation comments be
submitted by December 5, 2017, 60 days after the IFRs
went into effect. 82 Fed. Reg. at 47,792; 82 Fed. Reg.
at 47,838. The Commonwealth filed suit in the interim
seeking to enjoin enforcement of the IFRs, arguing:
The IFRs note that ERISA requires certain disclosures:
“[u]nder ERISA, the plan document provides what benefits are
provided to participants and beneficiaries under the plan and,
therefore, if an objecting employer would like to exclude all or a
subset of contraceptive services, it must ensure that the exclusion
is clear in the plan document.” 82 Fed. Reg. at 47,838.
5

117a
(1) they failed to comply with the notice-and-comment
procedures required by the APA, 5 U.S.C. § 551, et seq.;
(2) they are “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law” in violation of the substantive provisions of the APA, 5 U.S.C.
§ 706(2)(A); (3) they violate Title VII of the Civil Rights
Act, 42 U.S.C. § 2000e-2, et seq.; (4) they violate the
Equal Protection Guarantee of the Fifth Amendment,
U.S. Const. amend. V; and, (5) they violate the Establishment Clause, U.S. Const. amend. I. 6 This Court
granted the preliminary injunction, finding the Commonwealth was likely to succeed on its claims that the
IFRs violated both the procedural and substantive strictures of the APA; it did not, however, reach the merits
of the other statutory or constitutional claims. See
Pennsylvania, 281 F. Supp. 3d at 585. 7

The State of New Jersey was not party to the original Complaint,
and thus, not a party to the first motion for a preliminary injunction
either.
7
Following this Court’s issuance of a preliminary injunction, several other district courts issued decisions regarding the propriety
of the IFRs. See California v. Health & Human Servs., 281 F. Supp.
3d 806, 832 (N.D. Cal. 2017) (enjoining the IFRs for violating the
procedural requirements of the APA only), aff ’d in part, vacated in
part, remanded sub nom., California v. Azar, 911 F.3d 558, 566 (9th
Cir. 2018) (upholding the lower court’s conclusion on the merits, but
striking down the remedy as overbroad); Massachusetts v. Health &
Human Servs., 301 F. Supp. 3d 248, 266 (D. Mass. 2018) (finding
State lacked standing to challenge the IFRs), app. docketed,
No. 18-1514 (1st Cir. June 6, 2018).
6

118a
Defendants subsequently appealed the decision and
moved to stay proceedings while the appeal was pending, which this Court granted. 8
G.

2018 Final Rules & Second Motion for Preliminary Injunction

On November 15, 2018, while their appeal of the preliminary injunction was pending before the Third Circuit, the Agencies promulgated two new rules that
“finalize[d]” the IFRs. Religious Exemptions and
Accommodations for Coverage of Certain Preventive
Services Under the Affordable Care Act, 83 Fed. Reg.
57,536, 57,536 (Nov. 15, 2018) (“Final Religious Exemption”); Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,592, 57,592 (Nov. 15,
2018) (“Final Moral Exemption”). “In response to public
comments,” the Agencies made “various changes” to the
Final Rules “to clarify the intended scope of the language” in the IFRs. 83 Fed. Reg. at 57,537; 83 Fed.
Reg. at 57,593. The changes, however, were largely
“non-substantial technical revisions.” 83 Fed. Reg. at
57,567. Defendants assert such changes “do not alter
the fundamental substance of the exemptions set forth
in the IFRs.” The Final Rules were scheduled to take

Following the Commonwealth’s initial motion for a preliminary
injunction, Defendant-Intervenor Little Sisters filed a motion to
intervene. The Court denied that motion. See Pennsylvania v.
Trump, 2017 WL 6206133, at *1 (E.D. Pa. Dec. 8, 2017). On appeal,
however, the Third Circuit reversed, remanding the case to permit intervention. See Pennsylvania v. President United States of Am.,
888 F.3d 52, 62 (3d Cir. 2018). The Court duly vacated its prior
ruling and granted Defendant-Intervenor Little Sisters’ motion.
8

119a
effect on January 14, 2019.
83 Fed. Reg. at 57,592.

83 Fed. Reg. at 57,567;

The Commonwealth then sought to lift the stay to
challenge the Final Rules. The Court granted the motion, 9 and Pennsylvania—now joined by New Jersey—
filed an Amended Complaint and a Second Motion for a
Preliminary Injunction, seeking to enjoin enforcement
of the Final Rules. 10 The States argue the Final Rules:
(1) failed to comply with the notice-and-comment procedures required by the APA; (2) are “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law” in violation of the substantive provisions
of the APA; (3) violate Title VII of the Civil Rights Act;
(4) violate the Equal Protection Guarantee of the Fifth
Amendment; and, (5) violate the Establishment Clause.
It is to the merits of these contentions that the Court
now turns.

While the filing of a notice of appeal is generally “an event of
jurisdictional significance—it confers jurisdiction on the court of appeals and divests the district court of its control over those aspects
of the case involved in the appeal,” Griggs v. Provident Consumer
Disc. Co., 459 U.S. 56, 58 (1982),—“[a]n appeal from the grant or denial of a preliminary injunction does not divest the trial court of jurisdiction or prevent it from taking other steps in the litigation while
the appeal is pending,” 11A Wright & Miller, Fed. Prac. & Pro.
§ 2962 (3d ed.); see also In re Merck & Co., Inc. Sec. Litig., 432 F.3d
261, 268 (3d Cir. 2005) (observing that the district court retains the
power to “modify or grant injunctions” following an appeal).
10
The Third Circuit stayed Defendants’ appeal pending the resolution of the Second Motion for a Preliminary Injunction. Pennsylvania v. President United States of Am., No. 17-3752 (3d Cir.
Jan. 9, 2019).
9

120a
II.
A.

Analysis 11
Standing

A threshold question is whether the States have
standing. Standing is a litigant’s ticket to federal court
—a constitutional requirement that “limits the category
of litigants empowered to maintain a lawsuit in federal
court to seek redress for a legal wrong.” Spokeo, Inc.
v. Robins, 136 S. Ct. 1540, 1547 (2016). The States contend that they are properly before the Court because
the Final Rules will imminently cause direct harm to
their sovereign, quasi-sovereign and proprietary interests. Additionally, they assert that they have parens
patriae standing to protect the health, safety and wellbeing of their residents in ensuring that they enjoy access to healthcare services. Defendants, on the other
hand, contend that the States have not suffered any legal wrong that would allow them to get through the
turnstile into federal court.
“No principle is more fundamental to the judiciary’s
proper role in our system of government than the constitutional limitation of federal-court jurisdiction to actual cases or controversies.” Simon v. E. Kentucky
Welfare Rights Org., 426 U.S. 26, 37 (1976). The doctrine of standing “is part of this limitation.” Id.; see
also Finkleman v. Nat’l Football League, 810 F.3d 187,
203 (3d Cir. 2016). “[T]he irreducible constitutional minimum of standing contains three elements.” Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560 (1992). First,
a plaintiff must have suffered an “injury in fact,” which
This section and all others afterwards includes the Court’s legal conclusions as required under Rule 52(a) of the Federal Rules
of Civil Procedure.
11

121a
is “an invasion of a legally protected interest which is (a)
concrete and particularized and (b) actual or imminent,
not conjectural or hypothetical.” Id. (internal quotation marks and citations omitted). Second, a plaintiff
must show that there is a “causal connection between
the injury and the conduct complained of”—that is, the
injury must be “fairly traceable” to the “challenged action of the defendant.” Id. (internal quotation marks
omitted). Third, a plaintiff must show that it is “likely,
as opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Id. at 561 (internal
quotation marks omitted).
As “[t]he party invoking federal jurisdiction,” the
States “bear[] the burden of establishing these elements.” Id. And, “[s]ince they are not mere pleading
requirements but rather an indispensable part of the
plaintiff ’s case, each element must be supported in the
same way as any other matter on which the plaintiff
bears the burden of proof, i.e., with the manner and degree of evidence required at the successive stages of the
litigation.” Id. “[A]t the preliminary injunction stage,
allegations are”—without more—“not enough to support standing;” rather, the States must “adduce[] evidence demonstrating more than a mere possibility” that
the elements of standing are met. Doe v. Nat’l Bd. of
Med. Exam’rs, 199 F.3d 146, 152-53 (3d Cir. 1999).
1.

Special Solicitude

This standing inquiry must be made with recognition
that States, like Pennsylvania and New Jersey here,
“are not normal litigants for the purposes of invoking
federal jurisdiction.” Massachusetts v. EPA, 549 U.S.
497, 518 (2007). They are “entitled to special solicitude

122a
in [the] standing analysis” if they have: (1) a procedural right that authorizes them to challenge the conduct at issue; and, (2) a “stake in protecting [their]
quasi-sovereign interests.” Id. at 520; see also Texas
v. United States, 809 F.3d 134, 151 (5th Cir. 2015), aff ’d
by an equally divided Court, 136 S. Ct. 2271 (2016) (per
curiam).
In determining whether the States have met these
conditions, both Massachusetts v. EPA and Texas v.
United States are instructive. In Massachusetts v.
EPA, Massachusetts sued the Environmental Protection Agency (“EPA”), alleging that the EPA had “abdicated its responsibility under the Clean Air Act” when it
failed to issue regulations regarding the emission of certain greenhouse gases. 549 U.S. at 505. The EPA
challenged Massachusetts’ standing to bring the suit,
arguing greenhouse gas emissions are a widespread and
generalized harm not unique to any specific plaintiff.
Id. at 517. The Supreme Court nonetheless held that
Massachusetts had special solicitude in the standing inquiry to challenge the EPA’s inaction: First, Massachusetts had a procedural right under the relevant statute, the Clean Air Act, which allowed it to “challenge agency
action unlawfully withheld.”
Id. (citing 42 U.S.C.
§ 7607(b)(1)). Second, Massachusetts had a quasi-sovereign
interest—a “well-founded desire to preserve its sovereign territory” from the effects of global warming because Massachusetts “own[ed] a great deal of the territory alleged to be affected.” Id. at 519 (internal quotation marks omitted); see also id. at 522 (noting affidavits
asserting that “rising seas have already begun to swallow Massachusetts’ coastal land.”). After concluding
that Massachusetts was entitled to special solicitude in
the standing analysis, the Supreme Court ultimately

123a
held that it had Article III standing to sue the EPA
based on the injury to its territory stemming from global
warming. Id. at 526.
In Texas v. United States, the Fifth Circuit, relying
on Massachusetts v. EPA, similarly concluded that Texas
and a multitude of other States were entitled to special
solicitude in seeking to enjoin implementation of the Deferred Action for Parents of Americans and Lawful Permanent Residents program (“DAPA”). 809 F.3d at
154-55. There, non-citizens in Texas could apply for a
driver’s license if they presented “documentation issued
by the appropriate United States agency that authorizes
the applicant to be in the United States.” Id. at 155 (internal quotation marks omitted). DAPA would have
permitted at least 500,000 non-citizens to qualify for these
driver’s licenses. Id. Because Texas subsidized its licenses, it would have lost money for each license issued
to a DAPA beneficiary. Id. Texas therefore sought
injunctive relief to prevent DAPA’s implementation.
See id. at 149.
The Fifth Circuit applied the Massachusetts v. EPA
framework and concluded that Texas was entitled to
special solicitude. First, the Fifth Circuit considered
whether the States’ challenge was similar in kind to the
challenge brought by Massachusetts, and concluded that
it was. Both suits turned on the construction of a federal statute that specifically provided for a procedural
right to judicial review, and Texas’ use of the APA to
challenge an “affirmative decision” made by a federal
agency was comparable to Massachusetts’ use of the judicial review provision in the Clean Air Act to challenge
the EPA’s inaction. Id. at 152. Second, as to the quasi-

124a
sovereign interest, the Fifth Circuit held that DAPA imposed “substantial pressure” on Texas to change its laws
to avoid bearing further costs from subsidizing additional driver’s licenses. Id. at 153. The Fifth Circuit
thus concluded that Texas, and its fellow plaintiff States,
warranted special solicitude in their suit against the federal government under the APA. Id. at 154-55. 12
The Fifth Circuit’s reasoning in Texas v. United
States is persuasive here. Here as there, the States
bring suit under the APA to challenge an affirmative action by the federal government. See Texas, 809 F.3d at
152. And, the Final Rules—like DAPA—“affect[] the
[S]tates’ ‘quasi-sovereign’ interest by imposing substantial pressure on them to change their laws.” Id. Specifically, they put pressure on provisions of the States’
Defendants here question the binding effect of Texas v. United
States beyond the facts of that case, given that the Supreme Court
summarily affirmed the Fifth Circuit’s decision “by an equally divided Court.” United States v. Texas, 136 S. Ct. 2271 (2016) (per
curiam). While an affirmance by an equally divided Supreme Court
typically does not constitute binding precedent, see Eaton v. Price,
364 U.S. 263, 264 (1960), where the Supreme Court is equally divided
on an issue of subject matter jurisdiction, it has determined that the
proper course is to remand the issue of jurisdiction to a lower court.
See Silliman v. Hudson River Bridge Co., 66 U.S. 582, 584-85 (1861).
In other words, if the Supreme Court were equally divided on whether
Texas had standing to challenge DAPA, it would have remanded that
issue to the Fifth Circuit. The Supreme Court did not, and instead
affirmed the Fifth Circuit, indicating that a majority of the Supreme
Court decided that Texas had standing to pursue its APA claim.
Certainly, if the Supreme Court had determined that Texas did not
have standing, it would not have had jurisdiction to hear the case.
Even if the affirmance by an equally divided Supreme Court as it
relates to subject matter jurisdiction were not binding, the Court is
persuaded by the reasoning of the Fifth Circuit in Texas v. United
States as it pertains to State standing.
12

125a
laws that provide state-funded contraceptive care to
low-income citizens. As the States show, the Final
Rules permit more employers to exempt themselves
from the Contraceptive Mandate, which would result in
more of the States’ women seeking state-funded sources
of contraceptive care. The harm to the States’ fiscs are
“intrusions . . . analogous to pressure to change the
law,” id., implicating the States’ quasi-sovereign interests. See also Alfred L. Snapp & Son, Inc. v. Puerto
Rico, 458 U.S. 592, 607 (1982) (holding that a State has
a “quasi-sovereign interest in the health and wellbeing
—both physical and economic—of its residents in general.”). The States, then, meet the two conditions outlined in Massachusetts v. EPA and shall be accorded
special solicitude in the standing analysis.
2.

Article III Standing

While the States are entitled to special solicitude in
the standing analysis, they must nevertheless meet the
“irreducible constitutional minimum of standing”—
namely, injury in fact, causation, and redressability.
Lujan, 504 U.S. at 560. In its initial challenge to the
IFRs, the Commonwealth satisfied this burden, see
Pennsylvania, 281 F. Supp. 3d at 569, and the same is
true of the States’ challenge to the Final Rules. See
also California, 911 F.3d at 571 (finding another group
of States had standing to challenge the IFRs).
First, the Final Rules inflict a direct injury upon the
States by imposing substantial financial burdens on
their coffers. An agency rule that has “a major effect
on the states’ fiscs” is sufficient to find injury in fact.
Texas, 809 F.3d at 152; id. at 155 (“[Texas] satisfied the
first standing requirement by demonstrating that it
would incur significant costs in issuing driver’s licenses

126a
to DAPA beneficiaries.”); see also Wyoming v. Oklahoma, 502 U.S. 437, 448 (1992) (holding that Wyoming
had Article III standing because it undisputedly suffered a “direct injury in the form of a loss of specific tax
revenues”); Danvers Motor Co., Inc. v. Ford Motor Co.,
432 F.3d 286, 291 (3d Cir. 2005) (“While it is difficult to
reduce injury-in-fact to a simple formula, economic injury is one of its paradigmatic forms.”). If the Final
Rules go into effect, the States will have to increase
their expenditures for State funded programs that provide contraceptive services. This is not a speculative
harm. As Defendants themselves noted in issuing the
IFRs, “there are multiple Federal, State, and local programs that provide free or subsidized contraceptives for
low-income women.” 82 Fed. Reg. at 47,803. As more
of the States’ women residents are deprived of contraceptive services through their insurance plans and turn
to these State funded programs, the States will be
pressed to make greater expenditures to ensure adequate contraceptive care. See Mendelsohn Decl. ¶ 15;
Steinberg Decl. ¶¶ 24-25. And although Defendants
point out that the States have not yet identified a woman
resident who has lost contraceptive coverage due to the
Final Rules, the States need not sit idly by and wait for
fiscal harm to befall them. See McNair v. Synapse
Group Inc., 672 F.3d 213, 223 (3d Cir. 2012) (“When, as
in this case, prospective relief is sought, the plaintiff
must show that he is ‘likely to suffer future injury’ from
the defendant’s conduct.”) (quoting City of Los Angeles
v. Lyons, 461 U.S. 95, 105 (1983) (emphasis added)). At
bottom, just as Texas’ estimated loss due to DAPA supported a finding that Texas suffered an injury in fact, so
too does the States’ estimated loss due to the Final

127a
Rules support a finding that the States have suffered an
injury in fact. See Texas, 809 F.3d at 155.
Second, the States’ financial injury is “fairly traceable” to the issuance of the Final Rules. By their terms,
the Final Rules expand the scope of the existing religious exemption rule and allow entities a new rationale
for refusing to provide employees with contraceptive
coverage if the refusal is “based on sincerely held moral
convictions,” 83 Fed. Reg. at 57,593. Thus, the Final
Rules allow more entities to stop providing contraceptive coverage, which will result in more women residents
seeking contraceptive care through State-funded programs. See Mendelsohn Decl. ¶ 15; Steinberg Decl.
¶¶ 24-25. The States have thus shown a causal connection between the Final Rules and their financial injury.
As the Court previously explained, Pennsylvania v.
New Jersey, 426 U.S. 660 (1976), is not to the contrary.
See also California, 911 F.3d at 574 (finding Pennsylvania did not bar States’ challenge to the IFRs on a similar
theory of standing). In that case, Pennsylvania voluntarily gave tax credits to Pennsylvania residents who
paid taxes in New Jersey, and then proceeded to sue
New Jersey, contending that the New Jersey tax injured Pennsylvania’s fiscs and was constitutionally impermissible. Pennsylvania, 426 U.S. at 662-63. The
Supreme Court found that Pennsylvania lacked standing because the injuries to its fiscs were “self-inflicted,”
resulting, as they did, from a decision of its state legislature to enact a law that incorporated the legislative
choices of New Jersey. Id. at 664. Here, by contrast,
the States’ laws funding contraceptive care do not “directly and explicitly” tie the States’ finances to another
sovereign’s law. California, 911 F.3d at 574. Rather,

128a
the States’ described injuries flow from the unilateral
decision by the Agencies to issue the Final Rules. See
id. (finding Pennsylvania did control in an analogous
challenge); cf. Texas, 809 F.3d at 158 (“The fact that
Texas sued in response to a significant change in the
[federal government’s] policies shows that its injury is
not self-inflicted.”). The States have therefore met the
traceability requirement.
Finally, the States have satisfied the redressability
requirement. As to the States’ procedural claims, enjoining the Final Rules could prompt the Agencies “to
reconsider the program, which is all a plaintiff must
show when asserting a procedural right.”
Texas,
809 F.3d at 161; see also Massachusetts, 549 U.S. at 518
(noting that where, as here, a litigant is “vested with a
procedural right, that litigant has standing if there is
some possibility that the requested relief will prompt
the injury-causing party to reconsider the decision that
allegedly harmed the litigant”). And, as for the States’
substantive claims, enjoining the Final Rules “would
prevent [the States’] injury altogether.” Texas, 809 F.3d
at 161.
In sum, the States have established the irreducible
constitutional minimum of standing to challenges the Final Rules in federal court. 13

Because the States have identified an imminent, direct injury to
its state coffers that would result from the Final Rules, there is no
need to address whether they have parens patriae standing.
13

129a
B.

Venue

The next question to address is whether the States’
choice of venue—the Eastern District of Pennsylvania—
is proper. Notwithstanding Defendants’ argument to
the contrary, it is.
Defendants’ argument is grounded in the structure
of the venue statute, Section 1391(e)(1) of which provides that in a civil action against an officer of the United
States, venue lies “in any judicial district in which . . .
the plaintiff resides if no real property is involved in the
action.” 28 U.S.C. § 1391(e)(1). Section 1391(c) defines a party’s residence “[f]or all venue purposes,” and
distinguishes between three, and only three, categories
of litigants: “a natural person,” “an entity with the capacity to sue and be sued in its common name under applicable law, whether or not incorporated,” and “a
defendant not resident in the United States.” Id. at
§ 1391(c). Because Pennsylvania is neither a natural
person nor a non-resident, Defendants argue it must be
treated as an entity for purposes of determining residency. Section 1391(c)(2) provides that “if a plaintiff,”
an entity “shall be deemed to reside . . . only in the
judicial district in which it maintains its principal place
of business.” Id. Thus, according to Defendants,
Pennsylvania resides only in the Middle District—the
district that encompasses Harrisburg, the state capital
—because that is where Pennsylvania maintains its
principal place of business.
While inventive, Defendants’ interpretation of Section 1391(c) is ultimately unpersuasive. See California, 911 F.3d at 570 (rejecting the argument); Alabama
v. U.S. Army Corps of Eng’rs, 382 F. Supp. 2d 1301, 1328
(N.D. Ala. 2005) (rejecting a similar argument for an

130a
earlier version of the venue statute). Defendants’ argument hinges on the assumption that, because Section
1391(c) refers to only three categories of litigants and
because a state is neither a natural person nor a nonresident, a state must necessarily be “an entity” for purposes of the venue statute. There are, however, several issues with that assumption.
First, the statute explicitly refers to an entity’s incorporation status, indicating “that the term [entity] refers
to some organization, not a state.”
California,
911 F.3d at 570. The legislative history confirms that
Congress was contemplating “unincorporated associations, such as partnerships and labor unions, and other
entities with capacity to sue in their common name,”
when it defined the residency of unincorporated entities
in Section 1391(c). H.R. Rep. No. 112-10, at 21 (2011).
There is no indication, however, that Congress intended
for that provision to dictate the residency of sovereign
States by equating a State with an “unincorporated association[]” like a labor union.
Second, Congress explicitly distinguishes between
States and entities within Section 1391.
Compare
28 U.S.C. § 1391(c) (defining the residency of an “entity”), with id. at § 1391(d) (“Residency of corporations
in States with multiple districts”). “Where Congress
includes particular language in one section of a statute
but omits it in another section of the same Act, it is generally presumed that Congress acts intentionally and
purposely in the disparate inclusion or exclusion.”
Russello v. United States, 464 U.S. 16, 23 (1983) (internal quotation marks and citations omitted). Thus,
courts typically “refrain from concluding . . . that
the differing language in [] two subsections [of a statute]

131a
has the same meaning in each.” Id. Here, Congress’s
differentiation between “an entity” and “States” within
Section 1391 indicates that Congress did not intend to
include the latter within the definition of the former.
Finally, reading Section 1391 as Defendants suggest
would yield an absurd result. As several courts have
observed, an interpretation that “limit[s] residency to a
single district in the state would defy common sense,”
because “[a] state is ubiquitous throughout its sovereign
borders.”
California, 911 F.3d at 570; Alabama,
382 F. Supp. 2d at 1329 (“[C]ommon sense dictates that
a state resides throughout its sovereign borders”). 14
Thus, the Court will follow the lead of the Ninth Circuit in concluding that “the statute . . . dictates that
a state with multiple judicial districts ‘resides’ in every
district within its borders.” California, 911 F.3d at
570. Venue is therefore proper in the Eastern District
of Pennsylvania. 15
The unreported district court cases that Defendants rely upon
are not to the contrary. See Gaskin v. Pennsylvania, 1995 WL
154801, at *1 (E.D. Pa. Mar. 30, 1995); Bentley v. Ellam, 1990 WL
63734, at *1 (E.D. Pa. May 8, 1990). Both Gaskin and Bentley discuss the residency of state agencies or officials, which is different in
kind from the residency of a sovereign State itself.
15
Section 1391(e) also provides that venue is proper in a civil action
against an officer of the United States, where “a substantial part of
the events or omissions giving rise to the claim occurred.” 28 U.S.C.
§ 1391(e). Because the Court finds Pennsylvania resides throughout
the State, it need not address the States’ alternative argument that
venue is proper because “a substantial part of the events” giving rise
to their claim occurred here.
Relatedly, New Jersey’s residency does not bear on the question of because “in an action against the federal government or an
agent thereof [t]here is no requirement that all plaintiffs reside in
14

132a
C.

Preliminary Injunction

Because the States have established standing to
bring their claims into federal court and that this is a
proper venue to hear those claims, the Court now turns
to the merits of the preliminary injunction motion.
1.

Legal Standard

A preliminary injunction is an extraordinary remedy;
it “should be granted only in limited circumstances.”
American Tel. & Tel. Co. v. Winback & Conserve Program, Inc., 42 F.3d 1421, 1426-27 (3d Cir. 1994). “A
plaintiff seeking a preliminary injunction must establish
that he is likely to succeed on the merits, that he is likely
to suffer irreparable harm in the absence of preliminary
relief, that the balance of equities tips in his favor, and
that an injunction is in the public interest.” Winter v.
NRDC, 555 U.S. 7, 20 (2008). The first two are the
“most critical factors: [a movant] must demonstrate
that it can win on the merits (which requires a showing
significantly better than negligible but not necessarily
more likely than not) and that it is more likely than not
to suffer irreparable harm in the absence of preliminary
relief.” Reilly v. City of Harrisburg, 858 F.3d 173, 179
(3d Cir. 2017), as amended (June 26, 2017) (internal quotation marks omitted). “If these gateway factors are
met, a court then considers the remaining two factors
and determines in its sound discretion if all four factors,
taken together, balance in favor of granting the requested preliminary relief.” Id.
the forum district.” Exxon Corp. v. FTC, 588 F.2d 895, 899-90 (3d
Cir. 1978); Superior Oil Co. v. Andrus, 656 F.2d 33, 37 n.7 (3d Cir.
1981) (“[O]nly one plaintiff need satisfy the residency requirement
of [Section 1391(e)].”).

133a
2.

Likelihood of Success on the Merits

In demonstrating the likelihood of success on the
merits, a plaintiff need not show that it is more likely
than not that it will succeed. Singer Mgmt. Consultants, Inc. v. Milgram, 650 F.3d 223, 229 (3d Cir. 2011)
(en banc). Instead, all a plaintiff must show is “a likelihood of success on the merits (that is, a reasonable
chance, or probability, of winning) to be granted relief.”
Id. (emphasis in original).
a.

APA Procedural Claim

The States argue that the Final Rules should be enjoined because Defendants failed to comply with the
procedural requirements of the APA.
The APA generally requires that, when promulgating regulations, administrative agencies meet a set of
procedural requirements, called notice-and-comment
rulemaking. See 5 U.S.C. § 553. Agencies must: issue a general notice of proposed rulemaking, see id. at
§ 553(b); “give interested persons an opportunity to participate in the rule making through submission of written data, views or arguments . . . ” id. at § 553(c);
and, “[a]fter consideration of the relevant matter presented, . . . incorporate in the rules adopted a concise general statement of their basis and purpose,” id.
Notice-and-comment rulemaking serves two distinct
purposes—it both “give[s] the public an opportunity to
participate in the rule-making process,” and “enables
the agency promulgating the rule to educate itself before establishing rules and procedures which have a substantial impact on those regulated.” Texaco, Inc. v.
Fed. Power Comm’n, 412 F.2d 740, 744 (3d Cir. 1969).

134a
Nevertheless, there are limited exceptions to the requirement that all rules be issued pursuant to noticeand-comment rulemaking, such as when an agency
has “good cause” to forgo the strictures of notice-andcomment rulemaking, 5 U.S.C. § 553(b), or when a subsequent act of Congress abrogates the APA’s procedural requirements, id. at § 559.
In issuing the IFRs, the Agencies failed to meet the
various requirements of notice-and-comment rulemaking. See Pennsylvania, 281 F. Supp. 3d at 570. Defendants argued, however, that the IFRs were not procedurally invalid because they fell under one (or more)
of the limited exceptions to notice-and-comment rulemaking. Id. at 571. The Court found otherwise and
enjoined the IFRs for violating the procedural strictures of Section 553. Id. at 576; see also California,
281 F. Supp. 3d at 829 (enjoining the IFRs for violating
the procedural requirements of the APA), aff ’d in part,
vacated in part, California, 911 F.3d at 575 (upholding
the conclusion that the IFRs violated the APA).
While Defendants continue to maintain that the IFRs
were procedurally valid, 16 they now argue that, even
assuming the IFRs were procedurally improper, the
subsequent action taken by the Agencies in promulgating the Final Rules satisfied notice-and-comment requirements, and thus the Final Rules comply with the
The Court, for the reasons stated in its prior opinion, again
finds the Agencies’ position unpersuasive, see Pennsylvania,
281 F. Supp. 3d at 570, and therefore declines Defendants’ invitation to revisit its prior holding. See Hayman Cash Register Co. v.
Sarokin, 669 F.2d 162, 165 (3d Cir. 1982) (“Under the law of the case
doctrine, once an issue is decided, it will not be relitigated in the
same case, except in unusual circumstances.”).
16

135a
APA. The States’ response is two-fold. First, they
argue that the Agencies notice-and-comment procedures fell short of the APA’s requirements because the
Agencies did not adequately respond to significant comments in their statement of the basis and purpose of the
Final Rules. Second, the States contend that, no matter the Agencies’ subsequent actions, the procedural defects that characterized the issuance of the IFRs fatally
taint the Final Rules. These arguments are considered
seriatim.
i.

Inadequate Response to Comments

The States argue that the Agencies’ issuance of the
Final Rules failed to meet the requirements of noticeand-comment rulemaking by not responding to all “vital
questions[] raised by comments which are of cogent materiality.” United States v. Nova Scotia Food Prod.
Corp., 568 F.2d 240, 252 (2d Cir. 1977). The APA requires federal agencies to “consider and respond to significant comments received during the period for public
comment.” Perez v. Mortg. Bankers Ass’n, 135 S. Ct.
1199, 1203 (2015). The requirement, however, is not
“particularly demanding.” Nazareth Hosp. v. Sec’y
U.S. Dep’t of Health & Human Servs., 747 F.3d 172, 185
(3d Cir. 2014) (quoting Pub. Citizen, Inc. v. FAA,
988 F.2d 186, 197 (D.C. Cir. 1993)). All that is required
is a response that “ ‘demonstrates that the [agency] considered and rejected’ the arguments.” Id. (quoting Covad Commc’ns Co. v. FCC, 450 F.3d 528, 550 (D.C. Cir.
2006)).
The States contend that the Agencies failed to clear
this relatively low bar, pointing to several examples of
comments that purportedly received an inadequate response: comments that discuss the scientific evidence

136a
of the harm to the health and economic security of women
that would result from the Final Rules, 83 Fed. Reg. at
57,555-56; comments that assert the broad religious and
moral exemptions will cause women to lose contraceptive coverage, id. at 57,548-49; comments that argue the
exemptions violate the ACA prohibition on regulations
that create barriers to medical care, id. at 57,551-52;
and, specifically, a comment submitted by various States
—including Pennsylvania and New Jersey—regarding
the medical risks associated with pregnancy, id. at
57,555.
For each example, however, a review of the Final
Rules demonstrates that the Agencies acknowledged
the comments and provided an explanation as to why the
Agencies did (or did not) amend the Final Rules based
on the comment. See 83 Fed. Reg. at 57,548, 57,551,
57,555. While the Agencies’ explanations are not always the picture of clarity, they meet the not “particularly demanding” requirement, Nazareth Hosp.,
747 F.3d at 185, that the Agencies “consider and respond
to significant comments received during the period for
public comment,” Perez, 135 S. Ct. at 1203. Put differently, the Final Rules “demonstrate [to a commenter]
that the [the Agencies] considered and rejected, the arguments” put forth by a commenter, which is “all that
the [APA] requires.” Nazareth Hosp., 747 F.3d at 185
(internal quotation marks omitted).
Thus, the States are unlikely to succeed on the merits
of their argument that, in promulgating the Final Rules,

137a
the Agencies’ actions failed to meet the requirements of
notice-and-comment rulemaking. 17
ii.

IFRs Taint the Final Rules

The States maintain that, even if the Agencies complied with the requirements of notice-and-comment
rulemaking in promulgating the Final Rules, the failure
to do so in promulgating the IFRs fatally infected the
process such that the Final Rules should also be held invalid.
Generally, “the period for comments after promulgation cannot substitute for the prior notice and comment
required by the APA.” Sharon Steel. Corp. v. EPA,
597 F.2d 377, 381 (3d Cir. 1979). The Circuit courts
however, diverge on the procedural validity of a final
rule that follows an IFR promulgated in a procedurally
flawed manner—that is, the question of whether a “procedural defect that taints the original, interim-final rule
carr[ies] over to the succeeding final rule.” Kristin E.
Hickman & Mark Thomson, Open Minds and Harmless
Errors: Judicial Review of Postpromulgation Notice
and Comment, 101 Cornell L. Rev. 261, 267 (2016) (discussing various approaches taken by the Circuit courts);
compare Salman Ranch, Ltd. v. Comm’r, 647 F.3d 929,
940 (10th Cir. 2011) (“While the . . . temporary regulations were issued without notice and comment, now
that the regulations have issued in final form [after notice and comment], these arguments are moot . . . ”)
(internal quotation marks omitted), rev’d on other
The States’ argument is limited to the claim that the Agencies
failed to adequately respond to significant comments. The States
do not argue, for example, that the notice provided was inadequate.
See 5 U.S.C. § 552(b).
17

138a
grounds, Salman Ranch, Ltd. v. Comm’r, 566 U.S. 971
(2012), with Air Transp. Ass’n of Am. v. Dep’t of Transp.,
900 F.2d 369, 379 (D.C. Cir. 1990) (“Although we have
suggested that there might be circumstances in which
‘defects in an original notice [could] be cured by an adequate later notice’ and opportunity to comment, we have
emphasized that we could reach such a conclusion only
upon a compelling showing that ‘the agency’s mind remain[ed] open enough at the later stage.’. . . . The
FAA has not come close to overcoming the presumption
of closed-mindedness in this case.”) (quoting McLouth
Steel Prods. Corp. v. Thomas, 838 F.2d 1317, 1323
(D.C. Cir. 1988)), vacated on other grounds, 498 U.S.
1077 (1991). For its part, the Third Circuit has evidenced a deep skepticism towards the curative powers
of post-promulgation notice-and-comment procedures,
see NRDC v. EPA, 683 F.2d 752, 767-68 (3d Cir. 1982);
United States v. Reynolds, 710 F.3d 498, 519 (3d Cir.
2013); accord Sharon Steel. Corp., 597 F.2d at 381, which
warrants a conclusion that the States are likely to succeed on the claim that the procedural faults that characterized the issuance of the IFRs fatally tainted the Final
Rules such that the issuance of the Final Rules violated
the APA.
The Third Circuits’ decision most directly on point is
NRDC v. EPA. There, the NRDC challenged EPA action that indefinitely postponed the effective date of certain Clean Water Act amendments. NRDC, 683 F.2d
at 757. The EPA did not engage in notice-and-comment

139a
procedures before acting to postpone the implementation of the amendments. 18 Id. at 756. After NRDC initiated litigation challenging the agency’s action, the
EPA issued a notice of proposed rulemaking, seeking
comments on whether the agency should issue a rule further postponing the effective date. Id. at 757. After
going through notice-and-comment procedures, the
EPA then issued a final rule implementing some of the
amendments, while further postponing the most controversial bits. Id. Nevertheless, NRDC maintained its
challenge to the EPA’s initial action to postpone the effective date. The Third Circuit rejected the EPA’s argument that its notice-and-comment procedures after
the initial action to postpone “cured” any failure to engage in such procedures before the initial action, and
held the initial action postponing the effective date was
procedurally invalid. Id. at 767.
Critical to this dispute, however, the Third Circuit
further held that, even though the NRDC did not challenge the final rule—that is, the rule promulgated following notice-and-comment procedures—the final rule
“was likewise invalid.” Id. at 768. The court of appeals
explained that the appropriate remedy for the EPA’s
failure to engage in notice-and-comment rulemaking before taking its initial action required holding both the initial action and the subsequent, final rule “ineffective.”
Id. at 767.
EPA’s notice-and-comment procedures
The EPA argued that the initial action to postpone was not a
“rule” under the APA, and thus did not require notice-and-comment
procedures. NRDC, 683 F.2d at 761. The Third Circuit rejected
that argument, holding the EPA’s action postponing the effective
date qualified as a rule, requiring notice-and-comment procedures.
Id.
18

140a
“could not serve as the procedural mechanism” for the
final rule because “that rulemaking [could not] replace
one on the question of whether the amendments should
be postponed in the first place.” Id. That is, if the
EPA had engaged in notice-and-comment procedures
before initially acting to postpone the effective date,
then “the question to be decided in the [subsequent]
rulemaking”—the rulemaking that complied with
notice-and-comment procedures—“would have been
whether the amendments . . . should be suspended,
and not whether they should be further postponed.”
Id. The Third Circuit warned that:
To allow the APA procedures in connection with the
further postponement to substitute for APA procedures in connection with an initial postponement
would allow EPA to substitute post-promulgation notice and comment procedures for pre-promulgation
notice and comment procedures at any time by taking
an action without complying with the APA, and then
establishing a notice and comment procedure on the
question of whether that action should be continued.
. . . We cannot countenance such a result.
Id.
That reasoning applies with equal force here. The
Agencies issued the IFRs without engaging in noticeand-comment rulemaking. As in NRDC, the issuance
of the procedurally defective IFRs fundamentally
changed the “question to be decided in the [subsequent]
rulemaking”—instead of asking whether substantial expansions to the exemption and accommodation should be
made at all, the Agencies solicited comments on whether
those changes should be finalized. Thus, the subsequent “rulemaking on [finalizing the IFRs] could not

141a
serve as the procedural mechanism,” for the Final Rules
because “that rulemaking [could not] replace one on the
question of whether” the Agencies should broaden the existing exemption and accommodation “in the first place.”
Id. The Agencies are, in essence, engaging in precisely
the behavior that the Third Circuit warned against in
NRDC: “substitute[ing] post-promulgation notice and
comment procedures for pre-promulgation notice and
comment procedures . . . by taking an action without complying with the APA, and then establishing a notice and comment procedure on the question of whether
that action should be continued.” Id. The Court, like
the Third Circuit, “cannot countenance such a result.”
Id.
Defendants and Defendant-Intervenor advance several arguments to the contrary, none of which are ultimately persuasive. For one, Defendants argue that
NRDC is not on all fours with this case and so “provides
no support for the Plaintiffs’ procedural challenge.”
Defendants are correct that NRDC differs factually
from the case at hand: there the NRDC challenged
only the initial action, here the States challenged both
the IFRs and the Final Rules. But, even though the
plaintiff did not challenge the final rule in NRDC, the
Third Circuit held both the initial action to postpone and
the subsequent rule procedurally invalid. In reaching
that determination, the Third Circuit rejected the notion
—advanced by the Agencies here—that subsequent
notice-and-comment rulemaking procedures “cured”
the failure to engage in such procedures “in the first
place.” Id. at 767-78. Both the holding and the reasoning given for that holding are binding on this Court.
See Tate v. Showboat Marina Casino P’ship, 431 F.3d
580, 582 (7th Cir. 2005) (Posner, J.) (“[T]he holding of a

142a
case includes, besides the fact and the outcome, the reasoning essential to that outcome.”); see also IFC Interconsult, AG v. Safeguard Int’l Partners, LLC, 438 F.3d
298, 311 (3d Cir. 2006) (quoting Judge Posner’s definition approvingly). Because the Third Circuit’s reasoning invalidating the subsequent rule was essential to the
holding, and because that reasoning applies with equal
force to the promulgation of the Final Rules, that reasoning controls here.
Next, Defendants argue that the States suffered no
procedural injury because they had an opportunity to
submit a comment in response to the IFRs, an opportunity that the States “admit” to taking advantage of.
The problem for Defendants is that the EPA made the
exact argument to the Third Circuit in NRDC, which the
court of appeals flatly rejected. NRDC, 683 F.2d at
768. As the Third Circuit explained, it did not matter
that “notice and comment were provided in connection
with the proposal that the amendments be further postponed, and NRDC was able to make all of the arguments
in connection with the further postponement that
NRDC would have made in connection with the initial
postponement.” Id. The problem was that the initial,
procedurally defective action fundamentally changed
the question to be presented in the subsequent rulemaking, prejudicing NRDC, which “ ‘must come hat-in-hand
and run the risk that the decisionmaker is likely to resist
change.’ ” Id. at 768 (quoting Sharon Steel, 597 F.2d at
381). Here, the procedurally invalid IFRs similarly
changed the question to be presented in the subsequent
rulemaking, prejudicing the States’ ability to have their
comments heard by an impartial decisionmaker. Cf.
Wagner Elec. Corp. v. Volpe, 466 F.2d 1013, 1020 (3d Cir.

143a
1972) (“Section [553(b)] of the [APA] requires notice before rulemaking, not after. The right of interested persons to petition for the issuance, amendment or repeal
of a rule, granted in [5 U.S.C. § 553(e)], is neither a substitute for nor an alternative to compliance with the
mandatory notice requirements of [5 U.S.C. § 553(b)].”)
(emphasis in original).
Defendant-Intervenor’s attempt to distinguish away
the reasoning of NRDC fares no better. It argues the
court of appeals’ reasoning does not control because,
while “unique circumstances” existed in NRDC “to establish prejudice,” no such circumstances are present
here. Specifically, Defendant-Intervenor argues that
the Third Circuit invalidated the final rule in NRDC because of the “asymmetry between using an interim rule
to repeal a rule promulgated with prior notice and comment,” whereas, here, the Final Rules are not “an abrupt change in federal policy” because the Final Rules
do not rescind the Contraceptive Mandate. According
to Defendant-Intervenor, that makes this case “readily
distinguishable from NRDC.”
The argument is premised on a misreading of NRDC.
The Third Circuit did not invalidate the EPA action because of the degree of change affected by the procedurally invalid action. Rather, it held that the subsequent
notice-and-comment rulemaking “[could not] replace [a
rulemaking] on the question of whether the amendments should be postponed in the first place.” NRDC,
683 F.2d at 768. More fundamentally, the court of appeals did not rest its decision on the existence of any
“unique circumstances,” as Defendant-Intervenor suggests. Instead, the Third Circuit voiced a general admonition against the practice of using post-promulgation

144a
procedures to cure pre-promulgation procedural flaws.
Id. As discussed, the reasoning underpinning that warning informs the result here.
Defendant-Intervenor also advances an altogether
different argument. It points out that the Agencies “created the [Contraceptive] Mandate via a series of IFRs
without notice and comment,” suggesting that the Final
Rules are procedurally valid because the Agencies followed similar procedures in the past. The Court rejected a version of this argument last go around. See
Pennsylvania, 281 F. Supp. 3d at 573 n.8. Whether a
party could have brought a successful challenge to the
procedures followed in the past is not before the Court—
what is at issue here is whether the procedures the
Agencies followed in issuing the Final Rules violated the
APA. Id. (explaining that the IFRs were “not identical
to prior regulations” because “they make significant
changes in the law, and the Supreme Court did not require immediate action”). The same flawed reasoning
characterizes Defendant-Intervenor’s related argument
that invalidating the Final Rules would “cast a pall on
thousands of regulations,” because, according to the Government Accountability Office, 35% of all major rules
were finalized with post-IFR notice-and-comment procedures. Obviously, those regulations are not currently before this Court, and, accordingly, the Court is
not asked—and thus, cannot decide—whether the specific procedures employed in promulgating those regulations were defective.
The States are likely to prevail on their claim that the
issuance of the Final Rules violated the procedural requirements of the APA in that the procedural defect that
characterized the IFRs fatally tainted the issuance of

145a
the Final Rules. That is so, regardless of whether the
procedure followed by the Agencies in the Final Rules
may otherwise meet the requirements of notice-andcomment rulemaking. 19

As noted, other courts of appeals employ other approaches when
evaluating whether a procedural defect in an interim-rule fatally infects a final rule issued after notice-and-comment procedures are
followed—one example being the “open mind” approach. See, e.g.,
Air Transp. Ass’n of Am., 900 F.2d at 379 (employing the “open mind
standard”). While it has never adopted this approach, the Third
Circuit in Reynolds indicated that whether a promulgating agency
“maintained a flexible and open-minded attitude towards” an interim
rule is a relevant consideration in determining whether an APA violation occurred generally. 710 F.3d at 519.
19

Even under the more flexible “open mind standard,” however, the
States would likely succeed on the merits of their procedural claim.
As the D.C. Circuit has explained, while “defects in an original notice
could be cured by an adequate later notice and opportunity to comment,” the remedial measures cure the earlier lapses only if the
promulgating agency makes “a compelling showing that the agency’s
mind remained open enough at the later stage.” Air Transp. Ass’n
of Am., 900 F.2d at 379 (internal quotation marks omitted). That
is, “it is the agency’s burden to persuade the court that it has accorded the comments a full and fair hearing.” Advocates for Highway & Auto Safety v. Fed. Highway Admin., 28 F.3d 1288, 1292
(D.C. Cir. 1994). Courts that use this approach have established
that an agency can demonstrate open-mindedness by making
changes to a final rule in response to public comments, or giving
careful consideration to comments submitted in response to a proposed rule. Air Transp. Ass’n of Am., 900 F.2d at 380; see also Advocates for Highway & Auto Safety, 28 F.3d at 1292.
Here, the Agencies have not made a “compelling showing” that they
kept an open mind at the later stages of the rulemaking process.
Most notably, while the Agencies made some changes to the Final
Rules based on public comments, those rules were largely “non-

146a
b.

APA Substantive Claim

The States also contend that the Final Rules violate
the substantive requirements of the APA. As the
Court has previously noted, the breadth of the exemptions set out in the IFRs, and now the Final Rules, is
remarkable. The Final Religious Exemption allows all
non-profit and for-profit entities, whether closely held
or publicly traded, to deny contraceptive coverage based
on sincerely held religious beliefs. The Final Moral
Exemption allows any non-profit or for-profit organization that is not publicly traded to deny contraceptive
coverage for its employees for any sincerely held moral
conviction.
The APA’s substantive requirements command that
an administrative rule must be set aside if it is “arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law,” or “in excess of statutory
jurisdiction, authority, or limitations, or short of statutory right.” 5 U.S.C. § 706(2)(A), (C). “It is well settled that an agency may only act within the authority
granted to it by statute.” NRDC v. Nat’l Highway
Traffic Safety Admin., 894 F.3d 95, 108 (2d Cir. 2018).
Because “administrative agencies may act only pursuant
to authority delegated to them by Congress,” an agency
substantial technical revisions,” 83 Fed. Reg. at 57,567, that Defendants concede “do not alter the fundamental substance of the exemptions set forth in the IFRs.” Indeed, the Final Rules and the preambles that accompany them “demonstrate[] a single-minded commitment to the substantive result reached,” Reynolds, 710 F.3d at
519—to wit, expanding the exemption and accommodation. Because the Agencies’ actions indicate closed-mindedness on “the very
subject matter about which [they] w[ere] to keep an ‘open mind,’ ”
id., the States would likely prevail on their procedural claim even
under the more lenient open mind standard.

147a
must “point to something” in a statute that “gives it the
authority” to take the specific action at issue. Clean
Air Council v. Pruitt, 862 F.3d 1, 9 (D.C. Cir. 2017) (internal quotation marks omitted).
Defendants cite two potential fonts of statutory authority to issue the Final Rules. First, they assert that
the ACA includes a broad delegation of authority to the
Agencies, permitting them to issue the Final Rules.
Second, with specific regard to the Religious Exemption, Defendants assert that RFRA not only authorizes
the Agencies to create a religious exemption to the Contraceptive Mandate, but in fact requires that the Agencies issue the broad exemption contained within the Final Religious Exemption.
As explained below, both arguments fail. The Final
Rules—just as the IFRs before them—exceed the scope
of the Agencies’ authority under the ACA, and, further,
cannot be justified under RFRA. As a result, the Final
Rules must be set aside. 20
i.

The ACA

To reiterate for purposes of clarity, the ACA requires
that group health plans and insurance issuers “shall, at
a minimum provide coverage for and shall not impose
any cost sharing requirements for— . . . with respect to women, such additional preventive care and
screenings . . . as provided for in comprehensive
Defendants argue that any finding that they lack statutory authority to enact the Final Rules necessarily calls into doubt their
ability to enact the 2011 religious exemption, which extended to religious entities such as churches and their auxiliaries. Whatever
the merits of that argument, the 2011 religious exemption is not before this Court.
20

148a
guidelines supported by [HRSA].” 42 U.S.C. § 300gg13(a). It is uncontroverted here that, pursuant to this
provision, HRSA has—and by extension the Agencies
have—the delegated authority to define what “preventive care” is; that in 2011, HRSA issued guidelines defining “preventive care” to include contraceptives; and
that the Final Rules do not purport to remove contraceptives from the coverage mandate. 83 Fed Reg. at
57,537. In light of these provisions, what must be provided under the ACA’s “preventive care” requirement is
clear—all FDA-approved “contraceptive methods, sterilization procedures, and patient education and counseling,” 77 Fed. Reg. at 8,725—as is who must provide it—
any “group health plan” or “health insurance issuer offering group or individual health insurance coverage,”
42 U.S.C. § 300gg-13(a).
The Agencies, however, contend that the authority to
define what preventive care will be covered includes a
congressional delegation of authority to carve out exceptions to who must provide preventive coverage. More
specifically, Defendants argue that the Women’s Health
Amendment necessarily grants them the authority to
exempt employers and healthcare plan sponsors from
the coverage requirement, based on religious or moral
objections to the Mandate. Thus, the precise question
at issue is whether the ACA permits the Agencies to develop the exemptions set forth in the Final Rules.
When the scope of the authority delegated to an
agency is challenged, that challenge is generally addressed under the analytical framework prescribed by
Chevron, U.S.A., Inc. v. NRDC, 467 U.S. 837 (1984).
That is because, “[n]o matter how it is framed, the ques-

149a
tion a court faces when confronted with an agency’s interpretation of a statute it administers is always, simply,
whether the agency has stayed within the bounds of its
statutory authority.” City of Arlington v. FCC, 569
U.S. 290, 297 (2013) (emphasis removed); see also Am.
Farm Bureau Fed’n v. EPA, 792 F.3d 281, 295 (3d Cir.
2015) (applying Chevron framework to resolve “[w]hether
an [agency] interpretation falls within the scope of authority that Congress has delegated”) (internal punctuation omitted).
There are two steps to the Chevron analysis. Step
One asks “whether Congress has directly spoken to the
precise question at issue.” Chevron, 467 U.S. at 842.
“If the intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of Congress.” Id. at 842-43. But, “[i]f the statute is ambiguous on the point,” Step Two requires “defer[ence]
. . . to the agency’s interpretation so long as the construction is ‘a reasonable policy choice for the agency to
make.’ ” National Cable & Telecomm. Ass’n v. Brand
X Internet Servs., 545 U.S. 967, 986 (2005) (quoting
Chevron, 467 U.S. at 845).
Here, as noted, the ACA provides that any “group
health plan” or “health insurance issuer offering group
or individual insurance coverage shall, at a minimum
provide coverage for” “preventive care and screenings
. . . as provided for in comprehensive guidelines supported by [HRSA].” 42 U.S.C. § 300gg-13(a) (emphasis added). On its face, the Women’s Health Amendment does not contemplate exceptions or exemptions to
the “preventive care” coverage mandate—much less

150a
delegate authority to the Agencies to create such exemptions. 21 Rather, the statute directs that all specified health plans and insurance issuers “shall” cover
“preventive care,” however defined. “Shall” is a mandatory term that “normally creates an obligation impervious to judicial [or agency] discretion.” Lexecon, Inc.
v. Milberg Weiss Bershad Hynes & Lerach, 523 U.S. 26,
35 (1998). Thus, by stating that the specified plans
“shall” provide coverage for “preventive care,” the statute sets forth who is bound by the coverage mandate
(any “group health plan” or “health insurance issuer offering group or individual insurance coverage”), while
delegating to the Agencies the task of defining what
counts as “preventive care.” The statute further underscores the importance of the Contraceptive Mandate, by stipulating that the specified health plans must
provide preventive care coverage “at a minimum” and
without “any cost sharing requirements.”
Nonetheless, the Agencies assert that they hold the
authority to issue the far-reaching exemptions to the
Contraceptive Mandate set out in the Final Rules.
They argue that the statement “as provided for in comprehensive guidelines supported by [HRSA]” contemplates a broad delegation of authority, that permits the
Agencies not only to define preventive care, but also the
manner and reach of “preventive care” coverage.

As discussed further infra, the ACA, in sections outside the
Women’s Health Amendment, does provide one very specific exception to its broader coverage mandate, for grandfathered health
plans. See 42 U.S.C. § 18011. The ACA insurance requirements
also do not apply to employers with fewer than 50 employees. See
26 U.S.C. § 4980H(c)(2).
21

151a
42 U.S.C. § 300gg-13(a). Effectively, the Agencies’ argument is that the statute authorizes them to carve out,
contrary to the express remits of the statute, categories
of entities who need not provide preventive care coverage. But such a grant of authority is inconsistent with
the statute’s text. Congress has already answered who
must provide preventive care coverage: any “group
health plan” or “health insurance issuer offering group
or individual insurance coverage.”
To permit the
Agencies to disrupt this mandate contradicts the plain
command of the text.
There are further textual reasons to doubt that the
phrase “as provided for in comprehensive guidelines
supported by [HRSA]” permits such an extensive delegation. True enough, the statute speaks to “comprehensive guidelines,” which suggests a broad scope.
But the delicate term support undermines this contention: it strains credulity to say that by granting HRSA
the authority to “support” guidelines on “preventive care,”
Congress necessarily delegated to HRSA the authority
to subvert the “preventive care” coverage mandate
through the blanket exemptions set out in the Final
Rules.
MCI Telecommunications Corp. v. American Telephone & Telegraph Co., 512 U.S. 218 (1994), is instructive. In that case, the Supreme Court rejected an
agency’s assertion of authority—similar to the assertion
here—to create exceptions to statutory requirements.
Id. at 234. There, the statutory scheme at issue required that “[e]very common carrier
. . .
shall
. . . file” tariffs, and also granted the Federal Communications Commission (“FCC”) the authority to

152a
“modify any requirement made by or under the authority of this section.” Id. at 224 (quoting 47 U.S.C. § 203).
The FCC asserted that the grant of authority to “modify” the statutory requirements permitted it to eliminate
the filing requirement for certain entities altogether.
The Supreme Court firmly rejected this view, finding
that the FCC’s authority to “modify” statutory requirements did not allow the FCC to make “basic and fundamental changes” to the command of the statute. Id. at
225. In a passage particularly on point here, the Supreme Court reasoned that “[i]t is highly unlikely that
Congress would leave the determination of whether
an industry will be entirely, or even substantially, rateregulated to agency discretion—and even more unlikely
that it would achieve that through such a subtle device
as permission to ‘modify’ rate-filing requirements.”
Id. at 231.
The logic of M.C.I. compels the conclusion that Congress’s limited delegation to the Agencies does not include authority to create broad exemptions to the Contraceptive Mandate. In M.C.I., the Court held that the
agency could not create exceptions for statutorily mandated filing requirements—despite the fact that, there,
the text explicitly authorized the agency to “modify”
statutory requirements. Here, the statute presents no
authority at all to “modify” or waive statutory requirements. As in M.C.I., if Congress intended to grant the
Agency such broad authority, it has the means available
to it to do so. See Whitman v. Am. Trucking Ass’n,
531 U.S. 457, 468 (2001) (“Congress . . . does not
. . . hide elephants in mouseholes.”).
Defendants argue to the contrary that the text and
structure of the ACA permit the Agencies to issue the

153a
Final Rules, primarily thanks to the use of the word “as”
in the Women’s Health Amendment. They note that
the Women’s Health Amendment follows immediately
after—and differs slightly from—another subsection of
the ACA that speaks to preventive care coverage, for
children. Specifically, the Women’s Health Amendment mandates coverage for “preventive care and
screenings . . . as provided for in comprehensive
guidelines supported by [HRSA],” while the subsection
pertaining to children mandates coverage for “preventive care and screenings provided for in the comprehensive guidelines supported by [HRSA].”
42 U.S.C.
§ 300gg-13(a)(3)-(4) (emphasis added).
Proceeding
from the statutory maxim that statutes “must be interpreted, if possible, to give each word some operative effect,” Walters v. Metro. Educ. Enter., Inc., 519 U.S. 202,
209 (1997), Defendants conclude that the inclusion of the
word “as” in the women’s subsection means that HRSA
may determine not only the services covered by the
ACA, but also the manner or reach of that coverage.
The impact of the word “as” in this instance can be
determined by “look[ing] to dictionary definitions to determine the ordinary meaning of a word,” while bearing
in mind that “statutory language must be read with reference to its statutory context.” Bonkowski v. Oberg
Indus., Inc., 787 F.3d 190, 200 (3d Cir. 2015) (internal
quotation marks omitted). The term “as” in this context could mean “[u]sed in comparisons to refer to the
extent or degree of something,” “[u]sed to indicate that
something happens during the time when something
else is taking place,” or “[u]sed to indicate by comparison the way that something happens or is done.” As,
Oxford English Dictionary Online (January 2018), https://
en.oxforddictionaries.com/definition/as.

154a
Defendants argue for either the first or third of these
definitions, asserting that the “as” here means something like “as you like it.” However, the statutory context indicates that the second definition is the most appropriate. When Congress passed the ACA, HRSA
had already promulgated guidelines defining children’s
preventive care. HRSA had not yet promulgated such
guidelines for women’s preventive care. Thus, the
ACA requires coverage “provided for in the” preexisting
HRSA guidelines for children’s care. The use of the
article “the” demonstrates that Congress referred to
particular, extant guidelines governing children’s preventive care. Giving effect to the use of the word “as”
with regard to the Women’s Health Amendment leads to
the conclusion that Congress used “as” here to indicate
that the HRSA guidelines would be forthcoming, i.e. in
anticipation of HRSA issuing guidelines—not to the conclusion that the ACA implicitly provides the Agencies
with the authority to create exemptions.
Further, even if the word “as” is read to “indicate by
comparison” the “extent,” “degree” or “way” the Agencies may promulgate guidelines, that definition does
not help Defendants, for the following reason. The
most natural comparison available in the statute—as
Defendants recognize—would be to the pre-ACA children’s health preventive services guidelines. And comparing the children’s guidelines to the women’s guidelines ultimately undermines Defendants’ reading of the
statute. That is because the children’s guidelines simply
define a list of “preventive care” services—that is, what
must be covered. See HHS, Preventive Care Benefits
for Children, available at https://www.healthcare.gov/
preventive-care-children. They do not include any ex-

155a
emptions to that coverage; indeed, the children’s guidelines do not speak at all to who must provide that coverage. And that makes sense because Congress already
defined the who: any “group health plan” or “health
insurance issuer offering group or individual insurance
coverage”—the same plans that “shall” cover women’s
preventive services without cost sharing. Thus if Congress employed “as” here to create a comparison to the
children’s care guidelines, then Congress assuredly did
not intend to permit HRSA to craft exemptions to the
types of preventive care that would be required. Rather, Congress intended that HRSA would create a parallel set of guidelines, setting forth the types of “preventive care” to be covered, without exception.
The conclusion that the Women’s Health Amendment
does not grant HRSA the power to create exemptions is
bolstered by other provisions of the ACA. Congress
created only a single exemption from the ACA’s statutory mandate to cover women’s preventive care, for
“grandfathered health plans.” 42 U.S.C. § 18011(e)(3).
In accordance with the expressio unius est exclusio alterius principle, “[w]hen Congress provides exceptions
in a statute . . . [t]he proper inference . . . is that
Congress considered the issue of exceptions and, in the
end, limited the statute to the ones set forth.” United
States v. Johnson, 529 U.S. 53, 58 (2000). The fact that
there is no religious or moral exemption in the explicit
text of the statute, while there is an exemption for grandfathered health plans, militates against finding that
Congress authorized the Agencies to create any additional exemptions. Indeed, that interpretation is supported by the legislative history, given that, in 2012,
Congress explicitly rejected an attempt to add to the
ACA an exemption similar to that contained in the Final

156a
Rules. See 158 Cong. Rec. S1165 (Mar. 1, 2012); see
also Food & Drug Admin. v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 147 (2000) (rejection of an
agency’s interpretation by Congress is a factor courts
consider when determining the meaning of a statute).
For these reasons, the ACA prohibits HRSA from exempting entities from providing such coverage as set
forth in the Final Rules. Accordingly, the Final Rules
violate the APA and fail at Chevron’s Step One.
ii.

RFRA

Defendants argue that, even if the ACA does not
grant the Agencies authority to issue the Final Rules,
RFRA independently enables the Agencies to issue the
Final Religious Exemption. 22 They assert that the Contraceptive Mandate cannot be brought into accord with
RFRA by anything less that the provisions contained in
the Final Religious Exemption, and that, as such, RFRA
“required” the promulgation of the rule. But it is the
courts, not the Agencies, that determine RFRA’s reach.
And the Final Religious Exemption goes far beyond
RFRA’s command.
Congress enacted RFRA in 1993 following the Supreme Court’s decision in Employment Div., Dep’t of
Human Resources of Ore. v. Smith, 494 U.S. 872 (1990).

It should be noted at the outset that Defendants specifically do
not propound this argument with respect to the Final Moral Exemption. Nor could they. RFRA protects a person’s “exercise of religion,” and does not speak to broader moral convictions. 42 U.S.C.
§ 2000bb-1(a). Thus, because neither the ACA nor RFRA grant the
Agencies the authority for it, the Final Moral Exemption must be
invalidated.
22

157a
In Smith, the Supreme Court held that “the Constitution does not require judges to engage in a case-by-case
assessment of the religious burdens imposed by facially
constitutional laws,” and thus strict scrutiny did not apply to Free Exercise challenges to laws of general applicability. Gonzales v. O Centro Espirita Beneficente
Uniao do Vegetal, 546 U.S. 418, 424 (2000). Prior to
Smith, in decisions such as Sherbert v. Verner, 374 U.S.
398 (1963), courts employed “a balancing test that took
into account whether the challenged action imposed a
substantial burden on the practice of religion, and if it
did, whether it was needed to serve a compelling government interest,” Hobby Lobby, 134 S. Ct. at 2760.
With RFRA, Congress sought to restore the pre-Smith
judicial standard. See 42 U.S.C. § 2000bb(b)(1) (stating that a purpose of the statute is “to restore the compelling interest test as set forth in Sherbert v. Verner,
374 U.S. 398 (1963) and Wisconsin v. Yoder, 406 U.S. 205
(1972) and to guarantee its application in all cases where
free exercise of religion is substantially burdened”); see
also Gonzales, 546 at 424, 430-31.
In accordance with this goal, RFRA provides that the
“Government shall not substantially burden a person’s
exercise of religion even if the burden results from a rule
of general applicability,” unless “it demonstrates that
application of the burden to the person—(1) is in furtherance of a compelling governmental interest; and (2) is
the least restrictive means of furthering that compelling
governmental interest.” 42 U.S.C. § 2000bb-1(a)-(b).
Accordingly, RFRA has two components. First, the
government is prohibited from placing a substantial burden on religious exercise. If government action does not
impose a substantial burden on religion, then RFRA is

158a
not implicated. However, if it does, the government action must be struck down unless it is the least restrictive
means of furthering a compelling interest.
Despite Defendants’ contention that the Agencies
may determine what RFRA demands with respect to the
ACA, RFRA provides, to the contrary, that it is the
courts that are charged with determining RFRA’s application. RFRA “explicitly provides a private cause of
action,” Mack v. Warden Loretto FCI, 839 F.3d 286, 301
(3d Cir. 2016), which permits an aggrieved individual to
obtain “Judicial Relief,” and contemplates them doing so
in a “judicial proceeding,” 42 U.S.C. § 2000bb-1(c).
More specifically, RFRA states that, “[a] person whose
religious exercise has been burdened . . . may assert that violation as a claim or defense in a judicial proceeding and obtain appropriate relief against a government.”
Id.
RFRA thus commits to the courts
the task of determining whether generally applicable
laws violate a person’s religious exercise: “RFRA
. . . plainly contemplates that courts would recognize
exceptions—that is how the law works. . . . RFRA
makes clear that it is the obligation of the courts to consider whether exceptions are required under the test set
forth by Congress.” Gonzales, 546 U.S. at 434 (emphasis in original).
Nevertheless, the Agencies contend that they are independently required to assess how RFRA bears on the
Contraceptive Mandate and that their authority to promulgate the Final Religious Exemption flows from that
obligation. In years past, the Agencies asserted that
the accommodation did not impose a substantial burden
on any entity’s religious exercise and that guaranteeing

159a
cost-free contraceptive coverage did serve several compelling government interests. The Agencies now take
the obverse positions: that the accommodation constitutes a substantial burden on the religious exercise of
objecting employers and that the contraceptive mandate
does not serve “any compelling interest.” Indeed, they
go further—arguing that this new set of views “in itself,
is dispositive,” as a matter of law. In essence, they have
taken on the quintessentially judicial tasks of determining whether the application of the Contraceptive Mandate to objecting entities constitutes a substantial burden, whether any burden was in furtherance of a compelling government interest, and whether the accommodation was the least restrictive means of accomplishing
contraceptive coverage. Having taken on those tasks,
the Agencies—based on their independent assessments
of these legal questions—now claim that RFRA “requires” the Final Religious Exemption.
Their position is unsustainable for a number of reasons, the foremost being that administrative agencies
may not simply formulate a view of a law outside their
particular area of expertise, issue regulations pursuant
to that view, claim that the law requires those regulations, then seek to insulate their legal determination
from judicial scrutiny. It is axiomatic that under our
constitutional system, “[i]t is emphatically the province
and duty of the judicial department to say what the law
is.” Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177
(1803).
Nothing about RFRA warrants departure
from this general maxim. To the contrary, RFRA specifically provides only for “Judicial Relief,” 42 U.S.C.A.
§ 2000bb-1(c), thereby committing interpretative authority to the courts—not to agencies. See Gonzales,
546 U.S. at 434; see also Real Alternatives, Inc. v. Sec’y

160a
Dep’t of Health & Human Servs., 867 F.3d 338, 356 (3d
Cir. 2017) (“[I]t is for the reviewing court to determine
whether a burden is ‘substantial.’ ”). Indeed, in the
Hobby Lobby decision, the Supreme Court found that
agency action violated RFRA, without ever suggesting
that the agency’s interpretation was entitled to deference. See Hobby Lobby, 134 S. Ct. at 2775-85 (analyzing whether the Contraceptive Mandate violated RFRA,
without discussion of deference to agency view); see also
Thomas W. Merrill, Step Zero After City of Arlington,
83 Fordham L. Rev. 753, 759 (2014) (“[T]he [Supreme]
Court has never suggested that trans-substantive statutes like the Administrative Procedure Act (APA) or the
Religious Freedom Restoration Act (RFRA) should be
interpreted by giving deference to agency interpretations.”).
Nevertheless, Defendants cast their new legal contentions as reasonable policy decisions within their ambit of expertise. Of course, where a statute leaves gaps
for an agency to fill, the agency may change its interpretation so long as it provides a “reasoned explanation
for the change.” Encino Motorcars, LLC v. Navarro,
136 S. Ct. 2117, 2125 (2016). However, what Defendants attempt to do here is not a change of interpretation
regarding an ambiguous statute they are tasked with administering. Rather, Defendants are baldly asserting—
with respect to a statute that does not explicitly delegate
them any authority—what RFRA “requires.” Defendants have no expertise in administering RFRA. See
Gonzales, 546 U.S. at 434; see also Real Alternatives,
867 F.3d at 356; Iglesia Pentecostal Casa De Dios Para
Las Naciones, Inc. v. Duke, 718 F. App’x 646, 653 (10th
Cir. 2017) (holding that the question of whether a RFRA
violation exists is “a legal determination that Congress

161a
has not exclusively entrusted to” agencies) (internal
quotation marks omitted).
While Defendants may
change course in their legal assessment of what RFRA
commands, this is not the final word. Ultimately, it is
up to the courts to decide.
It is true, as Defendants point out, that there is a
great deal of “legal uncertainty” about RFRA’s precise
application to the Contraceptive Mandate. But on the
specific question presented here—whether RFRA “requires” the Final Religious Exemption—the law is clear.
To set out Defendants’ position in greater detail, yet
another review of Hobby Lobby is in order. There, the
Supreme Court held that “[t]he contraceptive mandate,
as applied to closely held corporations, violates RFRA.”
134 S. Ct. at 2785. The Supreme Court reasoned that
the Contraceptive Mandate imposed a substantial burden on the religious exercise of the plaintiffs—closely
held corporations—and that the burden was not the
least restrictive means of providing contraceptive coverage to women. With specific regard to the least restrictive means element, the Supreme Court explained
that the Agencies had already created a less restrictive
means to both ensure women had contraceptive coverage and reduce the burden on religious objectors: the
accommodation. Id. at 2781-82. As noted, the accommodation allowed eligible religious objectors to notify
their healthcare administrator of their religious objection, and the administrator would then have to provide
the legally required contraceptive services directly to
women covered under the employer’s plan. Because
the accommodation “[did] not impinge on the plaintiffs’
religious belief that providing insurance coverage for
the contraceptives at issue here violates their religion,”

162a
and still accomplished the government’s goal of providing contraceptive coverage, the Supreme Court found
that the Contraceptive Mandate, as applied to the plaintiffs, was not the least restrictive means, and thus violated RFRA. Id. at 2782. Importantly, the Supreme
Court reserved on the question of “whether an approach
of this type complies with RFRA for purposes of all religious claims.” Id. Following Hobby Lobby, in Zubik,
the Supreme Court declined to decide the question of
whether the accommodation itself imposed a substantial
burden on plaintiff nonprofits’ religious exercise; instead, it remanded so that the parties might come to a
resolution on their own, whereby the plaintiffs’ employees could receive contraceptive coverage without the
plaintiffs’ having to submit the form required by the accommodation. 136 S. Ct. at 1559-60.
Based on these rulings, Defendants assert that RFRA
“requires” the Religious Exemption, because their previous attempts to satisfy RFRA with the accommodation
failed. This theory rests on three legal conclusions:
(1) a blanket exemption from the Contraceptive Mandate for religious objectors strays no further than
RFRA demands; (2) the accommodation did not relieve
the substantial burden identified by the Supreme Court
in Hobby Lobby; and, (3) the contraceptive mandate imposes a substantial burden on publicly traded corporations. But each of these views is either incorrect under
the law—as previously determined by precedential
rulings—or a significant extension of existing doctrine.
Accordingly, Defendants have stepped beyond the demands of RFRA, and the Final Religious Exemption
cannot be justified as a “requirement” of RFRA.

163a
As to the first conclusion—that a blanket exemption
for religious objectors goes no further than RFRA
demands—a close read of Hobby Lobby demonstrates
that the Agencies’ conclusion is incorrect. There, the
Supreme Court explained that an exemption akin to the
Final Religious Exemption goes beyond RFRA’s requirements. 134 S. Ct. at 2775 n.30. More specifically, prior to enacting the ACA, Congress had considered but ultimately voted down a ‘conscience amendment,’ which, like the Final Religious Exemption, enabled an employer or insurance provider to deny coverage based on its asserted religious beliefs. Id. The
Hobby Lobby majority concluded it was “reasonable to
believe that” Congress rejected the amendment because
such a “blanket exemption” for religious objectors “extended more broadly than the . . . protections of
RFRA.” Id. That is because “it would not have subjected religious-based objections to the judicial scrutiny
called for by RFRA, in which a court must consider not
only the burden of a requirement on religious adherents,
but also the government’s interest and how narrowly
tailored the requirement is.” Id. Thus, as the Hobby
Lobby Court recognized, the blanket exemption the
Agencies have set forth “extend[s] more broadly than
the . . . protections of RFRA.” Plainly then, RFRA
cannot “require” such a rule, which creates precisely
this blanket exemption.
As to the second conclusion—that the accommodation imposes a substantial burden on the religious exercise of objecting entities—Defendants are incorrect under the law of this circuit. While the Supreme Court
has not resolved this precise issue, Third Circuit authority demonstrates that, contrary to the Agencies’ view,

164a
the accommodation does not impose a substantial burden. See Geneva Coll. v. Sec’y U.S. Dep’t of Health &
Human Servs., 778 F.3d 422, 442 (3d Cir. 2015), vacated
and remanded sub nom. Zubik v. Burwell, 136 S. Ct.
1557 (2016) (per curiam); see also Real Alternatives,
867 F.3d at 356 n.18. The accommodation has been
specifically upheld against a RFRA challenge by the
Third Circuit, first, and directly, in Geneva Coll.,
778 F.3d at 442, and second, by implication, in Real Alternatives, 867 F.3d at 356 n.18. Defendants argue
that Geneva is no longer good law because it was vacated
by the Supreme Court in Zubik. But the Supreme
Court in Zubik specifically declined to decide the merits
of the RFRA challenge to the accommodation, by explicitly refraining from “decid[ing] whether petitioners’
religious exercise has been substantially burdened.”
136 S. Ct. at 1560. Instead, the Supreme Court vacated
Geneva (and related decisions from other Circuit courts)
and remanded for the express purpose of allowing the
parties “an opportunity to arrive at an approach going
forward that accommodates petitioners’ religious exercise while at the same time ensuring that women covered by petitioners’ health plans receive full and equal
health coverage, including contraceptive coverage.”
Id.
Following Zubik, the Third Circuit reiterated in Real
Alternatives that it “continue[s] to believe . . . that
the regulation at issue”—the accommodation—“did
not impose a substantial burden.” Real Alternatives,
867 F.3d at 356 n.18. Defendants characterize this
statement as dicta, and indeed, the issues in the two
cases were slightly distinct. In Geneva, nonprofits eligible for the accommodation asserted that filling out the
accommodation form “facilitated” or “triggered” the

165a
provision of contraceptives, thereby substantially burdening their religious exercise. 778 F.3d at 427. In
Real Alternatives, employees of a secular employer similarly asserted that the Contraceptive Mandate violated
RFRA because their purchase of insurance enabled the
provision of contraceptives. 867 F.3d at 359. What
Defendants overlook is that in Real Alternatives the
Third Circuit reaffirmed and reapplied the reasoning of
Geneva. In both cases, the Third Circuit found that
there was no substantial burden on the plaintiffs’ religious exercise because their actions were insufficiently
related to the provision of contraceptives and “an independent obligation on a third party can[not] impose a
substantial burden on the exercise of religion in violation of RFRA.” Id. at 364 (quoting Geneva, 778 F.3d at
440-41). Accordingly, applying the law of this circuit as
announced in Real Alternatives, the accommodation
does not impose a substantial burden on religious exercise.
The third conclusion—that the Contraceptive Mandate imposes a substantial burden on the religious exercise of publicly traded corporations—goes considerably
beyond existing jurisprudence. In Hobby Lobby, the
Supreme Court found that the Contraceptive Mandate
imposed a substantial burden on the specific plaintiffs in
that case: “closely held corporations, each owned and
controlled by members of a single family.” 134 S. Ct.
at 2774. It explicitly declined to extend its holding to
publicly traded corporations, suggesting that publicly
traded corporations would be unlikely to hold a singular,
sincere religious belief:
These cases, however, do not involve publicly traded
corporations, and it seems unlikely that the sort of

166a
corporate giants to which HHS refers will often assert
RFRA claims. HHS has not pointed to any example
of a publicly traded corporation asserting RFRA
rights, and numerous practical restraints would likely
prevent that from occurring. For example, the idea
that unrelated shareholders—including institutional
investors with their own set of stakeholders—would
agree to run a corporation under the same religious
beliefs seems improbable. In any event, we have no
occasion in these cases to consider RFRA’s applicability to such companies.
Id. Defendants assert that it is reasonable to include
publicly traded corporations in the Religious Exemption. But, as Hobby Lobby makes clear, RFRA does
not “require” this expansion.
Thus, even if the Agencies are correct that the accommodation imposes a substantial burden on religious employers, and that they must act, through regulation, to
relieve that burden, 23 the Final Religious Exemption

Defendants contend that the Final Rules—like earlier rules that
created the exemption and accommodation framework—are merely
the Agencies’ attempts to respond to the Supreme Court’s decisions
in Hobby Lobby, Wheaton College, and Zubik. After each of those
decisions, the Agencies promulgated generally applicable regulations that expanded or modified the exemption and accommodation
framework in an attempt to bring the Agencies’ actions in line with
what the Supreme Court said RFRA commands. According to Defendants, that is all that is happening here, the only difference being
the States have now challenged the Agencies’ authority to do so.
23

Fair enough. Nonetheless, this challenge raises a fundamental
question: whether RFRA grants agencies independent authority
to issue regulations of general applicability, like the Final Religious
Exemption. It is worth noting that the scope of affirmative author-

167a
sweeps further than RFRA would require. The Agencies’ willingness to exceed the bounds of existing case
law demonstrates that the Agencies have cast aside
RFRA’s mandate for “judicial scrutiny . . . in which
ity, if any, that RFRA grants to agencies to issue regulations of general applicability—whether in response to judicial interpretations of
RFRA or based on their own assessments of RFRA’s application—
is distinctly undetermined. Neither Hobby Lobby, nor Wheaton
College, nor Zubik resolved this question—nor, does it appear, has
any other court. The statutory language does not provide a clear
answer. On the one hand, RFRA “applies to all Federal law, and
the implementation of that law, whether statutory or otherwise,”
which could possibly be read to grant agencies some authority to
promulgate regulations on a generalized basis. 42 U.S.C. § 2000bb3(a) (emphasis added). However, RFRA is fundamentally a remedial measure, that by its terms “provide[s] a claim or defense to persons whose religious exercise is substantially burdened by government,” id. at § 2000bb(b)(2), in a “judicial proceeding” in order to “obtain appropriate relief against a government,” id. at § 2000bb-1(c)
(emphasis added). See also Hobby Lobby, 134 S. Ct. at 2775 n.30;
Gonzales, 546 U.S. at 430-31, 434. Indeed, quite recently, the federal government suggested that RFRA does not permit an agency
to create exemptions to regulations absent a judicial determination,
albeit in a case that did not focus on this issue in great depth. See
Iglesia Pentecostal, 718 F. App’x at 653 (recounting federal government’s position that “[a]bsent a judicial finding that the regulation
violates RFRA, neither the director of USCIS nor the AAO has any
discretion to set aside any provision of those regulations.”) (brackets
omitted).
Put simply, it is not clear what, if any, affirmative authority RFRA
grants to agencies to issue regulations of general applicability.
The parties do not point to any authority that resolves this question. Nor has independent research yielded definitive answers.
While this large question looms in the background, the Court need
not decide it here. Whatever the extent of an agency’s authority
under RFRA, the Agencies here have exceeded it in promulgating
the Final Religious Exemption.

168a
a court must consider not only the burden of a requirement on religious adherents, but also the government’s
interest and how narrowly tailored the requirement is.”
Id. at 2775 n.30 (emphasis added). Accordingly, the
Religious Exemption cannot be justified under RFRA.
Because neither the ACA nor RFRA confer authority
on the Agencies to promulgate the Religious Exemption,
the rule is invalid. 24
*

*

*

In light of these conclusions, the States have demonstrated an adequate likelihood of success on the merits
in support of their motion for preliminary relief.
3.

Irreparable Harm

The second factor to consider in deciding the States’
motion is whether they have demonstrated that they are
likely to suffer irreparable harm in the absence of a preliminary injunction. The Supreme Court’s “frequently
reiterated standard requires plaintiffs seeking preliminary relief to demonstrate that irreparable injury is
likely in the absence of an injunction.” Winter, 555
U.S. at 22 (emphasis in original); see id. (“Issuing a preliminary injunction based only on a possibility of irreparable harm is inconsistent with the characterization of
Given its holding that Defendants violated the procedural and
substantive provisions of the APA in issuing the Final Rules, and in
view of the admonition that “courts should be extremely careful not
to issue unnecessary constitutional rulings,” American Foreign Serv.
Ass’n v. Garfinkel, 490 U.S. 153, 161 (1989) (per curiam), it is unnecessary to proceed to the constitutional issues. Similarly, because
the Final Rules violate the substantive provisions of the APA for the
reasons given, there is no need to reach the States’ other statutory
challenges to the Final Rules.
24

169a
injunctive relief as an extraordinary remedy that may
be awarded only upon a clear showing that the plaintiff
is entitled to such relief.”). The States assert that they
will suffer two forms of irreparable harm in the absence
of an injunction: (1) significant damage to the States’
fiscal integrity; and (2) harm to the health, safety, and
wellness of the women of Pennsylvania and New Jersey.
The Court finds both sufficient to justify preliminary relief.
As to the harm to the States’ fiscal integrity, the
States’ evidence demonstrates that it is likely that the
Final Rules will cause direct and irreparable harm.
The States will become obligated to shoulder much of
the burden of providing contraceptive services to women
who lose contraceptive care because their health plans
take advantage of the expanded exemptions contained
in the Final Rules. See Steinberg Decl. ¶¶ 27-29 (discussing Pennsylvania); Geenace Decl. ¶¶ 15-17 (discussing New Jersey). Such women will seek contraceptive
services elsewhere and, as Defendants noted in issuing
the IFRs, may turn to “multiple . . . State[] and local programs that provide free or subsidized contraceptives for low-income women” for alternative coverage.
See 82 Fed. Reg. at 47,803. In Pennsylvania, these
state funded programs include: Medicaid, called “Medical Assistance;” the Family Planning Service Program;
and the Commonwealth’s network of clinics funded under the Title X grant program. See Allen Decl. ¶¶ 3-18;
Steinberg Decl. ¶ 16. New Jersey funds similar programs through Medicaid, known as “NJ Family Care,”
and the State’s Plan First Program. Adelman Dec.
¶¶ 9-14. As women in the States lose contraceptive
coverage through their health insurance plans and turn
to state-funded programs, it is likely that the States will

170a
bear the added financial burden occasioned by the increase in women who need contraceptive care coverage.
See Mendelsohn Decl. ¶¶ 15-18; Allen Decl. ¶ 23; Geenace Decl. ¶¶ 15-18.
The States’ harm is not merely speculative; it is actual and imminent. The Final Rules estimate that at
least 70,500 women will lose coverage. See 83 Fed.
Reg. at 57,578. 25 Thus, the only serious disagreement
is not whether the States will be harmed, but how much.
Though Defendants argue that the States have not identified any individual who has lost coverage already,
there is no need to wait for the axe to fall before an injunction is appropriate, particularly where Defendants
have estimated that it is about to fall on thousands of
women—and, as a corollary, on the States. See Texas,
809 F.3d at 186 (granting relief based on predicted harm
to States’ fiscs).
While “loss of money” is generally insufficient to
merit a preliminary injunction, see Instant Air Freight
Co. v. C.F. Air Freight, Inc., 882 F.2d 797, 801 (3d Cir.
1989), here, the harm to the States’ fiscs is irreparable
because they will not be able to recover any economic
damages that result from the Final Rules. That is because a party—like the States here—which alleges an
APA violation may not recover monetary damages from
the federal government on that claim. See 5 U.S.C.
§ 702 (permitting relief “other than money damages”);
California, 911 F.3d at 581 (finding irreparable harm in
APA case on similar grounds). Therefore, if the Final
Rules are ultimately struck down as violative of the
The States argue that there is reason to believe the number is
significantly higher because organizations taking advantage of the
exemption need not inform the Agencies of their plan to do so.
25

171a
APA, the States will not be able to recoup any money
they expend on contraceptive care in the interim. In
such circumstances, a preliminary injunction is appropriate. See, e.g., N.J. Retail Merchants Ass’n v. SidamonEristoff, 669 F.3d 374, 388 (3d Cir. 2012) (holding that a
preliminary injunction is appropriate where a movant
could not recover damages from a State due to sovereign
immunity).
In addition to pecuniary harm, the States also stand
to suffer injury to their interest in protecting the safety
and well-being of their citizens. See Alfred L. Snapp,
458 U.S. at 607 (observing that a State has a “quasisovereign interest in the health and wellbeing—both
physical and economic—of its residents in general”).
The States’ witnesses explained that employers taking
advantage of the Final Rules will result in more women
losing no-cost contraceptive coverage. Mendelsohn
Decl. ¶¶ 14-15; Adelman Decl. ¶ 20. As a result, women
will likely forgo contraceptive services or seek out less
expensive and less effective types of contraceptive services in the absence of no-cost insurance coverage.
Weisman Decl. ¶¶ 45-48; Chuang Decl. ¶¶ 36-39; see also
Adam Sonfield, What is at Stake with the Federal Contraceptive Coverage Guarantee?, 20 Guttmacher Policy
Review 8, 9 (2017) (reporting that women cite cost as a
significant factor in determining whether to purchase
contraceptive services and which contraceptive services
to use). Disruptions in contraceptive coverage will
lead to women suffering unintended pregnancies and
other medical consequences. Butts Decl. ¶¶ 57-59; Institute of Medicine, Clinical Prevention Services at 107
(explaining that contraceptive services are used to treat
menstrual disorders, acne, hirsutism, and pelvic pain, in

172a
addition to assisting family planning and birth spacing). 26 The negative effects of even a short period of
decreased access to no-cost contraceptive services are
irreversible.
The States have therefore showed that they are likely
to suffer irreparable harm as a result of the Rules’ impact on both the States’ fiscs and the welfare of the
States’ citizens.
4.

Balance of the Equities

The third factor is that the balance of the equities tips
in favor of granting a preliminary injunction. “Balancing the equities” is jurisprudential “jargon for choosing
between conflicting public interests.”
Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609 (1943)
(Frankfurter, J., concurring). Here, Congress has already struck the balance: the Women’s Health Amendment was intended to ensure women received no-cost
coverage for preventive services, which includes contraceptives. As lead sponsor of the Women’s Health Amendment, Senator Barbara Mikulski, explained: the amendment “leaves the decision of which preventive services a
patient will use between the doctor and the patient.”
155 Cong. Rec. S11988 (Nov. 30, 2009) (statement of Sen.
Barbara Mikulski). Congress enacted the Women’s
Health Amendment to guarantee that “the decision
about what is medically appropriate and medically necessary is between a woman and her doctor.”
Id.
Where “Congress itself has struck the balance, [and] has
Increased unplanned pregnancies will also inflict additional pecuniary harm on the States. See Steinberg Decl., ¶ 30 (discussing
study finding that 68% of unplanned births are paid for by public
insurance programs, compared to only 38% of planned births).
26

173a
defined the weight to be given the competing interests,
a court of equity is not justified in ignoring that pronouncement under the guise of exercising equitable discretion.” Youngstown Sheet, 343 U.S. at 609-10.
Here, given the States’ clear interest in securing the
health and well-being of women residents and limiting
their costs for contraceptive services, the balance of the
equities weighs in their favor. Defendants will not be
substantially prejudiced by a preliminary injunction.
If the Final Rules were issued in violation of applicable
law, they will have suffered no harm. If Defendants ultimately prevail, then a preliminary injunction will have
merely delayed their preferred regulatory outcome.
5.

Public Interest

“If a plaintiff proves both a likelihood of success on
the merits and irreparable injury, it almost always will
be the case that the public interests favors preliminary
relief.” Issa v. Sch. Dist. of Lancaster, 847 F.3d 121,
143 (3d Cir. 2017) (internal quotation marks omitted).
So it proves here. A preliminary injunction is unquestionably in the public interest because it maintains the
status quo pending the outcome of this litigation. The
Final Rules permit any entity to opt out of coverage after 30 to 60 days’ notice to plan members. This litigation will not conclude in that short span. A preliminary
injunction will maintain the status quo: those eligible
for exemptions or accommodations prior to October 6,
2017 will maintain their status; those with injunctions
preventing enforcement of the Contraceptive Mandate
will maintain their injunctions; 27 those alleging RFRA
For example, Defendant-Intervenor has secured a permanent
injunction, preventing enforcement of the Contraceptive Mandate
27

174a
violations may pursue “Judicial Relief;” and those with
coverage will maintain their coverage as well.
D.

Remedy

Before concluding, an additional word is required on
the scope of the preliminary injunction to be issued.
When the IFRs were initially before this Court, they
were enjoined generally, without any specific geographic or temporal limitation. See Pennsylvania,
281 F. Supp. 3d at 585.
Since then, however, much has been made about the
propriety (or impropriety) of so-called nation-wide injunctions. See, e.g., Trump v. Hawaii, 138 S. Ct. 2392,
2425 (2018) (Thomas, J., concurring); Zayn Siddique,
Nationwide Injunctions, 117 Colum. L. Rev. 2095 (2017);
Samuel L. Bray, Multiple Chancellors: Reforming the
National Injunction, 131 Harv. L. Rev. 417 (2017). In
light of this increased focus on the proper exercise of
district courts’ remedial powers, it is prudent to explain
in some detail why a nation-wide injunction is appropriate here.
First, it is well established that a district court sitting
in equity has the authority to enter a nation-wide injunction. See Leman v. Krentler-Arnold Hinge Last
Co., 284 U.S. 448, 451 (1932) (holding district court’s order “binding upon the respondent, not simply within the
District of Massachusetts, but throughout the United
States”); Texas, 809 F.3d at 188 (“[T]he Constitution
vests the District Court with ‘the judicial power of the
United States.’ That power is not limited to the district
against it. See Little Sisters of the Poor v. Azar, No. 1:13-cv02611, Dkt. 82 (D. Colo. May 29, 2018). Nothing in this Court’s
ruling will disturb that order.

175a
wherein the court sits but extends across the country.”)
(quoting U.S. Const. art. III, § 1); McLendon v. Cont’l
Can Co., 908 F.2d 1171, 1182 (3d Cir. 1990) (holding
“[f]ull relief required a nationwide injunction”). The
issue, then, is whether a nation-wide injunction is appropriate here, given the facts of this specific case.
“In shaping equity decrees, the trial court is vested
with broad discretionary power.” Lemon v. Kurtzman, 411 U.S. 192, 200 (1973) (plurality opinion). That
is because crafting equitable remedies is an inexact science; instead, “equitable remedies are a special blend of
what is necessary, what is fair, and what is workable.”
Id.; see also Trump v. Int’l Refugee Assistance Project,
137 S. Ct. 2080, 2087 (2017) (“Crafting a preliminary injunction is an exercise of discretion and judgment, often
dependent as much on the equities of a given case as the
substance of the legal issues it presents.”). As Justice
Douglas succinctly put it seventy-five years ago: “[t]he
essence of equity jurisdiction has been the power of the
Chancellor to do equity and to mould each decree to the
necessities of the particular case. Flexibility rather
than rigidity has distinguished it.” Hecht Co. v. Bowles,
321 U.S. 321, 329 (1944).
The Supreme Court articulated the relevant standard for determining the proper scope of a preliminary
injunction in Califano v. Yamasaki, 442 U.S. 682 (1979),
stating that “injunctive relief should be no more burdensome to the defendant than necessary to provide complete relief to the plaintiffs.” Id. at 702 (emphasis
added). Subsequent Supreme Court and lower court
decisions have treated the “no more burdensome than
necessary” rubric as the “general rule” for determining
whether an injunction is overbroad. Madsen v. Women’s

176a
Health Center, Inc., 512 U.S. 753, 765 (1994); see also
Trump, 137 S. Ct. at 2090 (Thomas, J., concurring in
part and dissenting in part); see also McLendon,
908 F.2d at 1182 (“In granting injunctive relief, the
court’s remedy should be no broader than necessary to
provide full relief to the aggrieved plaintiff.”). 28
The Califano standard requires district courts to balance the competing principles of providing complete relief to meritorious plaintiffs against a defendant’s right
to be free from overly burdensome injunctions. The
complete relief requirement reflects the “well-settled
principle that the nature and scope of the remedy are to
be determined by the violation.” Milliken v. Bradley,
433 U.S. 267, 281-82 (1977). Where a violation has been
found, “the remedy does not ‘exceed’ the violation if the
remedy is tailored to cure the ‘condition that offends
[the law.]’ ” Id. at 282 (quoting Milliken v. Bradley,
418 U.S. 717, 738 (1974)).
The complete relief principle explains why, in APA
cases, “when a reviewing court determines that agency
regulations are unlawful, the ordinary result is that the
rules are vacated—not that their application to the individual petitioners is proscribed.” Nat’l Min. Ass’n v.
U.S. Army Corps of Eng’rs, 145 F.3d 1399, 1409 (D.C.
Cir. 1998) (internal quotation marks omitted and emphasis added). Where “agency action . . . consist[s] of
a rule of broad applicability” that violates the strictures
of the APA, Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871,

In Califano, the Court indicated that the “no more burdensome
than necessary” standard is a general rule of injunctions, regardless of whether a nation-wide class-action is certified. See 442 U.S.
at 702.
28

177a
913 (Blackmun, J., dissenting), 29 a remedy “tailored to
cure the condition that offends [the law]” may be correspondingly broad, Milliken, 433 U.S at 282 (internal
quotation marks omitted). Thus, when an individual
challenges agency action and prevails, “the result is that
the rule is invalidated, not simply that the court forbids
its application to a particular individual.”
Lujan,
497 U.S. at 913 (Blackmun, J., dissenting). 30 Put differently, the national character of an APA violation “ordinar[ily]” demands a national remedy.
Nat’l Min.
Ass’n, 145 F.3d at 1409.
At the same time, the Supreme Court has warned
that injunctions should be “no more burdensome to the
defendants than necessary.” Califano, 442 U.S. at 702.
Over fifty years ago, Justice Fortas cautioned:
[A]rming each of the federal district judges in this
Nation with power to enjoin enforcement of regulations and actions under the federal law designed to
protect the people of this Nation . . . is a general
hunting license; and I respectfully submit, a license
for mischief because it authorizes aggression which

In Nat’l Min. Ass’n, the D.C. Circuit explained that, while Justice Blackmun’s observations came in a dissent, they “apparently
express[ed] the view of all nine Justices on this question.” 145 F.3d
at 1409.
30
Indeed, at least one scholar has argued that the language of the
APA—providing that a reviewing court “shall . . . hold unlawful
and set aside” agency action that is arbitrary or capricious, 5 U.S.C.
§ 706—requires courts to vacate all unlawful agency actions.
See Brian S. Prestes, Remanding Without Vacating Agency Action,
32 Seton Hall L. Rev. 108, 110 (2001).
29

178a
is richly rewarded by delay in the subjection of private interests to programs which Congress believes
to be required in the public interest.
Toilet Goods Ass’n v. Gardner, 387 U.S. 167, 183 (1967)
(Fortas, J., dissenting). More recently, the Supreme
Court has warned that overbroad injunctions “have detrimental effect[s] by foreclosing adjudication by a number of different courts and judges,” which “often will be
preferable in order to gain the benefit of adjudication by
different courts in different factual contexts.” Califano, 442 U.S. at 701-02; California, 911 F.3d at 583
(raising same concern). In addition, courts worry that
overly broad injunctions invite “forum shopping, which
hinders the equitable administration of laws.” California, 911 F.3d at 583 (citing Bray, Multiple Chancellors,
131 Harv. L. Rev. at 458-59).
The concerns about overbroad injunctions carry into
APA cases. Courts have, at times, resisted granting
nation-wide relief, even where “agency action . . .
consist[s] of a rule of broad applicability.” Lujan,
497 U.S. at 913 (Blackmun, J., dissenting); see, e.g., California, 911 F.3d at 584 (finding an APA violation, but
concluding “the scope of the preliminary injunction is
overbroad”); Baeder v. Heckler, 768 F.2d 547, 553 (3d
Cir. 1985) (holding regulation invalid, but determining
district court did not have “the authority to issue an injunction aimed at controlling [Agency’s] behavior in
every . . . case in the country”). Thus, while an
APA violation may “ordinar[ily]” result in a nation-wide
remedy, the potential dangers of an overbroad injunction must still be weighed when crafting a remedy for an
APA violation.

179a
The upshot is that striking the appropriate balance
between providing complete relief to meritorious plaintiffs, on the one hand, and protecting defendants from
overly burdensome injunctions, on the other, is necessarily a difficult line-drawing exercise, even in APA
cases.
To see why, recall the injury the States stand to suffer from enforcement of the Final Rules: both Pennsylvania and New Jersey complain that, because enforcement of the Final Rules will result in “numerous
insureds—and their female dependents—[losing] the
medical coverage for contraceptive care required by the
Affordable Care Act,” the States will suffer “significant,
direct and proprietary harm” in the form of increased
use of state-funded contraceptive services as well as increased costs associated with unintended pregnancies.
Affording complete relief to the States would require
the Court to enjoin enforcement of the Final Rules as to
all entities that “offer[] and arrange[]” health insurance
to insureds residing in Pennsylvania or New Jersey. 31
But drafting—much less enforcing—a preliminary
injunction that runs only to those entities is nigh impossible. Neither the Court nor the parties can readily ascertain what those entities are or whether they intend
to take advantage of the exemption, given that providing
Even that may not provide complete relief because a nonresident that lost contraceptive coverage may try to take advantage
of the States’ programs. Cf. Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292, 2304 (2016) (explaining that, following the enactment
of a Texas regulation that would force the closure of abortion clinics
in west Texas, “the Court of Appeals said that women in El Paso
wishing to have an abortion could use abortion providers in nearby
New Mexico”).
31

180a
notice to the Agencies is only optional under the Final
Rules. At the same time, the Court cannot, consistent
with Rule 65 of the Federal Rules of Civil Procedure
simply and broadly enjoin “all entities that offer and arrange health insurance to insureds residing in Pennsylvania or New Jersey.” That is because “[e]very order
granting an injunction . . . must . . . state its
terms specifically and describe in reasonable detail—
and not by referring to the complaint or other
document—the act or acts restrained.” Fed. R. Civ. P.
65 (internal punctuation omitted).
Given the challenges associated with crafting a “perfect” injunction, district courts tend to rely on geographic proxies when tailoring a remedy. For example, the Ninth Circuit—hearing an appeal from a district
court decision that also enjoined the enforcement of the
IFRs nation-wide—held that “an injunction that applies
only to the plaintiff states would provide complete
relief to them.” California, 911 F.3d at 584; see also
California v. Health & Human Servs., — F. Supp. —,
No. 17-cv-5783, ECF No. 234 (N.D. Cal. 2019) (enjoining
enforcement of Final Rules within plaintiff States only).
Defendants similarly argue that, if the Final Rules are
to be enjoined, then the injunction should be limited to
Pennsylvania and New Jersey.
The problem with the Ninth Circuit’s approach, however, is that it simply does not afford the meritorious
plaintiffs—the States—complete relief. Hundreds of
thousands of the States’ citizens travel across state
lines—to New York, Ohio, Delaware, Maryland, West
Virginia and even further afield—to work for out-ofstate entities. See Amici Curiae Brief of Massachu-

181a
setts, et al. in Support of Plaintiffs’ Motion for a Preliminary Injunction, at 13-14 (2019) (noting that “548,040
New Jersey residents, or 14% of the workforce, and
299,970 Pennsylvania residents, or 5.4% of the workforce” travel to jobs in other states) (citing U.S. Census
Bureau, Out-of-State and Long Commutes: 2011, American Community Survey Reports, at 10 (Feb. 2013), available at https://www2.census.gov/library/publications/
2013/acs/acs-20.pdf ). Furthermore, with their many
universities and educational institutes, the States take
in tens of thousands of out-of-state students each year.
Id. at 14 (noting that Pennsylvania takes in 32,000 outof-state students alone) (citing Nat’l Ctr. for Education
Statistics, Residence and Migration of All First-Time
Degree/Certificate-Seeking Undergraduates (2017), available at https://nces.ed.gov/programs/digest/d17/tables/
dt17_309.20.asp?current=ye).
An injunction limited to Pennsylvania and New Jersey would, by its terms, not reach Pennsylvania and
New Jersey citizens who work for out-of-state employers. Despite residing in the States, those out-of-state
workers could lose contraceptive coverage if the out-ofstate employers took advantage of the exemptions included in the Final Rules, resulting in proprietary harm
to the States. Nor would an injunction limited to the
States cover out-of-state students attending school in
Pennsylvania and New Jersey, who may not be considered “residents” of the States. Such students, by remaining on their parents’ out-of-state employer-based
health plans or other health insurance through their
State of “residency,” could lose contraceptive coverage
but still turn to in-state publicly-funded clinics for contraceptive coverage. Put differently, “an injunction

182a
that applies only to the plaintiff states” would not “provide complete relief to them” because it would not “prevent the economic harm extensively detailed in the record.” California, 911 F.3d at 584.
Injunctions that are intermediate in geographic
scope—that is, applicable beyond the States but not
nation-wide—encounter the same problems in ensuring
“complete relief to the plaintiffs.” Madsen, 512 U.S. at
765. An injunction limited to the Third Circuit, for example, would fail to account for the thousands of Pennsylvania and New Jersey citizens that commute to
neighboring or nearby states outside the Third Circuit
for work. Similarly, an injunction covering the surrounding states would not account for the fact that the
States draw out-of-state students from across the nation.
At the same time, the Court recognizes that, on the
record before it, a nation-wide injunction may prove
“broader than necessary to provide full relief” to the
States. McLendon, 908 F.2d at 1182. The States concede, for example, that there is no evidence that any citizen of the States physically commutes to New Mexico,
so an injunction that covers the Land of Enchantment
appears “broader than unnecessary.” Nor have the
States presented evidence of a New Mexican that currently attends a Pennsylvania or New Jersey institute
of higher learning, who may lose her contraceptive coverage through her out-of-state insurance. The same
can be said for a host of other states.
Ultimately, crafting a remedy that provides “complete relief to the plaintiffs,” while being “no more burdensome to the defendant than necessary” would require empirical data—the working conditions of each

183a
and every citizen of the States—that is simply not ascertainable. 32 In the absence of such information, the Court
must exercise “discretion and judgment,” Trump,
137 S. Ct. at 2087, in balancing the competing risks and
uncertainties associated with either a potentially underor over-inclusive remedy, bearing in mind the maxim
that “[w]e should not allow the infeasible perfect to oust
the feasible good.” Resorts Int’l Hotel Casino v. NLRB,
996 F.2d 1553, 1558 (3d Cir. 1993) (internal quotation
marks and alternations omitted).
On balance, the Court finds that, in this case, potential over-inclusiveness is the more prudent route. For
one, anything short of a nation-wide injunction would
likely fail to provide the States “complete relief.” Cf.
Texas, 809 F.3d at 188 (“[T]here is a substantial likelihood that a geographically-limited injunction would be
ineffective because DAPA beneficiaries would be free to
move among states,” which would leave Texas open to
potential injury); see also Siddique, Nationwide Injunctions, 117 Colum. L. Rev. at 2146-47 (“If one agrees with
the district court that Texas suffers some injury from
having deferred action beneficiaries within its territorial boundaries, the only way to afford complete relief to
Texas and prevent any deferred action beneficiaries
from making their way to Texas is by enjoining the
grant of deferred action nationwide.”). While a nationwide injunction may prove overbroad, there is no more
geographically limited injunction that protects the
States from potential harm.
This is neither an explicit or implicit critique of the parties. Rather, it is the frank observation that crafting a perfect remedy would
require information that would be insurmountable to gather and
maintain.
32

184a
Second, it is far from clear how burdensome a nationwide injunction would be on Defendants, given that
when “agency regulations are unlawful, the ordinary result is that the rules are vacated—not that their application to the individual petitioners is proscribed.”
Nat’l Min. Ass’n, 145 F.3d at 1409.
Third, one of the risks associated with a nation-wide
injunction—namely, “foreclosing adjudication by a number of different courts,” Califano, 442 U.S. at 701-02—
is not necessarily present here, as the parallel litigation
in the Ninth Circuit evidences. See also Spencer E.
Amdur & David Hausman, Nationwide Injunctions and
Nationwide Harm, 131 Harv. L. Rev. F. 49, 53 n.27
(2017) (noting that “in practice, nationwide injunctions
do not always foreclose percolation,” and giving several
recent examples).
Fundamentally, given the harm to the States should
the Final Rules be enforced—numerous citizens losing
contraceptive coverage, resulting in “significant, direct
and proprietary harm” to the States in the form of increased use of state-funded contraceptive services, as well
as increased costs associated with unintended pregnancies
—a nation-wide injunction is required to ensure complete relief to the States.
An appropriate order follows.
Jan. 14, 2019

BY THE COURT:
/s/

WENDY BEETLESTONE, J.
WENDY BEETLESTONE, J.

185a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

No. 17-4540
COMMONWEALTH OF PENNSYLVANIA AND STATE OF
NEW JERSEY, PLAINTIFFS
v.
DONALD J. TRUMP, ALEX M. AZAR II, UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
STEVEN T. MNUCHIN, UNITED STATES DEPARTMENT
OF THE TREASURY, RENE ALEXANDER ACOSTA, THE
UNITED STATES DEPARTMENT OF LABOR, AND THE
UNITED STATES OF AMERICA, DEFENDANTS
LITTLE SISTERS OF THE POOR SAINTS PETER AND
PAUL HOME, DEFENDANT-INTERVENOR
Filed: Jan. 14, 2019
ORDER
AND NOW, this 14th day of January, 2019, upon con-

sideration of the Plaintiffs’ Second Motion for a Preliminary Injunction (ECF No. 90), Defendants’ and
Defendant-Intervenor’s Responses thereto (ECF Nos.
107 & 108), the Plaintiffs’ Reply in Support thereof
(ECF No. 118), the Administrative Record (ECF Nos.
23, 47 & 126), Briefs of the Amici Curiae (ECF Nos. 110,
112, 113, 115, 117 & 127), and following a Hearing on
Plaintiffs’ Motion on January 10, 2019, IT IS HEREBY
ORDERED that the Motion is GRANTED.

186a
It is FURTHER ORDERED that Defendants Alex M.
Azar II, as Secretary of the United States Department
of Health and Human Service; the United States Department of Health and Human Services; Steven T.
Mnuchin, as Secretary of the United States Department
of Treasury; the United States Department of Treasury;
Rene Alexander Acosta, as Secretary of the United
States Department of Labor; and the United States Department of Labor; 1 and their officers, agents, servants, employees, attorneys, designees, and subordinates, as well as any person acting in concert or participation with them, are hereby ENJOINED from enforcing
the following Final Rules across the Nation, pending
further order of this Court:
1.

Religious Exemptions and Accommodations for
Coverage of Certain Preventive Services Under
the Affordable Care Act, 83 Fed. Reg. 57,536
(Nov. 15, 2018); and

2.

Moral Exemptions and Accommodations for
Coverage of Certain Preventive Services Under
the Affordable Care Act, 83 Fed. Reg. 57,592
(Nov. 15, 2018).

The Court has considered the issue of security pursuant to Rule 65(c) of the Federal Rules of Civil Procedure and determines that Defendants will not suffer any
financial loss that warrants the need for the Plaintiffs to
post security.

In light of the constitutional concerns associated with enjoining
the President of the United States for a claim under the Administrative Procedure Act, this injunction does not apply to the President.
See Franklin v. Massachusetts, 505 U.S. 788, 801 (1992).
1

187a
BY THE COURT:
/s/

WENDY BEETLESTONE, J.
WENDY BEETLESTONE, J.

188a
APPENDIX F

1.

5 U.S.C. 553(b) and (c) provide:

Rule making

(b) General notice of proposed rule making shall be
published in the Federal Register, unless persons subject
thereto are named and either personally served or otherwise have actual notice thereof in accordance with law.
The notice shall include—
(1) a statement of the time, place, and nature of
public rule making proceedings;
(2) reference to the legal authority under which
the rule is proposed; and
(3) either the terms or substance of the proposed
rule or a description of the subjects and issues involved.
Except when notice or hearing is required by statute, this
subsection does not apply—
(A) to interpretative rules, general statements of
policy, or rules of agency organization, procedure, or
practice; or
(B) when the agency for good cause finds (and incorporates the finding and a brief statement of reasons
therefor in the rules issued) that notice and public procedure thereon are impracticable, unnecessary, or contrary to the public interest.
(c) After notice required by this section, the agency
shall give interested persons an opportunity to participate
in the rule making through submission of written data,
views, or arguments with or without opportunity for oral
presentation. After consideration of the relevant matter

189a
presented, the agency shall incorporate in the rules
adopted a concise general statement of their basis and
purpose. When rules are required by statute to be made
on the record after opportunity for an agency hearing, sections 556 and 557 of this title apply instead of this subsection.
2.

42 U.S.C. 300gg-13(a) provides:

Coverage of preventive health services
(a) In general

A group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall not
impose any cost sharing requirements for—
(1) evidence-based items or services that have in
effect a rating of “A” or “B” in the current recommendations of the United States Preventive Services
Task Force;
(2) immunizations that have in effect a recommendation from the Advisory Committee on Immunization Practices of the Centers for Disease Control
and Prevention with respect to the individual involved; and 1
(3) with respect to infants, children, and adolescents, evidence-informed preventive care and screenings provided for in the comprehensive guidelines

1

So in original.

The word “and” probably should not appear.

190a
supported by the Health Resources and Services Administration. 2
(4) with respect to women, such additional preventive care and screenings not described in paragraph (1) as provided for in comprehensive guidelines supported by the Health Resources and Services Administration for purposes of this paragraph.2
(5) for the purposes of this chapter, and for the
purposes of any other provision of law, the current
recommendations of the United States Preventive
Service Task Force regarding breast cancer screening, mammography, and prevention shall be considered the most current other than those issued in or
around November 2009.
Nothing in this subsection shall be construed to prohibit
a plan or issuer from providing coverage for services in
addition to those recommended by United States Preventive Services Task Force or to deny coverage for services that are not recommended by such Task Force.
3.

42 U.S.C. 2000bb-1 provides:

Free exercise of religion protected
(a) In general

Government shall not substantially burden a person’s
exercise of religion even if the burden results from a rule
of general applicability, except as provided in subsection
(b) of this section.

2

So in original.

The period probably should be a semicolon.

191a
(b) Exception

Government may substantially burden a person’s exercise of religion only if it demonstrates that application
of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering
that compelling governmental interest.
(c) Judicial relief

A person whose religious exercise has been burdened
in violation of this section may assert that violation as a
claim or defense in a judicial proceeding and obtain appropriate relief against a government. Standing to assert a claim or defense under this section shall be governed by the general rules of standing under article III
of the Constitution.
4.

45 C.F.R. 147.131(a) (2016) provides:

Exemption and accommodations in connection with coverage of preventive health services.

(a) Religious employers. In issuing guidelines under § 147.130(a)(1)(iv), the Health Resources and Services Administration may establish an exemption from
such guidelines with respect to a group health plan established or maintained by a religious employer (and
health insurance coverage provided in connection with a
group health plan established or maintained by a religious employer) with respect to any requirement to
cover contraceptive services under such guidelines.

192a
For purposes of this paragraph (a), a “religious employer” is an organization that is organized and operates
as a nonprofit entity and is referred to in section
6033(a)(3)(A)(i) or (iii) of the Internal Revenue Code of
1986, as amended.
5.

45 C.F.R. 147.131 provides:

Accommodations in connection with coverage of certain
preventive health services.

(a)-(b) [Reserved]
(c) Eligible organizations for optional accommodation. An eligible organization is an organization that
meets the criteria of paragraphs (c)(1) through (3) of
this section.
(1) The organization is an objecting entity described
in § 147.132(a)(1)(i) or (ii), or 45 CFR 147.133(a)(1)(i) or
(ii).
(2) Notwithstanding its exempt status under
§ 147.132(a) or § 147.133, the organization voluntarily
seeks to be considered an eligible organization to invoke
the optional accommodation under paragraph (d) of this
section; and
(3) The organization self-certifies in the form and
manner specified by the Secretary or provides notice to
the Secretary as described in paragraph (d) of this section. To qualify as an eligible organization, the organization must make such self-certification or notice available for examination upon request by the first day of the
first plan year to which the accommodation in paragraph
(d) of this section applies. The self-certification or notice must be executed by a person authorized to make

193a
the certification or provide the notice on behalf of the
organization, and must be maintained in a manner consistent with the record retention requirements under
section 107 of ERISA.
(4) An eligible organization may revoke its use of
the accommodation process, and its issuer must provide
participants and beneficiaries written notice of such revocation as specified in guidance issued by the Secretary
of the Department of Health and Human Services. If
contraceptive coverage is currently being offered by an
issuer through the accommodation process, the revocation will be effective on the first day of the first plan year
that begins on or after 30 days after the date of the revocation (to allow for the provision of notice to plan participants in cases where contraceptive benefits will no
longer be provided). Alternatively, an eligible organization may give 60-days notice pursuant to section
2715(d)(4) of the PHS Act and § 147.200(b), if applicable,
to revoke its use of the accommodation process.
(d) Optional accommodation insured group health
plans (1) General rule. A group health plan established
or maintained by an eligible organization that provides
benefits through one or more group health insurance issuers may voluntarily elect an optional accommodation
under which its health insurance issuer(s) will provide
payments for all or a subset of contraceptive services for
one or more plan years. To invoke the optional accommodation process:
(i) The eligible organization or its plan must contract with one or more health insurance issuers.
(ii) The eligible organization must provide either a
copy of the self-certification to each issuer providing

194a
coverage in connection with the plan or a notice to the
Secretary of the Department of Health and Human Services that it is an eligible organization and of its objection as described in § 147.132 or § 147.133 to coverage
for all or a subset of contraceptive services.
(A) When a self-certification is provided directly to
an issuer, the issuer has sole responsibility for providing
such coverage in accordance with § 147.130(a)(iv).
(B) When a notice is provided to the Secretary of the
Department of Health and Human Services, the notice
must include the name of the eligible organization; a
statement that it objects as described in § 147.132 or
§ 147.133 to coverage of some or all contraceptive services (including an identification of the subset of contraceptive services to which coverage the eligible organization objects, if applicable) but that it would like to elect
the optional accommodation process; the plan name and
type (that is, whether it is a student health insurance
plan within the meaning of § 147.145(a) or a church plan
within the meaning of section 3(33) of ERISA); and the
name and contact information for any of the plan’s
health insurance issuers. If there is a change in any of
the information required to be included in the notice, the
eligible organization must provide updated information
to the Secretary of the Department of Health and Human Services for the optional accommodation to remain
in effect. The Department of Health and Human Services will send a separate notification to each of the
plan’s health insurance issuers informing the issuer that
the Secretary of the Deparement of Health and Human
Services has received a notice under paragraph (d)(1)(ii)
of this section and describing the obligations of the issuer under this section.

195a
(2) If an issuer receives a copy of the self-certification
from an eligible organization or the notification from the
Department of Health and Human Services as described
in paragraph (d)(1)(ii) of this section and does not have
an objection as described in § 147.132 or § 147.133 to
providing the contraceptive services identified in the
self-certification or the notification from the Department of Health and Human Services, then the issuer will
provide payments for contraceptive services as follows—
(i) The issuer must expressly exclude contraceptive
coverage from the group health insurance coverage provided in connection with the group health plan and provide separate payments for any contraceptive services
required to be covered under § 141.130(a)(1)(iv) for plan
participants and beneficiaries for so long as they remain
enrolled in the plan.
(ii) With respect to payments for contraceptive services, the issuer may not impose any cost-sharing requirements (such as a copayment, coinsurance, or a deductible), premium, fee, or other charge, or any portion
thereof, directly or indirectly, on the eligible organization, the group health plan, or plan participants or beneficiaries. The issuer must segregate premium revenue collected from the eligible organization from the
monies used to provide payments for contraceptive services. The issuer must provide payments for contraceptive services in a manner that is consistent with the
requirements under sections 2706, 2709, 2711, 2713,
2719, and 2719A of the PHS Act. If the group health
plan of the eligible organization provides coverage for
some but not all of any contraceptive services required
to be covered under § 147.130(a)(1)(iv), the issuer is required to provide payments only for those contraceptive

196a
services for which the group health plan does not provide coverage. However, the issuer may provide payments for all contraceptive services, at the issuer’s option.
(3) A health insurance issuer may not require any
documentation other than a copy of the self-certification
from the eligible organization or the notification from
the Department of Health and Human Services described in paragraph (d)(1)(ii) of this section.
(e) Notice of availability of separate payments for
contraceptive services—insured group health plans and
student health insurance coverage. For each plan year
to which the optional accommodation in paragraph (d) of
this section is to apply, an issuer required to provide
payments for contraceptive services pursuant to paragraph (d) of this section must provide to plan participants and beneficiaries written notice of the availability
of separate payments for contraceptive services contemporaneous with (to the extent possible), but separate
from, any application materials distributed in connection
with enrollment (or re-enrollment) in group health coverage that is effective beginning on the first day of each
applicable plan year. The notice must specify that the
eligible organization does not administer or fund contraceptive benefits, but that the issuer provides separate
payments for contraceptive services, and must provide
contact information for questions and complaints. The
following model language, or substantially similar language, may be used to satisfy the notice requirement of
this
paragraph
(e)
“Your
[employer/
institution of higher education] has certified that
your [group health plan/student health insurance coverage] qualifies for an accommodation with respect to

197a
the Federal requirement to cover all Food and Drug
Administration-approved contraceptive services for
women, as prescribed by a health care provider, without cost sharing. This means that your [employer/
institution of higher education] will not contract, arrange, pay, or refer for contraceptive coverage. Instead, [name of health insurance issuer] will provide
separate payments for contraceptive services that you
use, without cost sharing and at no other cost, for so long
as you are enrolled in your [group health plan/student
health insurance coverage]. Your [employer/institution of higher education] will not administer or fund
these payments. If you have any questions about this
notice, contact [contact information for health insurance
issuer].”
(f ) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or coverage includes contraceptive or sterilization items, procedures, or services, or related patient education or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(g) Severability. Any provision of this section held
to be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so as
to continue to give maximum effect to the provision permitted by law, unless such holding shall be one of utter
invalidity or unenforceability, in which event the provision shall be severable from this section and shall not
affect the remainder thereof or the application of the
provision to persons not similarly situated or to dissimilar circumstances.

198a
6. 45 C.F.R. 147.131, as amended by 83 Fed. Reg.
57,589 (Nov. 15, 2018), provides in pertinent part:
Accommodations in connection with coverage of certain
preventive health services.

*

*

*

*

*

(c) * * *
(4) An eligible organization may revoke its use of
the accommodation process, and its issuer must provide
participants and beneficiaries written notice of such revocation, as specified herein.
(i) Transitional rule—If contraceptive coverage is
being offered on January 14, 2019, by an issuer through
the accommodation process, an eligible organization
may give 60-days notice pursuant to section 2715(d)(4)
of the PHS Act and § 147.200(b), if applicable, to revoke
its use of the accommodation process (to allow for the
provision of notice to plan participants in cases where
contraceptive benefits will no longer be provided). Alternatively, such eligible organization may revoke its
use of the accommodation process effective on the first
day of the first plan year that begins on or after 30 days
after the date of the revocation.
(ii) General rule—In plan years that begin after
January 14, 2019, if contraceptive coverage is being offered by an issuer through the accommodation process,
an eligible organization’s revocation of use of the accommodation process will be effective no sooner than the
first day of the first plan year that begins on or after 30
days after the date of the revocation.
*

*

*

*

*

199a
(f ) Reliance—(1) If an issuer relies reasonably and
in good faith on a representation by the eligible organization as to its eligibility for the accommodation in paragraph (d) of this section, and the representation is later
determined to be incorrect, the issuer is considered
to comply with any applicable requirement under
§ 147.130(a)(1)(iv) to provide contraceptive coverage if
the issuer complies with the obligations under this section applicable to such issuer.
(2) A group health plan is considered to comply with
any applicable requirement under § 147.130(a)(1)(iv) to
provide contraceptive coverage if the plan complies with
its obligations under paragraph (d) of this section, without regard to whether the issuer complies with the obligations under this section applicable to such issuer.
*
7.

*

*

*

*

45 C.F.R. 147.132 provides:

Religious exemptions in connection with coverage of certain preventive health services.

(a) Objecting entities. (1) Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and Services
Administration must not provide for or support the requirement of coverage or payments for contraceptive
services with respect to a group health plan established
or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting
organization, and thus the Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to the provision of contraceptive
services:

200a
(i) A group health plan and health insurance coverage provided in connection with a group health plan to
the extent the non-governmental plan sponsor objects as
specified in paragraph (a)(2) of this section. Such nongovernmental plan sponsors include, but are not limited
to, the following entities—
(A) A church, an integrated auxiliary of a church, a
convention or association of churches, or a religious order.
(B) A nonprofit organization.
(C) A closely held for-profit entity.
(D) A for-profit entity that is not closely held.
(E) Any other non-governmental employer.
(ii) An institution of higher education as defined in
20 U.S.C. 1002 in its arrangement of student health insurance coverage, to the extent that institution objects
as specified in paragraph (a)(2) of this section. In the
case of student health insurance coverage, this section
is applicable in a manner comparable to its applicability
to group health insurance coverage provided in connection with a group health plan established or maintained
by a plan sponsor that is an employer, and references to
“plan participants and beneficiaries” will be interpreted
as references to student enrollees and their covered dependents; and
(iii) A health insurance issuer offering group or individual insurance coverage to the extent the issuer objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group health
insurance coverage is exempt under this paragraph
(a)(1)(iii), the plan remains subject to any requirement

201a
to provide coverage for contraceptive services under
Guidelines issued under § 147.130(a)(1)(iv) unless it is
also exempt from that requirement.
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects to its establishing, maintaining,
providing, offering, or arranging (as applicable) coverage, payments, or a plan that provides coverage or payments for some or all contraceptive services, based on
its sincerely held religious beliefs.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate benefit package option, or a separate policy, certificate or contract of insurance, to any individual
who objects to coverage or payments for some or all contraceptive services based on sincerely held religious beliefs.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or coverage includes contraceptive or sterilization items, procedures, or services, or related patient education or
counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).

202a
(d) Severability. Any provision of this section held
to be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so as
to continue to give maximum effect to the provision permitted by law, unless such holding shall be one of utter
invalidity or unenforceability, in which event the provision shall be severable from this section and shall not
affect the remainder thereof or the application of the
provision to persons not similarly situated or to dissimilar circumstances.
8. 45 C.F.R. 147.132, as amended by 83 Fed. Reg.
57,590 (Nov. 15, 2018), provides in pertinent part:
Religious exemptions in connection with coverage of certain preventive health services.

(a) * * *
(1) Guidelines issued under § 147.130(a)(1)(iv) by
the Health Resources and Services Administration must
not provide for or support the requirement of coverage
or payments for contraceptive services with respect to a
group health plan established or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting organization, to the
extent of the objections specified below. Thus the
Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to
the provision of contraceptive services:
*

*

*

*

*

(ii) A group health plan, and health insurance coverage provided in connection with a group health plan,
where the plan or coverage is established or maintained

203a
by a church, an integrated auxiliary of a church, a convention or association of churches, a religious order, a
nonprofit organization, or other non-governmental organization or association, to the extent the plan sponsor
responsible for establishing and/or maintaining the plan
objects as specified in paragraph (a)(2) of this section.
The exemption in this paragraph applies to each employer, organization, or plan sponsor that adopts the
plan;
(iii) An institution of higher education as defined in
20 U.S.C. 1002, which is non-governmental, in its arrangement of student health insurance coverage, to the
extent that institution objects as specified in paragraph
(a)(2) of this section. In the case of student health insurance coverage, this section is applicable in a manner
comparable to its applicability to group health insurance
coverage provided in connection with a group health
plan established or maintained by a plan sponsor that is
an employer, and references to ‘‘plan participants and
beneficiaries’’ will be interpreted as references to student enrollees and their covered dependents; and
(iv) A health insurance issuer offering group or individual insurance coverage to the extent the issuer objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group health
insurance coverage is exempt under this subparagraph
(iv), the group health plan established or maintained by
the plan sponsor with which the health insurance issuer
contracts remains subject to any requirement to provide
coverage for contraceptive services under Guidelines issued under § 147.130(a)(1)(iv) unless it is also exempt
from that requirement.

204a
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects, based on its sincerely held religious beliefs, to its establishing, maintaining, providing,
offering, or arranging for (as applicable):
(i) Coverage or payments for some or all contraceptive services; or
(ii) A plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate policy, certificate or contract of insurance
or a separate group health plan or benefit package option, to any group health plan sponsor (with respect to
an individual) or individual, as applicable, who objects to
coverage or payments for some or all contraceptive services based on sincerely held religious beliefs. Under
this exemption, if an individual objects to some but not
all contraceptive services, but the issuer, and as applicable, plan sponsor, are willing to provide the plan sponsor
or individual, as applicable, with a separate policy, certificate or contract of insurance or a separate group
health plan or benefit package option that omits all con-

205a
traceptives, and the individual agrees, then the exemption applies as if the individual objects to all contraceptive services.
*
9.

*

*

*

*

45 C.F.R. 147.133 provides:

Moral exemptions in connection with coverage of certain
preventive health services.

(a) Objecting entities. (1) Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and Services
Administration must not provide for or support the requirement of coverage or payments for contraceptive
services with respect to a group health plan established
or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting
organization, and thus the Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to the provision of contraceptive
services:
(i) A group health plan and health insurance coverage provided in connection with a group health plan to
the extent one of the following non-governmental plan
sponsors object as specified in paragraph (a)(2) of this
section:
(A) A nonprofit organization; or
(B) A for-profit entity that has no publicly traded
ownership interests (for this purpose, a publicly traded
ownership interest is any class of common equity securities required to be registered under section 12 of the
Securities Exchange Act of 1934);

206a
(ii) An institution of higher education as defined in
20 U.S.C. 1002 in its arrangement of student health insurance coverage, to the extent that institution objects
as specified in paragraph (a)(2) of this section. In the
case of student health insurance coverage, this section
is applicable in a manner comparable to its applicability
to group health insurance coverage provided in connection with a group health plan established or maintained
by a plan sponsor that is an employer, and references to
“plan participants and beneficiaries” will be interpreted
as references to student enrollees and their covered dependents; and
(iii) A health insurance issuer offering group or individual insurance coverage to the extent the issuer objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group health
insurance coverage is exempt under paragraph (a)(1)(iii)
of this section, the group health plan established or
maintained by the plan sponsor with which the health
insurance issuer contracts remains subject to any requirement to provide coverage for contraceptive services under Guidelines issued under § 147.130(a)(1)(iv)
unless it is also exempt from that requirement.
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects to its establishing, maintaining,
providing, offering, or arranging (as applicable) coverage or payments for some or all contraceptive services,
or for a plan, issuer, or third party administrator that
provides or arranges such coverage or payments, based
on its sincerely held moral convictions.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and

207a
Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate policy, certificate or contract of insurance
or a separate group health plan or benefit package option, to any individual who objects to coverage or payments for some or all contraceptive services based on
sincerely held moral convictions.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or coverage includes contraceptive or sterilization items, procedures, or services, or related patient education or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(d) Severability. Any provision of this section held
to be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so as
to continue to give maximum effect to the provision permitted by law, unless such holding shall be one of utter
invalidity or unenforceability, in which event the provision shall be severable from this section and shall not
affect the remainder thereof or the application of the
provision to persons not similarly situated or to dissimilar circumstances.

208a
10. 45 C.F.R. 147.133, as amended by 83 Fed. Reg.
57,630 (Nov. 15, 2018), provides in pertinent part:
Moral exemptions in connection with coverage of certain
preventive health services.

(a) * * *
(1) Guidelines issued under § 147.130(a)(1)(iv) by
the Health Resources and Services Administration must
not provide for or support the requirement of coverage
or payments for contraceptive services with respect to a
group health plan established or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting organization, to the
extent of the objections specified below. Thus the
Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to
the provision of contraceptive services:
*

*

*

*

*

(ii) An institution of higher education as defined in
20 U.S.C. 1002, which is non-governmental, in its arrangement of student health insurance coverage, to the
extent that institution objects as specified in paragraph
(a)(2) of this section. In the case of student health insurance coverage, this section is applicable in a manner
comparable to its applicability to group health insurance
coverage provided in connection with a group health
plan established or maintained by a plan sponsor that is
an employer, and references to ‘‘plan participants and
beneficiaries’’ will be interpreted as references to student enrollees and their covered dependents; and
* * * * *

209a
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects, based on its sincerely held moral
convictions, to its establishing, maintaining, providing,
offering, or arranging for (as applicable):
(i) Coverage or payments for some or all contraceptive services; or
(ii) A plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate policy, certificate or contract of insurance
or a separate group health plan or benefit package option, to any group health plan sponsor (with respect to
an individual) or individual, as applicable, who objects to
coverage or payments for some or all contraceptive services based on sincerely held moral convictions. Under
this exemption, if an individual objects to some but not
all contraceptive services, but the issuer, and as applicable, plan sponsor, are willing to provide the plan sponsor
or individual, as applicable, with a separate policy, certificate or contract of insurance or a separate group
health plan or benefit package option that omits all con-

210a
traceptives, and the individual agrees, then the exemption applies as if the individual objects to all contraceptive services.
* * * * *

